<html>
<title> - READINESS IMPACT OF RANGE ENCROACHMENT ISSUES, INCLUDING ENDANGERED SPECIES AND CRITICAL HABITATS; SUSTAINMENT OF THE MARITIME ENVIRONMENT; AIRSPACE MANAGEMENT; URBAN SPRAWL; AIR POLLUTION; UNEXPLODED ORDINANCE; AND NOISE</title>
<body><pre>[Senate Hearing 107-737]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-737
 
  READINESS IMPACT OF RANGE ENCROACHMENT ISSUES, INCLUDING ENDANGERED 
SPECIES AND CRITICAL HABITATS; SUSTAINMENT OF THE MARITIME ENVIRONMENT; 
AIRSPACE MANAGEMENT; URBAN SPRAWL; AIR POLLUTION; UNEXPLODED ORDINANCE; 
                               AND NOISE 

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON READINESS AND MANAGEMENT SUPPORT

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-415 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  
































                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                 ______

            Subcommittee on Readiness and Management Support

                  JAMES M. INHOFE, Oklahoma, Chairman

STROM THURMOND, South Carolina       DANIEL K. AKAKA, Hawaii
JOHN McCAIN, Arizona                 ROBERT C. BYRD, West Virginia
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
JIM BUNNING, Kentucky                E. BENJAMIN NELSON, Nebraska
                                     MARK DAYTON, Minnesota

                                  (ii)

  
























                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

  Readiness Impact of Range Encroachment Issues, Including Endangered 
Species and Critical Habitats; Sustainment of the Maritime Environment; 
Airspace Management; Urban Sprawl; Air Pollution; Unexploded Ordinance; 
                               and Noise

                             march 20, 2001

                                                                   Page

Amerault, Vice Adm. James F., USN, Deputy Chief of Naval 
  Operations, Fleet Readiness and Logistics......................     6
Van Antwerp, Maj. Gen. Robert L., Jr., USA, Assistant Chief of 
  Staff for Installation Management; Accompanied by Brig. Gen. 
  William G. Webster, USA, Director of Training..................    17
Hanlon, Maj. Gen. Edward, Jr., USMC, Commanding General, Camp 
  Pendleton, California..........................................    29
Buchanan, Maj. Gen. Walter E.L., III, USAF, Deputy Chief of Staff 
  for Air and Space Operations...................................    38

                                 (iii)


  READINESS IMPACT OF RANGE ENCROACHMENT ISSUES, INCLUDING ENDANGERED 
SPECIES AND CRITICAL HABITATS; SUSTAINMENT OF THE MARITIME ENVIRONMENT; 
AIRSPACE MANAGEMENT; URBAN SPRAWL; AIR POLLUTION; UNEXPLODED ORDINANCE; 
                               AND NOISE

                              ----------                              


                        TUESDAY, MARCH 20, 2001

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:31 a.m., in 
room SR-232A, Russell Senate Office Building, Senator James M. 
Inhofe (chairman of the subcommittee) presiding.
    Committee members present: Senators Inhofe, Bunning, 
Kennedy, Akaka, and E. Benjamin Nelson.
    Committee staff member present: Ann Mittermeyer, assistant 
counsel.
    Professional staff members present: George W. Lauffer and 
Cord A. Sterling.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Peter K. Levine, minority counsel; 
and Michael J. McCord, professional staff member.
    Staff assistants present: Beth Ann Barozie, Kristi M. 
Freddo, and Michele A. Traficante.
    Committee members' assistants present: Robert Alan McCurry, 
assistant to Senator Roberts; David Young, assistant to Senator 
Bunning; Menda S. Fife, assistant to Senator Kennedy; Ross 
Kawakami, assistant to Senator Akaka; Eric Pierce, assistant to 
Senator E. Benjamin Nelson; and Brady King, assistant to 
Senator Dayton.

     OPENING STATEMENT OF SENATOR JAMES M. INHOFE, CHAIRMAN

    Senator Inhofe. We will call the hearing to order. Now, we 
have several members who are not here who are going to be here, 
including Senator Akaka, who is our ranking member on this 
subcommittee, but he is en route right now. We are also very 
privileged and honored to have Senator Kennedy, who is not a 
member of this subcommittee but is a member, of course, of the 
Armed Services Committee, and has intense interest in this, so 
we will just treat you like a member, Senator.
    Senator Kennedy. Thank you.
    Senator Inhofe. I welcome everybody here. We have a pretty 
good sized crowd. We have some new members on this subcommittee 
that are newly elected, and I understand they are going to be 
here. They are Senators Bunning, E. Benjamin Nelson, and 
Dayton.
    The Readiness and Management Support Subcommittee is 
meeting today to review a series of encroachment issues that 
the Senior Readiness Oversight Counsel has identified as having 
adverse effects on the military readiness. The specific 
encroachment area issues that the subcommittee will cover in 
this hearing will be the Endangered Species Act critical 
habitats, unexploded ordnance, maritime sustainability, 
national air space system, air quality, airborne noise, and 
urban growth.
    Now, we have another major issue that we will be having a 
hearing on, and we are going to devote an entire hearing on the 
issue of radio frequency spectrum probably sometime in the next 
month.
    Today, I am particularly interested in hearing about the 
cumulative effects of the issues, because only then will we be 
able to understand the gravity of the problems and explore ways 
to negate the readiness impact.
    I have traveled around to almost all the installations over 
the past 4 years that I have chaired this subcommittee, and 
whether it is the red-cockaded woodpecker at Fort Bragg and 
Camp LeJeune, or the sea turtles at Vieques, or the Sonoran 
prong-horned antelope--I have not seen one of those yet--on the 
Goldwater range, urban growth in southern California, air space 
use on the east coast, or unexploded ordnance at Massachusetts 
Military Reservation, which had to suspend training for a 
period of time--I know that is of interest to you, Senator 
Kennedy, and also, as the former--I was the Chairman of the 
Subcommittee of Environment and Public Works. It was called 
clean air property rights, wetlands and nuclear safety, and 
that is where I became interested in how these two 
jurisdictions affect each other.
    These are issues that are expensive. They do affect 
training, and I would like to hear from you as to how they 
affect training, and so why don't you--if you have an opening 
statement, Senator Kennedy, go ahead, and then we will hear 
from our witnesses.

             STATEMENT OF SENATOR EDWARD M. KENNEDY

    Senator Kennedy. Thank you very much, Mr. Chairman. I want 
to express my appreciation to you and Senator Akaka for 
permitting me to attend this hearing, and I want to thank you 
so much for the attention you are giving to this issue. I think 
this is an area of public policy that many of us have not 
thought about, but is a very real concern in a part of our 
state, and I would like to make just a brief opening comment 
about the matter.
    I firmly believe that the military must do a better job 
working with the communities that surround their training 
areas, and of understanding how this training affects the 
environment. Only a very few of our military training sites are 
isolated today. In many cases, where military bases were 
established long ago, civilian communities have grown up around 
them, sometimes right up to the fenceline of the base. On the 
bases where there are active or inactive impact areas or 
ranges, this can mean that where there used to be a mile or 
more of buffer, the buffer may now only be several hundred 
yards. While isolated facilities do not have to deal with the 
same civilian encroachment issues, they must deal with the 
impact of complying with the many and varied Federal laws, as 
the chairman has stated.
    Our Armed Forces need quality training areas where they can 
practice their skills, skills which can mean the difference 
between life and death in battle. All of these training areas 
must also be effectively managed. If they are not, the ongoing 
problems at the Massachusetts Military Reservation could very 
well happen again on other bases across the country.
    We are still in the middle of a very challenging time 
regarding the future use of the Massachusetts Military 
Reservation. When MMR was established over 50 years ago, I am 
sure that no one had even the slightest notion that it was 
directly over the Upper Cape's water supply. But, when 
community members and Federal and state regulators began to 
question whether the military activities were affecting the 
environment and the quality of the Cape's drinking water, 
instead of looking into the problem, the military balked.
    Over 3 long years later, and only after all live-fire 
training, except for small arms fire with green ammunition, was 
forced to cease, have the Army and the Army Guard finally 
gotten serious about the process of working with the community 
to finalize a new master plan for the future use of the base.
    I cannot help but wonder if active cooperation with the 
community and regulators might not have led us down a different 
path, one where military training, clean drinking water, and 
environmental stewardship were balanced to benefit all.
    The community surrounding MMR has been waiting over 3 years 
for the military to join them, and now thankfully they are 
finally working toward that outcome. Protecting the military 
training areas requires open communications with the 
surrounding communities, cooperation with Federal and state 
regulators, and proper management of bases, including the issue 
of how to clean up unexploded ordnance to ensure the long-term 
health of the base.
    Our Armed Forces must tackle these issues head on. If they 
do not, future military readiness could suffer. This is an 
extraordinarily important issue. The area of the Upper Cape is 
the fastest growing area in our state, and the principal 
aquifer is underneath the reservation. There is a long history 
here, which I will not take the time of the subcommittee to 
review, and I do not think anyone could have really 
anticipated, even a few years ago, how these issues would 
affect the Cape, but it is the predominant issue that is of 
central concern to hundreds of thousands of people in that 
area.
    We want to try and find ways of working together to address 
these issues and also to make sure that the appropriate 
interests of the Armed Forces are protected.
    I thank the chair.
    Senator Inhofe. Thank you, Senator Kennedy. We are joined 
by Senator Bunning from Kentucky, a new member on this 
subcommittee, and by our Ranking Member, Senator Akaka. Why 
don't you start, Senator Akaka, with any opening statements or 
comments you would like to make.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. Today's 
hearing is my first as Ranking Member of the Subcommittee on 
Readiness and Management Support. This subcommittee, as we all 
know, plays a crucial role in meeting the day-to-day needs of 
our Armed Forces.
    Senator Inhofe, I am aware of your deep commitment to the 
work of our subcommittee, and I look forward to working with 
you in this worthwhile endeavor.
    Today's hearing will examine the impact that a number of 
factors external to the Department of Defense are having on 
military training and operations. These factors include 
expanding urban areas and increasing demands on air space in 
the vicinity of the military bases, as well as limitations 
imposed by a number of environmental laws and regulations.
    There is no doubt that our military has had to adjust 
training practices and incur added expenses to address concerns 
about endangered species, critical habitats, the marine 
environment, air space management, air pollution, unexploded 
ordnance, and noise pollution. In some cases, these constraints 
may be starting to have an adverse impact on the military's 
ability to perform its mission.
    Some of these problems may be avoided. I am prepared to 
work with the chairman to assist the Department in finding 
constructive ways to comply with the applicable laws and 
regulations with a minimum impact on training and readiness. I 
am also prepared to help address any unintended and avoidable 
consequences those laws and regulations may be having on 
military readiness.
    We ask a lot of our men and women in uniform, and we should 
not ask them to go into harm's way without the benefit of the 
most realistic training available. In my state of Hawaii, I 
have worked with the military to try and address issues raised 
in the community about the impact of training on the cultural 
and historical sites, endangered species, fire damage, and 
other issues.
    By working together in this way, I am hopeful that we will 
be able to find an appropriate set of conditions under which 
needed military training can be conducted. At the same time, 
however, the Department needs to recognize our Nation's 
environmental laws and regulations are not just another enemy 
to overcome. To their credit, the military services have 
recognized that the DOD environmental program is essential to 
protect our forces and the military communities from 
environmental health and safety hazards.
    Moreover, the Department's good faith effort to comply with 
applicable environmental laws and regulations enables it to 
retain the confidence of the American people that it will act 
as a responsible custodian of the public lands, and as a good 
neighbor to the communities in which DOD bases are located.
    Mr. Chairman, the Department of Defense has built up a 
reservoir of goodwill with the American public by maintaining a 
strong environmental cleanup and compliance program over the 
last decade. As we address the issues before us today, the 
Department should keep in mind that its positive relationship 
with the Governments and citizens of our states and communities 
is dependent to a significant extent upon its role as a good 
neighbor and a faithful custodian of the public lands.
    Thank you very much for this opportunity, Mr. Chairman, and 
I look forward to the testimony of today's witnesses.
    Senator Inhofe. Thank you, Senator Akaka.
    Senator Bunning.

                STATEMENT OF SENATOR JIM BUNNING

    Senator Bunning. Thank you, Senator Inhofe. I am excited to 
be serving on this subcommittee. I know it is a critical 
subcommittee, as far as the readiness of all of our Armed 
Services is concerned. I am anxious to hear our witnesses 
today, particularly on training sites that have had problems 
and ranges that have had problems. As we all know, they are 
numerous, but some problems are more public than others.
    I know that Senator Akaka and Senator Inhofe are deeply 
dedicated to ensuring that all of our services have the 
readiness support that they need. I am anxiously looking 
forward to your testimony. I have an additional statement for 
the record that I will submit.
    Thank you very much.
    [The prepared statement of Senator Bunning follows:]
               Prepared Statement by Senator Jim Bunning
    Mr. Chairman, thank you for holding this hearing. Encroachment 
issues are a serious matter and can ultimately affect the readiness of 
our military and the security of this nation. It is appropriate and 
timely to have this hearing.
    In the commonwealth of Kentucky--the issue of encroachment touches 
on two of our Army's installations.
    At Fort Knox, we train soldiers to maneuver and fire tanks. We are 
the home of mounted warfare and we want to keep it that way. Fort Knox 
has been updating its current tank range and training programs. Fort 
Knox wants to expand its training range and develop 2,000 undeveloped 
acres on base just north of its current range. However, this would 
allow range activities to occur in undeveloped wildlife areas and 
closer to residents in Meade and Bullitt Counties, KY. We have had 
local officials and residents in these counties concerned about the 
environmental impact and noise levels surrounding the expansion of this 
training range at Fort Knox.
    At Fort Campbell--near Hopkinsville, KY--we fly troops from the 
base's airfield for training and missions abroad. However, with 
Hopkinsville's population growth and urban sprawl, an issue has risen 
surrounding the bases' airfield. commercial development is creeping 
closer and closer to the airfield's runway.
    This is giving the community surrounding Hopkinsville great concern 
regarding noise levels and safety from jets and planes landing and 
taking off. The Army is concerned about their ability to perform their 
everyday activities to ensure a reactive and dependable force.
    Yes, these encroachment concerns surrounding Fort Knox and Fort 
Campbell are all important. They do need to be addressed. It is my hope 
that we can find a solution to make every party happy--but I know that 
is not always the case.
    But this is certain--we cannot allow encroachment to hamper our 
training activities--whether it be Army training or training by any 
other branch. this further puts our readiness capabilities at risk. 
Ultimately, the soldiers are at risk who put their lives on the line 
for our freedoms. If they are not properly trained--they cannot 
effectively defend themselves and this Nation.

    Senator Inhofe. I think, Senator Bunning, this is the 
subcommittee that deals with readiness and training and 
military construction, and we are really in a crisis right now. 
This is one area we have never had, I do not believe anyone has 
ever had a hearing on, but we are going to have to consider 
some of the problems that are out there.
    Now, for the purposes of your opening statement, your 
entire statement will be made a part of the written record, but 
I want to give you adequate time, so if you really need the 
time, go ahead and take it, but try to keep it to about 5 to 7 
minutes, and we will start with you, Admiral.

STATEMENT OF VICE ADM. JAMES F. AMERAULT, USN, DEPUTY CHIEF OF 
        NAVAL OPERATIONS, FLEET READINESS AND LOGISTICS

    Admiral Amerault. Thank you, Mr. Chairman, and 
distinguished members of the committee. Thank you for this 
opportunity to speak on some of the most difficult challenges 
that we face in maintaining the readiness of our fleet and 
Marine Corps.
    I know that this committee has been a supporter 
consistently of the soldiers, sailors, marines, and airmen, and 
it is very greatly appreciated. Forward-deployed naval forces 
are the front line that protects our Nation's economic, 
political, and security interests around the globe. Our naval 
forces in particular are expected to provide immediate response 
in times of crisis, therefore they must be credible, combat 
ready forces that can sail anywhere at any time to demonstrate 
America's resolve and, if necessary, to prevail in combat with 
minimum collateral damage.
    Readiness is the foundation of the fleet's warfighting 
capability, and there is a direct link between fleet readiness 
and training. Having experienced combat first-hand, I can 
assure you that there is no substitute for training. Let me 
also stress that in a world where advanced weapon systems are 
available to anyone for the right price, no amount of 
technology, hardware, personnel, or leadership, can substitute 
for training, and that means training the way we fight.
    When a marine or soldier calls for gunfire or close air 
support in future combat, we cannot afford to have the ship or 
aircraft crew learning on the job. That could be a lesson 
written in blood. The foundation of military readiness is 
training, and the building blocks of training are molded on our 
ranges. Ranges are where we train in an environment that most 
closely mimics real combat. I think this is essential, because 
nothing takes the place of doing it for real. That is why full 
access to our ranges is vital to fleet readiness.
    The use of our ranges, however, is being constrained 
increasingly by sometimes broad and ambiguous regulation and 
expanding encroachment. These challenges confront us despite 
our continuing commitment to environmental stewardship. That 
commitment is underwritten by an investment of $900 million a 
year, approximately, in support of environmental programs.
    Since 1970, however, environmental legislation and 
implementing regulations have expanded considerably. When these 
laws were adopted, they focused primarily on civilian 
commercial activity. Their application to military training and 
the potential impacts on military readiness were not fully 
discussed or anticipated. Now, I think we know better. Broad 
interpretations of ambiguities, or failure to accommodate and 
consider unique military activities, have imposed significant 
burdens on military training, often with very little actual 
benefit to the environment. Even worse, it has provided a 
powerful weapon to those who oppose military activities, for 
whatever reason.
    Further complicating the issue is the application of the 
precautionary approach for managing protected resources. This 
approach says that in the absence of scientific information to 
the contrary, our proposed training is assumed to harm the 
environment.
    The burden of legal compliance is exacerbated by the 
shrinking real estate available due to natural resource 
conservation. Residential and commercial developments around 
our once-isolated ranges reduce available conservation areas 
outside of our facilities. Our installations and ranges, on the 
other hand, have proven to be safe havens for our country's 
natural resources. Consequently, our property is becoming a 
refuge for endangered species. This has led to a corresponding 
decrease in our ability to use many of the training ranges that 
they are on for their intended purposes.
    The same pattern of encroachment we are seeing around our 
ranges is beginning to emerge around our air space as well. In 
part, this is because public perception of the need for 
military training has changed since the end of the cold war. 
For example, people no longer feel noise generated by low-level 
flights and carrier landing practices is essential to national 
security, but, rather, is a local nuisance. Although no one 
issue is solely responsible for impairing readiness, I believe 
the cumulative effect is inflicting a thousand cuts.
    The resulting impairment in readiness manifests itself in a 
variety of ways. For example, range encroachment impacts 
readiness by reducing available training days. Training realism 
is diminished by mitigation measures taken to comply with 
environmental regulations. That mitigation also adds 
significant costs to our training. To meet mitigation 
requirements during one recent battle group exercise, we spent 
$300,000 to avoid even the possibility of harassing marine 
mammals and sea turtles.
    We have pursued several options to balance military 
readiness and environmental conservation. When a range was 
unavailable, we sought work-arounds, changing the way we train 
to comply with an environmental regulation or encroachment. 
Sometimes, those very work-arounds become increasingly 
themselves under attack. For example, we moved some of the 
Atlantic fleet's air-to-ground training to Pinecastle Range in 
Northern Florida. Some are now clamoring for closure of that 
range. We are looking at training alternatives such as computer 
simulators and other technologies to enhance readiness, but 
based on combat experience, I can tell you that no amount of 
alternatives can ever replace entirely the actual maneuver and 
live-fire training.
    Our most innovative response to environmental encroachment 
is our maritime sustainability initiative. What began nearly a 
year ago as an enterprise to address the effects of sound on 
marine mammals has evolved into an initiative whose overall 
goal is to achieve sustainable readiness in congruence with 
environmental laws and regulations.
    This initiative is based on a four pillar strategy, a sound 
legal position. In other words, knowing what the law says and 
where we stand within the law, knowledge superiority, which 
refers to the Navy's goal of obtaining the best science 
available to improve the quality of our decisionmaking and 
thereby reduce the risk of environmental harm, consistent 
policies and procedures, policies and procedures that the 
regulatory community can understand and deal with, and 
engagement and education, letting people know what we need to 
do, why we need to do it, and engaging with them to attempt to 
come to a reasonable solution.
    Despite our best efforts, our ability to maintain a combat-
ready fleet is still challenged by existing laws and 
regulations. We do not seek a total exemption from existing 
laws. We are proud of our stewardship and our effort to protect 
the environment. Impacts on readiness, however, must be 
considered when applying environmental regulation to military 
training activities. To restore balance, we need your support. 
We request that Congress take steps to ensure that impacts on 
military readiness are a consideration in environmental laws 
and regulations, reducing overbroad and inflexible application 
to military training. We owe that much to our sons and 
daughters that we put in danger everyday.
    Mr. Chairman, members of the panel, I thank you for your 
consistent leadership and support, and will be pleased to 
respond to any questions.
    [The prepared statement of Vice Admiral Amerault follows:]
         Prepared Statement by Vice Adm. James F. Amerault, USN
    Mr. Chairman and members of the committee, thank you for the 
opportunity to speak to you about some of the challenges we face in 
maintaining the readiness of our naval forces.
                  i. training range readiness overview
    Our forward-deployed naval forces are strategically positioned in 
key regions of the world that are vital to our nation's trade, 
communications, and political interests. Mobile, flexible, and 
sustainable, these naval forces operate unencumbered by sovereignty 
issues. It is precisely because of their credible combat capability 
that we play a key role in maintaining worldwide economic, political 
and military stability. Our naval forces are lethal warfighting 
instruments immediately available to our joint-combined warfare 
commanders when needed because they are trained and ready for combat. 
Training and readiness form the solid foundation of our credible combat 
capability, and no amount of technology, hardware, personnel or 
leadership can achieve this readiness without access to quality 
training ranges in the United States to prepare our sailors and marines 
for the rigors of combat.
    Our ranges, individually and collectively, provide land, sea, and 
airspace where our sailors and marines can train as they will fight and 
test and evaluate new capabilities for the future. Ranges provide a 
controlled and safe environment with threat representative targets that 
enable our forces to conduct realistic combat-like training as they 
undergo all phases of the graduated buildup needed for combat ready 
deployment. They also provide instrumentation that captures the 
performance of our tactics and equipment in order to provide the 
feedback and assessment that is essential for constructive criticism of 
personnel and equipment. Finally, live-fire ranges allow our naval 
forces to conduct a complete assessment of their ability to put weapons 
on target with the highest degree of precision possible, and under 
conditions which mimic the stresses of combat to the greatest degree 
possible.
    There is an obvious relationship between training and maximum 
performance in combat. The trained aircrew requires fewer sorties to 
accomplish assigned missions, which in turn, results in less risk to 
personnel and equipment, and less chance of collateral damage to 
innocent noncombatants or friendly forces. Training ranges are where 
the learning takes place and where the skills are honed. In simple 
terms, few, if any, marksmen have ever picked up a rifle and been able 
to hit the bullseye without extensive and repetitive practice at a 
rifle range.
    From a historical perspective, the relationship between practice 
and success in combat has repeatedly been shown to exist. During the 
air war over Vietnam in late 1968, the Navy lost 10 aircraft and shot 
down only 9 MiGs. They also fired over 50 air-to-air missiles without 
achieving a single kill. In 1969, the kill ratio increased to 12.5 to 
one. This dramatic improvement is directly attributable to the 
introduction of Top Gun graduates to the fleet. Top Gun trained 
aircrews, then as today, use a comprehensive and intensive ground and 
flight syllabus that includes extensive, realistic, combat-like 
training on basic and instrumented ranges. Our experience from combat 
missions conducted during Operation Desert Fox and in the Balkans 
demonstrates a strong statistical correlation between realistic 
training and combat success. The Strike Fighter Advanced Readiness 
Program (SFARP), the Navy's graduate level strike fighter school that 
is scheduled during the early part of each Carrier Battle Group's 
training cycle, is having the greatest positive effect on combat 
success of all strike training done during the training cycle before 
deployment. Like Top Gun, the single most critical aspect of this 
training is access to quality airborne instruction on realistic 
training ranges, where the end-to-end process required to safely and 
successfully employ live ordnance is exercised.
    While our naval forces may have decreased in number, our 
requirement for ranges has not. Today's higher performance aircraft and 
ships employ weapons of greater capability, but also of greater 
complexity and unique delivery tactics. The combination of capability, 
complexity, and tactics also translates into the need for larger 
ranges.
    When our vital ranges are not available for training because they 
are encumbered by encroachments, our state of readiness is at risk. 
This is complicated by the fact that encroachment issues are complex, 
varied, and involve multiple Federal, State, and local agencies, 
Congress, non-governmental organizations, and the public. In dealing 
with its effects, we have borne a significant increase in 
administrative and human costs (time away from home, flight hour costs, 
travel expenses, etc.) to achieve an acceptable level of readiness. In 
some instances, we have been unable to achieve the desired level. We 
worry that this trend will continue.
    Encroachment negatively affects readiness by reducing the number of 
available training days; reducing training realism as tactics are 
modified (altitudes, airspeeds, profiles) to comply with environmental 
laws; causing a loss of range access altogether (either temporary or 
permanent); decreasing scheduling flexibility and complexity (when 
factoring in long lead times to assure legal compliance); and 
increasing time away from home during training prior to deployment. 
Encroachment is often gradual and can go unnoticed, but its impacts 
cumulatively erode our ability to deploy combat ready sailors and 
marines. Knowledge of these domestic pressures by our allies may 
influence them to deny use of their ranges by our forces.
    We believe that environmental regulation has limited, and will 
increasingly limit our access to training ranges, and this loss of 
training opportunities will reduce fleet combat readiness 
proportionately. The Senior Readiness Oversight Council identified nine 
areas where DOD organizations should focus resources to mitigate the 
effects of encroachment through sustainable action plans and an active 
outreach program. The Navy and Marine Corps have adopted this approach, 
and have completed most elements of a coherent and comprehensive 
strategy that identifies core ranges and operations areas and 
initiatives to sustain access to them. The strategy consists of a 
roadmap that links range requirements and capabilities to readiness; 
determines readiness impacts and alternatives when a range become 
unavailable; minimizes encroachment impacts via sustainable action 
plans; reaches out to neighboring communities; emphasizes opportunities 
for mitigation to reduce or avoid impacts; and formalizes a Training 
Range Organizational structure. We believe this coordinated Service-
wide approach to sustain our core ranges will guide us in this ever-
challenging encroachment environment. The Department of the Navy is 
committed to and owes our sailors and marines nothing less than the 
finest and most realistic combat like training before sending them in 
harms' way. We have a strong history of successful environmental 
stewardship and will continue to be environmentally responsible in all 
aspects of our mission performance.
                        ii. encroachment trends
    Our naval forces must meet the mission and readiness mandate 
established in Title 10 of the U.S. Code that directs us to . . .``be 
organized, trained, and equipped primarily for prompt and sustained 
combat incident to operations at sea.'' Today we strive to meet this 
mandate in the face of statutory and regulatory restrictions that can 
have an adverse effect on our ability to operate, test, and train 
realistically, so that we are ready to carry out any contingency 
operation that might arise when we deploy. These challenges are further 
exacerbated by the residential and commercial development that 
increasingly surrounds our once-isolated installations and ranges. This 
``encroachment'' has made many of our installations the habitat of 
choice for a number of threatened and endangered species, and at times 
inhibits our ability to train effectively.
A. Regulatory Overview
    Since 1970, there has been significant growth in environmental 
legislation. In the last 10 years 32 major pieces of Federal 
environmental legislation have been adopted or amended. This tally does 
not include environmental regulatory programs mandated by Executive 
order. It also does not include State and local environmental laws and 
regulations.
    Further complicating interpretation of this legal regime is the 
application of the ``precautionary approach'' for managing protected 
resources. The precautionary approach assumes that in the absence of 
scientific information to the contrary, we must assume that the 
proposed activity will harm the environment. We are then encouraged by 
regulatory agencies to include mitigation measures that err on the side 
of conservatism.
    Major environmental regulatory programs that have the most 
potential to affect our maritime readiness are: Marine Mammal 
Protection Act (MMPA); Endangered Species Act (ESA); Coastal Zone 
Management Act (CZMA); National Marine Sanctuaries Act; Magnuson-
Stevens Act (Essential Fish Habitat); and the Migratory Bird Treaty 
Act. The reach of these six environmental regulatory programs is broad, 
affecting activity in both U.S. waters and on the high seas. While some 
of these laws provide for Presidential Exemption, we have declined to 
pursue this option to date. Our intent rather, is to comply with the 
law in a manner consistent with our national security imperatives, and 
not seek exemption from it.
    The Executive Orders on Coral Reefs and Marine Protected areas also 
have the potential to impact our training activities.
B. Encroachment Impacts
    In addition to existing legal requirements, our ability to train is 
affected by increasing levels of urban development around our once-
isolated installation and ranges. Readiness and training areas most 
vulnerable to encroachment are: live-fire ranges, so are training and 
testing ranges where sonar and explosive sound generators are used, and 
many Navy and Marine Corps bases/stations.
    1. Live-Fire Ranges--The continued use of live-fire ranges for Navy 
training and testing activities is currently threatened by regulatory 
constraints. We are most concerned about three important ranges: San 
Clemente Island (California), Vieques Island (Puerto Rico), and the 
Farallon De Medinilla (near Guam). These ranges are the only U.S.-owned 
locations on the east and west coasts and in the western Pacific where 
both Naval Surface Fire Support and air-to-ground training operations 
can be conducted using live ordnance. Regulatory constraints at these 
ranges principally concern compliance with the National Environmental 
Policy Act (NEPA), ESA, and the Migratory Bird Treaty Act.
    The range and OPAREA at San Clemente Island accommodate Naval 
Surface Fire Support, air-to-ground ordnance delivery operations, and 
special operations. The United States owns the entire island. Its 
location near San Diego is critical for efficient use of training 
dollars, and is the only ship-to-shore range left in the eastern 
Pacific. San Clemente Island is also home to the most endangered bird 
in the U.S.--the San Clemente Island Loggerhead Shrike. We are spending 
$2.5 million annually for the protection of 42 birds in the wild and 64 
birds in a captive breeding population. The population had been as low 
as 13 birds. The birds' breeding season results in restrictions being 
placed on shore bombardment exercises, as well as other types of 
otherwise authorized ordnance delivery between February and June, and 
during the fire season between June and October.
    The beaches at the Vieques Inner Range are used by nesting sea 
turtles. Navy's practice has been to relocate turtle eggs during 
amphibious landings and other military exercises on the Inner Range. In 
1991, Navy built a sea turtle hatchery on Vieques to incubate relocated 
eggs. As a result, over 17,000 hawksbill and leatherback sea turtle 
eggs have been successfully hatched and introduced into the 
environment. During formal consultations under Section 7 of the ESA, we 
agreed to institute precautionary conservation measures not previously 
employed. In response, the USFWS issued the favorable Biological 
Opinion we needed to conduct pre-deployment battle group certification 
exercises in conformance with the requirements of the ESA. These 
precautionary measures included: (1) limited night-time use of inert 
ordnance on the range to 60 minutes total or only 10 percent of total 
Naval Surface Fire Support (NSFS) firing and 30 percent of total 
bombing allowed during night-time; (2) forbade use of illumination 
rounds after 11 p.m. with a 60-minute maximum total time of 
illumination per night (including naval and aircraft dropped flares, 
artillery and mortars over both water and land); (3) required constant 
aerial surveillance of the range and surrounding waters by certified 
biologists during the day; and (4) halted the entire training exercise 
for a Carrier Battle Group in the event of observing a single sea 
turtle either on the range or within 1,000 yards of shore. The total 
cost for compliance with these requirements during Composite Training 
Unit Exercises, Joint Task Force Exercises, and Supporting Arms 
Coordination Exercises was approximately $300,000 per exercise. This 
was in spite of the fact that our aggressive conservation program led 
directly to increases in the turtle population on Navy beaches at 
Vieques while we conducted continuous training operations from 1942 
onward in the absence of these precautionary measures. In fact, the sea 
turtle population inhabiting Navy beaches has grown at a faster rate 
than sea turtle populations inhabiting public beaches on Puerto Rico.
    The Farallon de Medinilla (FDM) Target Range, located near Guam, is 
leased from the Government of the Commonwealth of the Marianas, and is 
the only U.S.-controlled live-fire range in the western Pacific. It 
supports, on average, two to three unit level training evolutions and 
one large-scale exercise per year for the air wing of our Yokosuka, 
Japan based forward-deployed naval forces. FDM is the only target range 
for supporting large-scale exercises such as the Strike Fighter 
Advanced Readiness Program. Normally conducted at the Fallon, Nevada 
Strike Fighter Training Complex (Naval Air Station, Fallon), FDM 
facilitates this mandatory training without the necessity for squadrons 
to depart the Western Pacific Theater.
    These SEVENTH Fleet forces must be maintained at the highest 
readiness levels, and without access to live-fire training, the air 
wing would degrade to ``unready'' within 6 months. The FDM range is 
home to several species of migratory seabirds and two endangered 
species. Continued use of the island by these birds, and supporting 
population survey data, indicates that our training activities have not 
had a significant effect on the birds. Nevertheless, a complaint was 
filed in DC District Court in December 2000 to stop our use of FDM as a 
bombing range. The lawsuit asserts that the provisions of the 1918 
Migratory Bird Treaty Act apply to military operations. Plaintiffs have 
indicated that should they win this lawsuit, they will attempt to 
enjoin other DOD live-fire areas where migratory birds are present.
    Our use of military ranges over the years has resulted in the 
presence of unexploded ordnance (UXO). In the past, we addressed UXO on 
active/inactive ranges by performing surface sweeps (pickup of UXO on 
surface), posting warnings, and fencing, if necessary. There is 
increasing pressure to regulate UXO on ranges more stringently than in 
the past. We are committed to ensuring that active range operations do 
not present a threat to human health or the environment off-range and 
see no compelling reason to regulate munitions when used on range for 
their intended purpose.
    Regional air quality requirements have threatened to encroach upon 
our research, development, test, and evaluation ranges. For example, in 
the Los Angeles-Long Beach, California, area, federal and state 
regulators proposed moving the commercial shipping channel farther 
offshore to reduce emissions from commercial shipping activity. This 
proposed offshore route would have routed commercial traffic 
(approximately 5,000 commercial ships per year or one every 3 hours) 
through the middle of the Sea Range operated by the Naval Air Warfare 
Center, Weapons Division Point Mugu (California), severely restricting 
use. The Sea Range is a principal test and evaluation facility for 
airborne and naval surface weapons systems and is one of the most 
extensively instrumented large-scale sea ranges in the world. The Fleet 
uses this range for weapons firing exercises, including air-to-air, 
air-to-surface, and subsurface weapons, as well as bombs, mines, and 
guns.
    To avoid losing the capabilities of this valuable resource, Navy 
initiated a multi-year scientific effort that concluded that the 
offshore route did not significantly reduce emissions in the onshore 
areas of concern, and identified other reduction strategies, such as 
slowing commercial vessels in the existing channel, that provided 
better solutions for improving air quality. While the regulatory 
decision making process is still ongoing, we are optimistic that a 
final resolution can be reached.
    2. Testing and Training Operations Using Sonar and Explosive Sound 
Devices--A study by the Naval Studies Board of the National Research 
Council (1997) estimated that in 1997 there were nearly 200 diesel-
electric submarines owned by the navies of potentially unfriendly 
countries, with more on order. Hostile diesel-electric submarines 
operating in the littoral zones possess tactical characteristics that 
are extremely difficult to counter--stealth and lethality. The shallow 
sea-bed in the littorals can interfere with many available 
antisubmarine detection methods.
    The serious safety and mission threat posed by the presence of 
quiet, hostile submarines makes it essential for us to conduct 
antisubmarine warfare (ASW) training operations. This training requires 
the activation of sonars that are under increasing scrutiny. The 
current MMPA definition of what constitutes a ``take'' allows interest 
groups to assert that nearly any response by a marine mammal is 
evidence of harassment, thus triggering regulatory oversight. Assessing 
the effects of active sonar operations during ASW training is difficult 
because existing technology and science is limited. Therefore, we have 
invested $18 million in marine mammal research that will ultimately 
benefit the entire nation. Until we have the results of this research, 
we will be forced to use analytical data very conservatively when 
assessing the potential impacts of our actions on the environment.
    Despite our conservative approach in assessing marine mammal 
impacts, developing mitigation that satisfies regulators as well as 
environmental activists has become increasingly challenging with 
significant impacts on maritime sustainability. While the environmental 
rewards are unclear, the readiness impacts are real. For example, we 
are often advised that visual monitoring is essential when acoustic 
operations are conducted. Because visual monitoring is not possible at 
night, continuation of such training is threatened.
    The use of explosives in test or training activities is considered 
by regulators to imply, almost always, that an animal could be injured 
or killed. For example, during the Littoral Warfare Advanced 
Development 00-2 Sea Test (May 2000), sponsored by the Office of Naval 
Research, NOAA Fisheries denied us use of SUS (Signals, Underwater 
Sound) charges containing about two pounds net explosive weight. SUS 
charges, an important element to the planned test program, are 
routinely employed in collecting environmental data, and release 
relatively negligible sound in the water. Upon the direction of the 
regulators, concerns about the mere presence of whales during this test 
resulted in cancellation of all our active acoustic transmissions, 
including use of sonar. Based on this experience, in addition to other 
discussions and correspondence with regulators, we anticipate that 
weapons systems that employ larger net weight explosives will face 
challenges in use during training operations.
    Moreover, the possibility exists that all of our at-sea testing, 
training, and exercises that use active acoustic devices (e.g., 
standard ship sonars), ordnance, or any other device or practice that 
could ``affect'' protected species, will be required to obtain 
incidental take statements under the ESA, and/or Incidental Harassment 
Authorizations/Letters of Authorizations (IHA/LOA) under MMPA. 
Obtaining these authorizations is a lengthy process, requiring 
substantial investment in supporting data collection, and is good for a 
limited time only (1 to 5 years for an IHA and LOA, respectively). In 
addition, a rigorous public process is involved under the MMPA. Costs 
for routine training are likely to increase dramatically due to 
mitigation requirements, such as continuous aerial surveys, additional 
spotters, and delay. None of these practices allow us to train as we 
fight. Night-time training and training in high sea states will 
decrease because of limited visual capability for spotting marine 
mammals. All of these could result in significant degradation in 
readiness.
    Obtaining authorizations is costly, both in terms of time and 
money, with a consequent impact on readiness. For example, the $350 
million Surveillance Towed Array Sensor System (SURTASS) Low Frequency 
Active (LFA) Sonar Operations (SURTASS LFA) sonar, an anti-submarine 
sensor system, already in use by Russia and France, has not been 
deployed despite the positive results of a 2-year Navy-funded research 
project demonstrating the environmental compliance of the system. There 
have been at least four lawsuits challenging the conduct of marine 
mammal research with SURTASS LFA sonar in the Hawaiian Islands. To 
date, we have expended over $10 million in the collection of data and 
the preparation of a worldwide Environmental Impact Statement (EIS). We 
have engaged reputable marine mammal scientists nominated by the 
Natural Resources Defense Council to act as independent advisors and 
have included substantial mitigation in the deployment plan. Deployment 
of the system is still uncertain because of the likelihood of lawsuits, 
the non-concurrence of the California Coastal Commission, and NOAA 
Fisheries' unwillingness to provide a ``take'' permit for a large area 
of the eastern Pacific until California Coastal Commission concurrence 
is obtained.
    3. Basing and Installations--Endangered Species--Under ESA, federal 
agencies are directed to use their authority to assist in recovering 
species in the course of carrying out their actions. Moreover, critical 
habitat may be designated on our land even if we have in place 
conservation programs with a proven track record of success, evidenced 
by the number of threatened and endangered species recovering on our 
lands. Because the ESA process does not recognize our extremely 
successful efforts to protect listed species, our ability to manage and 
use our ranges while effectively protecting natural resources is 
limited.
    The 1999 designation of critical habitat for the Western Snowy 
Plover on the training beaches at Naval Amphibious Base (NAB) Coronado, 
California is having a significant impact on training. Marines use 
these beaches for landings and SEALs use them for warfare training. 
This area was designated as critical habitat in part because of the 
increasing numbers of Snowy Plover nest identified during the breeding 
season. The bird population increased despite annual training because 
of our conservation program, which includes marking off new nesting 
areas. During nesting season, from mid-March to mid-October each year, 
training space is reduced by about 40 percent. As the growth in nesting 
pairs continues under our conservation program, the amount of beach 
available for training will be correspondingly and continuously 
reduced. At the rate these birds are proliferating some training 
operations on the beach may have to be cancelled to avoid violating ESA 
requirements.
    Air Pollution--The Clean Air Act (CAA) General Conformity rule has 
had moderate impacts on Navy training and readiness. The conformity 
rule applies to areas that have not or only recently attained the 
National Ambient Air Quality Standards (NAAQS). This rule requires that 
the Navy analyze air emissions for any proposed new or significant 
change in operations at a facility located in one of these areas. If 
emissions would exceed specified thresholds, the increase must be 
offset by emission reductions elsewhere or included into the state 
emissions budget. The federal CAA prohibits proposed actions if the 
increase cannot be offset. To ensure emissions do not exceed the 
specific thresholds, mitigation is often imposed that may limit 
training locations, frequency, or methods.
    Aircraft emissions have posed the biggest conformity problems. The 
type and tempo of aircraft operations have not been impacted to date, 
but significant funding and manpower has been required in many 
instances to demonstrate conformity. Compliance with the Conformity 
Rule often requires that state or local regulatory agencies work with 
the military to obtain an emission budget or offsets from other 
emitters. Conformity requirements have the potential to limit our 
basing options as competition for air emissions budgets and offsets 
increases. The conformity rule could prevent completion of training or 
test events originally planned.
    Conformity was a challenge when the F/A-18E/F Super Hornet was 
introduced into the fleet at Naval Air Station (NAS) Lemoore, 
California in 1998. The aircraft would not be allowed to operate at 
Lemoore without an offset of over three hundred tons of nitrogen oxide 
emissions. We were finally able to obtain the necessary offsets from 
the Federal Aviation Administration. The necessary offsets existed only 
due to the closure of the former Castle Air Force Base within the same 
air district. Conformity was also a challenge in the realignment of F/
A-18C/D fighter aircraft from NAS Cecil Field, Florida to NAS Oceana, 
Virginia in 1998. The Commonwealth of Virginia provided an increase in 
the emission budget for NAS Oceana to allow the F/A-18C/Ds to relocate. 
The ability to home base aircraft at desired locations is highly 
dependent upon other federal and state agencies.
    Noise--Airborne noise from the operation of weapons systems is one 
of the most noticeable consequences of military readiness. Noise is a 
multi-dimensional issue that includes impacts related to pitch, 
frequency of occurrence, steady state vs impulse, time of day, weather, 
terrain, and weapon system employment (e.g., high altitude flight 
versus low altitude). The public's perception of noise can influence 
how we use our training areas. No longer is noise just an issue in 
urban areas such as Virginia Beach, Virginia; it is equally at issue on 
relatively isolated ranges on the west coast, such as at Naval Air 
Station, Fallon, Nevada. Noise has long been an issue at military 
installations and has more recently become significant for planning 
military training routes (low level) and test and training flights.
    Future aircraft such as the Joint Strike Fighter (JSF) employ new 
engine technology, advanced design, and flight controls such as thrust 
vectoring, all of which can affect the noise characteristics of the 
aircraft. With these innovations, initial noise data indicates that 
these aircraft may be slightly noisier than the legacy aircraft they 
are replacing. The advent of new weapons, tactics, and training 
requirements, coupled with increased urban development and efforts to 
protect the environment and natural resources, have contributed to the 
rise in opposition to military training at ranges throughout the United 
States.
    Base Realignment and Closure (BRAC) actions have resulted in 
closure of major installations, narrowing our options for training in 
support of tactical aircraft operations. New training requirements that 
include high-altitude bombing and stand-off weapons have become 
significant challenges for the future. As a result of BRAC 95, Navy 
relocated F/A-18C/D squadrons from NAS Cecil Field, Florida to NAS 
Oceana, Virginia, requiring the squadrons to shift training to ranges 
in North Carolina and areas around Oceana with an attendant rise in 
noise complaints.
    The rise in noise complaints in urban areas, as well as an increase 
in concerns voiced about aircraft noise in rural areas and parks from 
hikers and others engaged in outdoor activities, is restricting the 
areas where we can base and train. For example, a proposal to expand 
the use of an air-to-ground target at an existing Army range at Fort 
Hunter-Liggett met significant resistance from local groups, despite 
the fact that the range is in a sparsely populated area of California. 
Noise impacts to surrounding natural and recreation areas have been 
cited as the critical issue.
    As we regroup to mitigate the potential result of decreased 
operations at Vieques, other critical training ranges such as 
Pinecastle (Ocala National Forest, Florida) and the eastern North 
Carolina ranges on Pamlico Sound have come under serious scrutiny, 
despite the fact that both are located in sparsely populated areas. At 
the live-fire Pinecastle range, local groups have asked that we cease 
bombing operations. The existing operating permit issued by the U.S. 
Forest Service expires in July 2001 and we are presently conducting an 
Environmental Impact Statement to address our future range 
requirements. Proposed military operating areas over Cape Lookout and 
Cape Hatteras National Seashores at altitudes of 3,000 feet have raised 
National Park Service concerns regarding aircraft overflights enroute 
to the bombing ranges in Pamlico Sound. The National Park Service's 
focus is on how aircraft overflights will affect park soundscapes in 
the context of protecting natural quiet.
    Complaints from local citizens at Vieques about noise from Carrier 
Battle Group training (air-surface-underwater), as well as other 
issues, has led to a decision to forego the use of Vieques for a 
significant training event for a Carrier Battle Group earlier this 
month.
    We are supporting a joint plan that calls for the development of a 
unified DOD noise program to address the wide range of noise issues 
facing the services.
    Airspace--As airspace needs change with the evolution of new 
weapons systems and tactics, the drastic increase in civilian aviation 
traffic, compounded by urban sprawl, remains a continued threat to the 
retention of current airspace assets and the expansion of those assets. 
Scheduling/using agencies of Special Use Airspace delegated to Navy by 
the Federal Aviation Administration continually evaluate this resource 
to assure that it is properly sized, both vertically and laterally, to 
support the mission for which it was designed. Navy currently has three 
proposals at FAA headquarters for approval and a small number of 
proposals in the early stage of development. Preliminary discussions 
suggest that these proposals, if properly documented, have an excellent 
chance for approval. To facilitate continued interagency cooperation, 
we continue to expend a considerable amount of time in cultivating 
relationships with senior FAA officials in Washington Headquarters and 
the Regional Offices.
                          iii. ongoing actions
    A. Maritime Sustainability Actions--As the DOD Executive Agent for 
maritime sustainability, Navy is basing its actions on a four-pillar 
strategy. The four pillars are: sound legal position; knowledge 
superiority; policy and procedures; and education and engagement.
    We and the other Services must operate from a sound legal 
position--we must comply with the law. We should be the experts in the 
subject area in order to ensure that well-informed decisions are made 
as to the ``how, when, and where'' during the planning of training and 
testing. DOD needs policies and procedures that provide consistency in 
environmental documentation and ensures that decisions are based on the 
best available science. Lastly, DOD not only must engage the public and 
regulators to ensure that they are provided with knowledge necessary to 
understand DOD's different roles in National Security, but also its 
role in promoting global stability and democratic ideals. In addition, 
DOD must educate its officers and service personnel on all issues 
associated with maritime operations at sea and the marine environment 
to ensure environmental stewardship across the Department.
    The development of the four-pillar strategy began with an effort to 
assess the effects of sound on marine mammals. This effort was 
initiated almost one year ago to address the ambiguity of the 
definition of ``harassment'' in the MMPA. It has expanded from a one-
issue initiative into a four-pillar strategy. The overall goal of the 
maritime sustainability initiative is to achieve sustainable readiness 
in congruence with the statutory and regulatory framework mentioned 
earlier in my testimony. This strategy also provides for a proactive 
engagement policy with the regulators, the general public, 
environmental groups, Congress, and service personnel.
    Following are additional examples of actions we are conducting, 
categorized under each of the four-pillars of our maritime 
sustainability strategy.
    1. Sound Legal Position
    Preparation of Range EISs--In 1996, we initiated preparation of 
EISs to cover range activities. Range EISs have been prepared and 
Records of Decision issued for range activities at the Pacific Missile 
Range Facility (Hawaii), Naval Air Station Fallon (Nevada), and Naval 
Air Station Patuxent River (Maryland). We also completed an 
Environmental Review for the Atlantic Undersea Test and Evaluation 
Center (Bahamas). EISs are ongoing for range activities at Naval Air 
Weapons Station China Lake (California), Naval Air Warfare Center 
Weapons Division Point Mugu Sea Range (California), San Clemente Island 
Ranges and Operating Areas, the East Coast Shallow Water Training 
Range, and the Pinecastle Bombing Range (Florida). We completed an EIS 
for operations at the Vieques Inner Range in 1980, and more recently 
completed an Environmental Assessment that evaluates the impacts 
associated with the more limited use anticipated as result of the 
agreement reached between the President and Governor of Puerto Rico.
    Legislative Action--Last year, NOAA Fisheries, FWS and the Marine 
Mammal Commission were engaged in a process to develop a comprehensive 
legislative proposal to reauthorize and amend the MMPA. We worked 
within that process in partnership with these agencies to reach 
consensus on an amendment to the definition of ``harassment'' that 
would provide more certainty to the regulated public while ensuring 
that actions harmful to marine mammals would be addressed. The 
comprehensive legislative proposal was submitted to, and approved by, 
OMB and subsequently transmitted to the House and the Senate.
    2. Knowledge Superiority
    Digital Environmental Information Management System (EIMS)--We are 
developing a Geographic Information System-based EIMS to enhance the 
access to environmental data and information on the marine environment. 
Its goal is to support operational planners in determining time and 
locations for exercises to avoid environmental impacts. EIMS is in the 
initial phase of system prototype development. It will be demonstrated 
and validated for a Joint Task Force Exercise in the Virginia Capes and 
Cherry Points OPAREAs.
    RDT&E Actions--Our current research seeks to increase the level of 
knowledge of marine mammal population densities, distribution, and 
hearing. The Living Marine Resources Information System Phase I is 
being evaluated for use as a basis for archiving these distribution 
data for use by operational planners. The first objective is to cover 
high priority areas (East and West Coast operating areas and training 
ranges), with worldwide operational coverage as the ultimate goal.
    Understanding the effects of our operations on marine mammals and 
sea turtles is critical to our proactive approach for interacting with 
marine mammals (e.g., how do sonars and explosions affect them and how 
can scientifically-defensible effects/thresholds be defined). The 
Office of Naval Research has developed a 5-Year Science & Technology 
objective to ensure that research will provide vitally needed answers 
to determine if the budget should be increased to accelerate data 
output.
    Coral Reefs--We are the DOD Executive Agent on the Coral Reef Task 
Force and have led the development of DOD's Coral Reef Protection 
Implementation Plan. This document creates awareness of the need for 
coral reef protection and outlines procedures for the military to 
follow to ensure safe and environmentally responsible operations in and 
around coral reefs. In addition, we created artificial reefs off Oahu, 
Hawaii to increase the size of Hawaii's reef habitat in support of our 
obligations under the Executive order.
    3. Policy and Procedures
    Navy At-Sea Policy--We developed an At Sea Policy to promote 
consistent application of legal requirements Navy-wide. The Under 
Secretary of the Navy signed the policy on December 28, 2000.
    Enhanced Readiness Teams--Both CINCPACFLT and CINCLANTFLT have 
established Enhanced Readiness Teams at Fleet Headquarters and within 
each of their respective regions. These teams bring together 
operations, facilities, legal, public affairs, real estate, and 
environmental staffs to address encroachment issues across the broad 
spectrum of affected areas. Enhanced Readiness Team efforts include 
active engagement with regulators and other non-DOD agencies to ensure 
readiness is maintained through long-term access and use of Fleet 
facilities, training ranges, and OPAREAs.
    Standard Operating Procedures/Acquisition Policy--We are moving 
forward to: (1) develop standard operating procedures for ship 
operators and operational planners; and (2) develop guidance for 
acquisition managers to assess and mitigate potential impacts on marine 
mammals/endangered species. Efforts are underway to achieve both these 
goals.
    Environmental Analysis Methodologies--We are seeking to maintain 
consistent approaches in preparing environmental analyses of marine 
mammal/endangered species effects in all of our NEPA and EO 12114 
documents. We are developing scientifically defensible methodologies 
for assessing the effect of specific incoherent (impulsive) and tonal-
acoustic sources on marine mammals and incorporating them into a single 
guidance document or methodology ``cookbook.'' The initial focus of 
this effort is on the effects of explosives in deep and shallow water 
and in the surf zone. Methodology development will transition into 
``clear zone'' charts for various sizes of ordnance. Future efforts 
will focus on: (1) short duration coherent pings by operating system/
frequency (low, medium, high) and (2) continuous sound by operating 
system/frequency (low, medium, high).
    Compliance and Mitigation--We have contracted with the Center for 
Naval Analysis to determine the effect of compliance with regulator-
recommended mitigation procedures on our resources (time and cost) and 
operations (training benefits).
    4. Education and Engagement
    Navy/NOAA Fisheries Environmental Coordinating Group--We worked 
with NOAA to establish a forum for coordinating and discussing mutual 
issues. The major focus of the group is to establish processes and 
procedures between the two organizations to ensure consistent 
regulatory interpretation and application by NOAA Fisheries regional 
centers to our environmental documentation.
    Navy/NOAA Fisheries Liaison Office--As a direct result of the above 
Environmental Coordinating Group, we established a liaison office at 
NOAA-Fisheries headquarters. The mission of the office is to provide a 
permanent position to actively engage in current and emerging policy 
issues affecting Navy and NOAA-Fisheries.
    National Marine Sanctuaries Advisory Liaison--One of our 
representatives currently serves on the advisory committee for the 
Channel Islands National Marine Sanctuary (CINMS) and is providing 
input to the regulatory process involving the expansion of CINMS, which 
encompasses part of the Point Mugu Sea Range.
    Public Affairs Outreach--We are developing a pro-active outreach 
effort with four goals: informing, responding, clarifying, and 
coordinating. To meet the goal to ``inform,'' we are currently 
developing informational tools highlighting the importance of sustained 
readiness and how we address environmental considerations. In order to 
improve our timeliness and accuracy in respondingmedia inquiries, the 
group has proposed developing a response action plan. Ensuring that we 
convey a consistent message at all levels in all places by clarifying 
the message and coordinating responses is the culmination of the 
program. Planned action in this area includes developing complete press 
kits (web site, video, Public Affairs Office brochure and media-
training kits for our personnel).
    Training Videos--We developed three marine mammal training videos 
to educate and sensitize our personnel on their environmental 
protection responsibilities while at sea. Two videos focus on Right 
Whale identification and critical habitat areas encountered during 
normal operations on the east coast of the U.S. They address procedures 
to avoid endangering the Right Whale including: early warning system, 
watchstanding, lookout training, ship maneuvering, and avoidance 
distances for underwater explosives or exercise ordnance.
    Senior Operator/Regulator Dialogue--Last September, Navy hosted a 
full-day meeting to address the challenge of protecting both national 
security and environmental values. The dialogue included senior 
representatives from the federal regulatory community (FWS, NOAA 
Fisheries, EPA, Council on Environmental Quality, and senior defense 
leaders (Commander, Second Fleet; Commander, Third Fleet; Assistant 
Secretary of the Navy (Installations and Environment); General Counsel 
of the Navy; Deputy Chief of Naval Operations (Fleet Readiness and 
Logistics). All participants agreed with the position that there needs 
to be the appropriate balance between the two national imperatives of 
national defense/national security and protection of the environment. 
Nevertheless, the responsibility is on the Navy to comply with the 
laws.

    B. Actions in Other Encroachment Areas

    1. Noise--Through recommendations approved by the DOD Senior 
Readiness Oversight Council (SROC), we are working with other Service 
components to establish a DOD noise program to address on-going noise 
issues, including noise impacts, and its effects on the local 
population, wildlife, and structures. Through the Range Air 
Installation Compatible Use Zones (RAICUZ) and Joint Land Use Study 
programs, we are proactively working with local and state officials to 
mitigate a variety of encroachment issues, including urban growth and 
noise, through effective planning.
    In 1998, we established RAICUZ program to develop range 
encroachment plans, identify long-term range requirements, and to 
coordinate with local, state, and other federal government agencies to 
address range encroachment and maintain the basic or core training 
range capacity needed to support operational readiness. Studies have 
either been completed or are in progress for ranges at Fallon, Nevada; 
El Centro, California; Dare County, North Carolina; Pinecastle, 
Florida; and Vieques, Puerto Rico.
                             iv. solutions
    Our ability to meet our Title 10 obligation to maintain ready 
maritime forces is increasingly challenged by legal requirements. We 
believe that some of these laws and regulations are ambiguous and 
inflexible, and were drafted without due consideration for national 
defense missions. Compliance, therefore, becomes increasingly difficult 
as we struggle to define and interpret the standards with which we must 
comply.
    We are not seeking an outright exemption from existing laws. We are 
proud of our record of stewardship and intend to continue to comply 
with the law. Rather, we will work with the administration and Congress 
to address steps to reduce uncertainty and increase flexibility in the 
law to balance the needs of the environment with national security. We 
have worked closely with other federal agencies in an attempt to 
achieve full mission readiness and fulfill our environmental 
stewardship responsibilities.

        <bullet> Partnership with NOAA Fisheries, FWS, and the Marine 
        Mammal Commission to draft a legislative proposal to 
        reauthorize the MMPA, including an amendment to the definition 
        of ``harassment.'' This reauthorization proposal was jointly 
        submitted to the last session of Congress.
          The amended definition of ``harassment'' would accomplish 
        three goals. First, it reiterates the protection against acts 
        that injure or have the significant potential to injure marine 
        mammals in the wild; second, it establishes a clear, 
        unambiguous legal standard, founded upon scientific assessment, 
        to regulate acts that disrupt natural behavior patterns to the 
        point where such patterns are abandoned or significantly 
        altered, and third, it provides a statutory basis to regulate 
        acts directed toward specific marine mammals in the wild, when 
        such acts are likely to disturb by disrupting behavior, 
        including migration, surfacing, nursing, breeding, feeding, or 
        sheltering.
        <bullet> Partnership with FWS to ensure that Integrated Natural 
        Resources Management Plans (INRMPs), prepared under the Sikes 
        Act will effectively manage the long term conservation of 
        endangered species and thereby obviate the need to designate 
        critical habitat.

    Finally, we must train out of our deepest obligation to the 
American people who provide their sons, daughters, brothers, sisters, 
husbands, and wives to defend the nation. We must also train in harmony 
with the environment where possible. We must determine an appropriate 
balance between environmental protection and mission readiness. We look 
forward to working with the administration, Congress, and other federal 
agencies to achieve our dual goals of national defense and 
environmental protection.

    Senator Inhofe. Thank you, Admiral. I appreciate your 
ending it that way, because people do not realize we are 
talking about human lives here. Many of the deployments we have 
will be exposed to a combat environment as soon as they arrive, 
and people do not understand that. Thank you very much.
    General Van Antwerp.

    STATEMENT OF MAJ. GEN. ROBERT L. VAN ANTWERP, JR., USA, 
     ASSISTANT CHIEF OF STAFF FOR INSTALLATION MANAGEMENT; 
ACCOMPANIED BY BRIG. GEN. WILLIAM G. WEBSTER, USA, DIRECTOR OF 
                            TRAINING

    General Van Antwerp. Mr. Chairman, members of the 
committee, Senator Kennedy, I really appreciate the opportunity 
to come to talk to you today about encroachment issues and 
their effect on Army readiness. Before I go any further, I 
would like to just introduce a gentleman to my rear, General 
Webster, who is the Army's trainer. He is the Director of 
Training for the Army, and previously commanded the National 
Training Center at Fort Irwin, California.
    There is no question that societal changes, demographics, 
and environmental issues are affecting our training and require 
new management approaches if we are going to be able to sustain 
our training readiness in the Army.
    Our essential training focuses on two things, maneuver, 
both ground maneuver and air space maneuver for our aviation 
capabilities, and the live-fire training both in more of a 
static mode where we are qualifying and getting proficient on 
our weapons, but also in live-fire maneuvers. This requires 
land. It requires land that can provide challenging, realistic 
scenarios, and allow soldiers and units to train like we expect 
them to fight.
    The old axiom that we will fight like we train is true, but 
we also have to do the reversal of that, and we have to make 
sure that we can train like we fight.
    Some suggest that increased use of simulations or 
simulators can fill this gap and can offset our reliance on 
live-fire training and maneuvers. The truth is that it can 
complement, but it cannot be a substitute. There is no 
substitute for live fire and maneuver.
    If you have ever been to or observed in a live-fire 
exercise, and I have been on many of them through my career, 
when you give live ammunition, and you are going through a live 
maneuver exercise, there is a whole different factor built in 
once you put those weapons off of safe and you have ammunition. 
You are so much more alert as to your surroundings, how you 
run, how you hit the deck with your weapon, the whole aspect of 
live-fire. There is no substitute for it, and it cannot be 
replicated in any simulation.
    The Army's primary concern on encroachment is basically 
separated into three sections, one is urban growth, the other 
is threatened and endangered species and their habitat, and the 
third is unexploded ordnance and its constituents. I will just 
talk very briefly about the three of those and their impact, 
and give a couple of examples.
    Urban sprawl, or residential growth, includes mostly noise, 
air quality, and habitat. Most installations were once far from 
the public view when we first put them out there, and since 
then there has been a lot of movement from the urban areas.
    It is something that is natural, and something that we 
think in many ways is beneficial. However, it has taken away a 
lot of the habitat out there, and has caused our installations 
to become islands of biodiversity and havens for endangered 
species. When this growth occurs, we become concerned about the 
restrictions.
    Now, we go into the training areas, and the effects that 
these habitats have on our training. I will give a particular 
example. Fort Hood has about 200,000 acres of training ranges 
and maneuver land.
    When looking at the Endangered Species Act, some species 
including the golden-cheeked warbler and the black-capped 
vireo, restricts about 74,000 of that 200,000 acres, about 38 
percent. The Clean Water Act prohibits digging on Fort Hood's 
128,000 acres of that 200,000 acres, and the Clean Air Act 
restricts smoke and pyrotechnics on about 46,000 acres. So what 
looks like maneuver land that you are able to do full scope 
training on, when you get down to the restrictions, almost as 
difficult to manage where you cannot do things as where you 
can. This is a huge challenge, and that can also be said for 
other installations.
    At the same time we are committed to being a leader in the 
environmental stewardship, we have found that there are many 
gaps in scientific data needed to support informed decisions. 
These include what makes good habitat, what should be the ratio 
of habitat set aside, and what are stand-off distances. To be 
truthful, this is an inexact science today, and it needs much 
more research.
    Finally, I will talk about our concerns with unexploded 
ordnance and its constituents. Most of this focuses on the 
future, and as Senator Kennedy mentioned, we have a serious 
issue at a Massachusetts Military Reservation. This is 
significant because a sole-source groundwater aquifer sits 
right underneath the Cape and affects the local populations 
around it. We have done studies of other installations and have 
found that other installations have all or a portion of the 
sole source groundwater aquifer for surrounding areas.
    There are many other factors, however, that have to do with 
unexploded ordnance and their effects on the aquifer. These 
factors include soil conditions, depth of the aquifer, and the 
way the aquifer transmits the direction of its movement. All of 
those things have to be taken into consideration.
    We are concerned, certainly, because the EPA felt obligated 
to administratively stop live-fire weapons firing. As Senator 
Kennedy said, there could and should have been much more 
outreach and community involvement before we got to that point. 
We are worried about the precedents that could be set if the 
Environmental Protection Agency or other regulatory agencies 
could administratively stop live-fire weapons firing while 
waiting for years of study to take place that will determine 
what the effects are. We have over 400 live-fire ranges in the 
Army.
    The Army's approach to encroachment takes primarily two 
main avenues of approach, if you will. The first is to execute 
a sustainable range management plan, and I can talk more about 
that during the question and answer period; and the other is to 
look for buffer zones where they are practical and affordable.
    We are working with the Nature Conservancy on buffer zones 
at Fort Bragg, North Carolina. They are in cofunding. We were 
able to obtain about 2,200 acres thus far, and we are working 
on more surrounding Fort Bragg. This becomes difficult because 
of the red-cockaded woodpeckers' presence. We are looking for 
habitat outside the fence line, if you will, in order to be 
able to train more effectively within the fence line, and also 
to provide the right habitat. They have obtained about 2,200 
acres from willing sellers outside of the installation to 
create a buffer zone around Fort Bragg.
    This all will require a partnership, as Senator Kennedy 
said, again, strong emphasis on outreach, on community 
involvement. It means partnership with our friends and 
neighbors who border on our installations. It means 
partnerships with other agencies, the regulatory agencies that 
have the ability to govern and to determine what are the areas 
that should be set aside for threatened and endangered species, 
and regulatory things. Finally, it means a partnership with 
you, a partnership with Congress to achieve balanced 
application of the environmental laws.
    I believe there are ways to strike the right balance here, 
and that the military needs to be a strong steward of the 
environment, and we are committed to that. Both our vice chief 
and chief have said that we are not going to affect the 
drinking water of the American people, so we really have strong 
concerns that we do the right thing. At the same time, as I 
said in opening, there is no alternative to having live-fire 
maneuvers.
    So Mr. Chairman, members of the committee, Senator Kennedy, 
I would just like to thank you for the opportunity to make this 
opening statement, and I look forward to questions.
    [The prepared statement of Major General Van Antwerp 
follows:]
    Prepared Statement by Maj. Gen. Robert L. Van Antwerp, Jr., USA
    Mr. Chairman and members of the committee: Thank you for providing 
the Army with the opportunity to present our concerns about what has 
become known as ``encroachment'' to our training installations, ranges 
and land. This is a challenging issue. The fact that we are discussing 
it today demonstrates our recognition that societal changes, 
demographics, and environmental issues are affecting our way of 
training soldiers. The Army is implementing new management approaches 
in order to sustain readiness. The Army is not seeking to avoid any 
responsibilities it has to the people of the United States. We are not 
seeking relief from compliance with environmental statutes. We will 
continue to do our best to ensure that our practices do not endanger 
the health or well being of any American.
    Our essential training focuses on weapons firing and ground 
maneuver, to include those aspects of maneuver that include our Army 
aviation capabilities. To practice and maintain proficiency in both of 
those areas, we require maneuver land and a variety of fixed firing 
ranges for everything from individual small arms to large caliber crew 
served weapons. Our important training installations all include a 
range ``complex'' that supports both live weapons firing and maneuver.
    We have expended, and continue to expend, a great deal of effort 
and resources on both our range operations and modernization and on the 
environmental compliance requirements associated with them. In 
maintaining areas for training, we have isolated them from development 
and created islands of biodiversity and havens for unique natural and 
cultural resources that are found in very few other locations. However, 
we would ask those who seek to limit our essential training because of 
the presence of those resources to recall that it was our training and 
management practices that permitted these islands to exist in the first 
place and to flourish now in an environment that includes training 
activities ranging from maneuver to live-fire.
    It has been suggested that increased use of simulations can offset 
our reliance on live weapons firing and maneuver training. We have made 
a significant investment in simulations; however, because of the 
extreme rigors and demands of ground operations, live experiential 
training will remain central to our training strategies. Most of the 
Army's investment in training goes to Operating Tempo (OPTEMPO) and 
Flying Hour Program (FHP) accounts that resource live training, an 
investment of some $8 billion per year.
    We ask that you recognize the unique role of the Army and our 
sister Services within the Department of Defense. We carry out our 
training, not for profit or gain, but to ensure the readiness of our 
force. That readiness is critical to our ability to perform the 
missions assigned to us and to do so efficiently and with a minimum of 
casualties. We have learned hard lessons in the past when other 
priorities overshadowed our need to train young Americans to face the 
uncompromising conditions and challenges of war. Unlike some other 
Federal agencies, the private sector cannot supplement the execution of 
our readiness requirements and missions.
    As the Army continues its Transformation, we are mindful of the 
changing world and the imperative for the Army to remain a viable and 
effective part of the Defense team, to maintain a focus on readiness 
through training despite the many competing interests.
    The Army's primary encroachment concerns are urban sprawl, 
threatened and endangered species, and restrictions that impact our use 
of munitions.
    Urban sprawl and unchecked residential and community growth may 
present conflicts with our neighbors over noise, dust, and other 
effects of Army training. It sets off, in some places, a competition 
for natural resources. When our installations were established, they 
generally were in rural areas, remote and isolated from populations. 
That has changed. The sum effect has been that Army installations, once 
far from public view, are now often in the midst of large urban areas. 
Our training practices bring with them noise, dust, the expenditure of 
munitions, and ground activities that can be viewed as a nuisance and 
annoyance to those who have become our neighbors.
    The management of endangered species in accordance with existing 
regulations has been, and continues to be, a great challenge. As a land 
based force, we need land to train. Our important training 
installations are large and are needed to accommodate air and ground 
maneuver using our increasingly mobile weapons systems. Endangered 
species regulations have required us to review our training activities 
to ensure that they do not jeopardize the continued existence of an 
endangered or threatened species. In some cases, we must modify our 
training activities to meet that requirement. As the number of listed 
plants and animals increases, the amount of land available to us for 
unmodified training activities may decrease further.
    Our concerns about munitions focus on the future. At one of our 
ranges, the Army National Guard's Massachusetts Military Reservation 
(MMR), we have encountered regulatory actions that impacted our 
operations. For the first time, the EPA has administratively stopped 
our live-fire weapons training based on their authority to abate 
imminent health and environmental hazards. Given the fact that our 
units employ a large number and type of weapons, and that we train with 
those weapons on literally thousands of ranges, the potential for 
cessation of live-fire training is of great concern to us. The 
potential impact of further administrative ``cease fire'' orders cannot 
be measured, other than to say that major training and training 
readiness investments would be affected. The regulation of munitions is 
a complex issue that requires deliberate measures in the areas of 
environmental research and development, risk assessment, range design, 
and range management. Unilateral orders to stop firing while we 
investigate these challenging issues will impact readiness. Although 
statutory and regulatory provisions allow for elevation of disputes 
between Executive Branch agencies where an administrative action 
affects training or a readiness activity in a manner that has or would 
have a significant adverse effect on military readiness, these 
extraordinary measures have been rarely invoked. We will work with 
Congress and the EPA to reduce uncertainty and increase flexibility in 
laws and regulations so as to balance the needs of national security 
and the environment.
    Our approach to encroachment contains three key elements. First, we 
will respond to concerns at our closed and transferring ranges and 
perform the required response actions necessary to protect public 
health and safety. Second, we will introduce a more sophisticated, 
integrated approach to range management that we call Sustainable Range 
Management. This approach will allow us to better manage our lands and 
maximize their use for military purposes. Third, after appropriate 
review and discussion with affected parties, we may seek legislative 
clarification to achieve reasonable application of statutes as they 
impact our active ranges and live training. We believe Congress 
intended to afford us an opportunity to implement our management 
programs and to take the appropriate corrective action consistent with 
national defense needs and public health considerations. We believe it 
is unreasonable to stop vital readiness training just because issues 
are technically complex and require time to understand and implement 
effective responses. We will work with the regulatory community to 
engage in conflict resolution before resorting to unilateral 
administrative orders.
    We are providing you with written testimony that expands on the 
following issues; our need for ranges and training land to support our 
live training, the evolving challenge of encroachment, examples of some 
of those challenges, what we are doing to meet the challenge, and what 
we would ask of Congress in this area. We have included some success 
stories such as Fort Bragg's leveraging of public and private resources 
by working with the U.S. Fish and Wildlife Service and The Nature 
Conservancy to acquire conservation easements from willing sellers off 
the installation. These easements allow for enhanced management of the 
red-cockaded woodpecker, an endangered species. The result is that Fort 
Bragg is able to lessen the restrictions on training while enabling the 
red-cockaded woodpecker to move closer to recovery. Expanding these 
partnerships, purchasing lands, securing easements, and transferring 
development rights will go a long way toward resolving our training 
encroachment problems.
 mission needs--why live training and testing is important to readiness
    The primary mission of the United States (U.S.) Army is to fight 
and win in armed conflict. Training soldiers, leaders, and units is the 
vital activity that ensures the readiness of the Army to accomplish 
this mission. To be effective, training must provide soldiers the 
opportunities to practice their skills in combat-like conditions. These 
conditions must be realistic, as well as physically and mentally 
challenging. The Army's training ranges, as well as those of our sister 
services, provide training opportunities to develop and improve a 
soldier's proficiency, competence, and confidence in the use of 
sophisticated weapons systems. The fact that the Army's mission 
increasingly includes peacekeeping operations does not reduce the need 
for combat training. In fact, ``policing'' requires soldiers to be 
highly proficient with pinpoint target identification and engagement 
procedures. This can only be accomplished by practicing with the actual 
weapon in specifically designed training exercises on our ranges and 
training areas dedicated to that purpose. Specialized peacekeeping 
training, however, cannot replace the basic emphasis on combat skills. 
Overwhelming evidence from the Army's Combat Training Centers proves 
that the teambuilding and weapons discipline skills developed for the 
Army's warfighting role are critical to success during operations other 
than war. The bottom line is that the Army's 21st century missions 
require at least as much live training as did past missions.
    The amount of live-fire training in the Army cannot be reduced 
without serious degradation to readiness and the concurrent increased 
risk to American soldiers. The amount of live-fire training that 
individual soldiers and units are required to complete is based on the 
common sense premise that certain skills are perishable and must be 
periodically exercised. In other words, to be effective with a certain 
weapon system, the soldier must shoot a certain number of times. The 
Army has established standards that identify the minimum number of 
times and specific firing events that a soldier must train to achieve a 
given level of proficiency. The Army currently has difficulty meeting 
these minimum standards because of limited facilities, funding, and 
time. Many ranges currently operate at maximum capacity so that units 
can meet the minimum standards. Any further limitation on these 
training facilities would inevitably cause a reduction in live-fire 
training below that needed by soldiers to remain minimally proficient.
    Some see the recent development of realistic computer games, which 
the Army calls simulations and simulators, as a viable substitute to 
live training. It is true that these technologies offer exciting new 
ways to train some aspects of modern soldiering; however, these virtual 
tools can only be viewed as an addition to live weapons firing and 
maneuver; never a replacement. To rely solely on simulations would be 
an injustice to the soldiers whom the Army has promised to train, and 
an abrogation of the responsibility that the Army is legally bound to 
perform.
    Live training is critical to assessing the effectiveness and 
capability of not only the people but also the actual equipment that 
the Army depends on. The only way to ensure that a piece of equipment 
will be ready for battle is to put it through rigorous use beforehand. 
Weapons systems and vehicles, like the soldiers who count on them, must 
be tested and refined over and over to ensure quality and 
dependability.
     the evolution of army ranges and emergence of ``encroachment''
    Many Army ranges have been used for training with a wide variety of 
weapons systems for well over 100 years. The widely varied, historical 
usage of Army ranges has created environmental issues on these lands 
that leave them susceptible to enforcement actions based on an 
increasing number of health and safety concerns and increasing 
application, of environmental statutes. A number of these statutes 
contain enforcement triggers/thresholds that are based on the 
assessment of the environmental regulatory authority as to whether or 
not a given condition or activity presents a ``potential'' risk or 
``imminent'' hazard to human health or natural resources.
    For most of its history, the U.S. had no environmental legislation. 
Federal regulation to protect human health or the environment was 
unknown until the mid-20th century. During the 1950s and 60s, state and 
local governments had the responsibility for environmental problems. 
Only over the last 30 years has the U.S. begun to understand and 
regulate the potential environmental impacts of a wide variety of civil 
and industrial practices. During the 1970s, Federal legislation 
established rules for national environmental protection. Examples 
include the National Environmental Policy Act (NEPA), Endangered 
Species Act (ESA), the Clean Air Act (CAA), Clean Water Act (CWA), and 
the Resource Conservation and Recovery Act of 1976 (RCRA). These laws 
have improved the quality of life for all Americans, including soldiers 
and their families.
    In certain instances, some of these regulations were designed to 
minimize human health and environmental impacts associated with typical 
industrial operations (i.e., manufacturing, mining, refineries). Also 
during the 1970s, courts and Congress began granting citizens authority 
to challenge decisions involving environmental laws and to pressure 
agencies to implement directives. Liability for environmental harm was 
expanded in 1980 with the enactment of the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA). In 1992, Congress 
amended the Resource Conservation and Recovery Act (RCRA) to clarify 
that Federal agencies may be penalized for failure to comply with its 
provisions.
    The Army has implemented programs to ensure compliance with these 
statutes. While we have been successful at managing endangered species, 
some of these actions have come at the expense of training capabilities 
at some installations. The environmental compliance programs on the 
ranges and training land of Fort Hood, Texas are an example of how such 
programs have restricted training capabilities. Fort Hood contains 
nearly 185,000 acres of ranges and training areas. Erosion control 
practices designed for compliance with the CWA prohibit digging on 
approximately 128,000 acres (69 percent) of training land. This means 
no digging for vehicle fighting positions, survivability positions, 
maneuver obstacles, or individual fighting positions, all of which are 
required to meet doctrinal training standards for many units on Fort 
Hood. The U.S. Fish and Wildlife Service's (FWS) biological opinion, 
issued under the ESA for both the Golden Cheeked Warbler and the Black 
Capped Vireo, restricts training on over 74,000 acres (38 percent) of 
training land. These restrictions include no digging, no tree or brush 
cutting, and no ``habitat destruction'' throughout the year on the 
entire core and non-core area. During March through August, vehicle and 
dismounted maneuver training is restricted to established trails, and 
halts in restricted areas are limited to 2 hours in designated 
endangered species ``core areas'' (55,000 acres of the 74,000 acres are 
designated ``core areas''). Artillery firing, smoke generation, and 
chemical (riot control) grenades are prohibited within 100 meters of 
the boundaries of the designated ``core areas.'' Use of camouflage 
netting and bivouac are prohibited across the entire ``core area'' 
during these months. Fort Hood's training areas contain over 2,400 
(1,100 have been surveyed) archeological and culturally significant 
sites where digging is prohibited. The SHPO wishes to stop maneuver 
training on these sites. To comply with the CAA, there is no smoke, 
flare, chemical grenade, or pyrotechnic use allowed on over 46,000 
acres (25 percent) of training land. Due to noise restrictions, there 
is no Multiple Launch Rocket System or artillery fire allowed on over 
1,000 acres of land. These restrictions include only those driven by 
well-established and broadly applied environmental requirements. While 
some of these restrictions overlap on the same training areas, only 
about 17 percent of Fort Hood training lands are available for training 
without restriction.
    The recent cessation of live-fire training at Massachusetts 
Military Reservation (MMR) leaves the Army very concerned that similar 
restrictions could occur at major live-fire training facilities such as 
Fort Hood. If applied to a major training installation, such as Fort 
Hood, the results could be catastrophic from both a fiscal and a 
readiness perspective. Army units at Fort Hood were authorized to fire 
approximately 35.4 million rounds of ammunition in FY01. Fort Hood 
contains some 33 small arms ranges, 24 major weapons ranges, and a 
number of separate field artillery and mortar firing points. The 
discretionary enforcement authorities granted under current 
environmental statutes leave many of these critical training assets 
susceptible to restrictions to training capacity. If applied, the Army 
would be forced to relocate training to other locations, construct new 
adequate ranges at those locations, and deploy Fort Hood soldiers to 
train off-site. These ``work arounds'' would be in addition to 
addressing the compliance requirements, which at MMR have cost some $60 
million on what is a relatively small (22,000 acres) installation. If 
applied to an installation such as Fort Hood, the impacts on the Army's 
budget, training efficiency, and soldier morale would be catastrophic.
    Historically, the Army has chosen remote locations for its training 
land. Until the last 30 years, there was little residential or 
commercial development near these facilities and, as such, the public's 
awareness of live training activities was minimal. As the population in 
and around many U.S. cities has grown, ranges and training lands have 
remained insulated from the urban development (sprawl) that covered 
much of the landscape surrounding many Army installations. Ranges and 
training lands became ``islands of biodiversity'' and their value as 
natural resources (green spaces) increased. As population centers 
expanded to or near the installation boundary and residential areas 
grew in more remote, previously rural setting, citizens became more 
aware of training activities. The demographics of the residents near 
Army installations have also changed. The affluence born of the recent 
economic expansion has grown new suburban communities near Army 
installations. These new residents are less familiar with the sights 
and sounds of range and training activities. The impressions they 
formed of Army training were based on noise, smoke, a lack of access to 
what had become the most pristine natural landscapes in their regions 
and did not include an understanding of the benefits that Army training 
provides. In general, the U.S. citizenry is less likely to have 
personal military experience than they had 30 years ago.
    The public also perceives a reduced national security threat since 
the fall of the Soviet Union, which further reduces the perceived value 
of live-fire testing and training activities. In fact, the rate of Army 
deployments is at an all time high. More soldiers are consistently 
deployed (including the Army National Guard and Reserve) to more 
locations, more frequently, than ever before. At the same time, the 
Army's weapons systems and warfighting doctrine have increased the 
demand for training and testing ranges.
    The effects of these encroachment factors are intensified by well-
organized communities committed to the elimination of the military's 
impact on them. The effectiveness of these communities is enhanced by a 
system of environmental regulation that allows for discretionary 
enforcement and citizens' authority to challenge regulatory decisions, 
resulting in pressure on regulators to interpret environmental 
requirements most conservatively to avoid speculative effects or risk 
of litigation.
    As the Army tries to ``balance'' its testing and training mission 
with its requirement to comply with environmental regulations and its 
desire to act as good stewards of the natural resources under our 
authority, we are pushing already severely constrained resources to the 
breaking point.
     effects of the senior readiness oversight council (sroc) key 
                 encroachment categories on army ranges
    Today, we will discuss in some detail three of the areas raised by 
the SROC that impact the Army training most significantly. These are: 
Urban Growth; the ESA/Critical Habitat; and Unexploded Ordnance and 
Constituents. The Army's interests and concerns in other SROC areas of 
concern such as airborne noise and air quality are articulated in the 
oral and written testimony of our sister Services.
                              urban growth
    Most of the Army's major training installations were established 
during the World Wars, and they were both remote and isolated from 
populations. However, since then, many installations have experienced 
considerable urban growth around their boundaries and are now often in 
the midst of large urban areas. As the Army prepares for its mission by 
training and testing, we create noise, dust, and ground disturbances 
that can be viewed as a nuisance to those who have become our 
neighbors.
    The challenge to the Army in maintaining its readiness to defend 
America's essential interests is to continue to train effectively in 
the context of these changing demographic conditions. Clearly, the Army 
is limited in its ability to acquire new land. Cost and the general 
public concerns about urbanization's effects on remaining natural and 
agricultural land make acquisition problematic. However, the Army's 
emerging weapons systems require more space to effectively exercise 
their capabilities within current doctrinal standards. This reduces our 
flexibility to use what land we have.
          threatened and endangered (t&e) species and habitat
    As we focus our training missions and transformation on specific 
installations, we find that endangered species regulations already 
limit the use of a significant portion of the landscape. Army lands 
host 153 federally listed species on 94 installations, and 12 
installations have lands designated as critical habitat (four of these 
habitats are as yet unoccupied by the species for which designated). As 
the habitat of listed species is destroyed by development of lands 
adjacent to our installations, Army training activities on the habitat 
remaining are being restricted.
    Let me offer a few examples of challenges we face with regard to 
T&E management.
    The Red-Cockaded Woodpecker in the Southeast U.S. affects four 
major training installations (Forts Bragg, NC; Stewart, GA; Benning, 
GA; Polk, LA) and two major service school training bases (Forts 
Jackson, SC; and Gordon, GA). This single species has survived because 
of the havens provided by our installations' training land and ranges, 
which have been insulated from development and forestry practices in 
the region. The Army spends the resources necessary to help the 
recovery of the species while developers do not have to make similar 
commitments of resources.
    The many listed plants in Hawaii and the complexities of complying 
with the ESA prevented the use of a valuable multi-purpose range built 
in 1988. We have also voluntarily closed our only large caliber firing 
range on Oahu--Makua Valley--while we review both NEPA and ESA 
management plans and agreements.
               unexploded ordnance and other constituents
    When military munitions do not function as intended, or fully 
detonate, they create Unexploded Ordnance (UXO). Many challenges arise 
if and when the UXO is found on land to be used for something other 
than military testing or training. Land no longer used for military 
testing and training includes former ranges being transferred to the 
public under the Base Realignment and Closure (BRAC) program, or ranges 
previously transferred out of military control and now being addressed 
under the Formerly Used Defense Sites (FUDS). When found on active and 
inactive military ranges, UXO poses fewer explosives safety hazards, 
since the Army still controls these lands and restricts access to the 
public.
    When military munitions do function as intended, trace quantities 
of explosives constituents may be released into the air, soil, and 
water at the firing point and in the impact area of the range. These 
explosives constituents can pose an environmental challenge if present 
in large enough quantities, if the specific geophysical conditions are 
conducive to transport to the water sources, and if the environmental 
regulations at that location restrict the particular constituents being 
emitted. Range impact areas also become littered with metal scrap from 
the exploded munitions items.
    The use of environmental statutes, such as CERCLA, RCRA, CWA, and 
the Safe Drinking Water Act (SDWA), to require investigation and 
cleanup of UXO and other constituents on active ranges could impact the 
Army's ability to fulfill its national security mission by causing the 
shut down or disruption of live-fire training. That vulnerability 
extends not only to the Army, but also to regulators themselves, who 
are vulnerable to citizen suits for not vigorously applying these and 
other environmental laws to unexploded ordnance and constituents on 
active ranges. While military activities are subject to regulations in 
the same manner and to the same extent as they apply to private 
activities, it is also clear that no private entity is responsible for 
national security or engages in the uniquely military activities 
necessary to support a standing Army that deploys worldwide.
    In 1997, EPA Region I issued an Administrative Order (AO) under the 
Safe Drinking Water Act prohibiting the use of lead ammunition, 
propellants, explosives, and demolition materials at MMR. This action 
essentially shut down live-fire training at MMR except for use of 
plastic, frangible, and green ammunition. In October 1999, the Governor 
of Massachusetts issued an Executive Order designating the 15,000-acre 
training area as a Wildlife Refuge and Water Protection Area 
anticipating state legislation to implement the plan. Legislation did 
not pass, but we anticipate it will be reintroduced this year. Both the 
Executive Order and proposed legislation established a state 
commission, with no military representation, to determine what military 
training would be compatible with the area's new designation.
    In January 2000, EPA Region I ordered a study to determine the 
feasibility of remediating UXO on the range impact area, stating that 
all UXO is a potential threat to groundwater. Although Royal Demolition 
Explosive (RDX) has been detected in the groundwater under the MMR 
impact area, there is no evidence that current drinking water supplies 
is affected. A fourth AO from EPA Region I directs the National Guard 
to employ a controlled detonation chamber, instead of detonation in 
place, to dispose of UXO or other munitions that have previously been 
disposed of by burial on the impact area.
    To date, a couple of other Army installations have identified 
indications of contamination in the soil or groundwater stemming from 
possible munitions' constituents at active ranges. These installations 
include Fort Lewis, Washington and Aberdeen Proving Ground, Maryland. 
Although these incidents of constituent presence have not been 
significant enough to cause regulators to take action, there is concern 
that EPA actions at MMR could set a precedent for the agency to take 
similar steps elsewhere causing a cessation of critical training.
    EPA's interpretation of the statutory requirements, the precedents 
being set by both state and Federal agencies with respect to munitions 
and UXO on active ranges, and the discovery of RDX in the sole source 
aquifer at MMR increase the Army's vulnerabilities in this area and 
present a broad risk to live-fire training and testing. This applies to 
installations located above sole source aquifers as well as 
installations located above any groundwater sources that regulators 
believe could be a current or future drinking water source.
                           the army's actions
    The Army's overall approach to range sustainability has three broad 
components. The first of these is Closed and Transferring Range 
response that is addressed later in this testimony. The second is the 
implementation of Sustainable Range Management. The last is Legislative 
Clarification that will be discussed at the end of this testimony.
                   sustainable range management (srm)
    The creation of a Sustainable Range Management Program to integrate 
environmental compliance and stewardship, facilities management, and 
training management on ranges and training land is our primary 
initiative to meet the challenges of encroachment.
    The Army is improving the way in which it designs, manages, and 
uses its ranges. This effort, which we call Sustainable Range 
Management, will help the Army maximize the capability, availability, 
and accessibility of its ranges and training land to meet doctrinal 
training requirements needed to support its Title 10 mission and ensure 
a trained and ready force.
    The Army's sustainable range management effort is based upon three 
tenets: (1) Information Dominance: ensuring the Army has the most 
current and best information related to the operational and 
environmental characteristics of its ranges; (2) Integrated Management: 
ensuring that the major management functions that directly affect 
ranges, operations/training, facilities management, and environmental 
management are integrated to support the training mission; and (3) 
Outreach: ensuring that we articulate the Army's requirement for live-
fire training to support national security and improving our 
understanding of the public's concern over the potential impacts of the 
live-fire training. The Army's current sustainable range management 
effort is broad and complex, and has as its basis the development of a 
comprehensive sustainable range management plan that we believe will 
ensure our ability to maintain and sustain our ranges and training 
lands well into the 21st century.
    The Army has just completed the first phase of the plan, which 
identifies shortfalls (gaps) in current functions, policies, and 
procedures that could impede implementation of sustainable range 
management across all levels of the Army, from Headquarters, Department 
of the Army (HQDA) down to the over 400 installations with range 
assets. Doctrinally based core range requirements; those related to 
requirements for modernization of range facilities; services to support 
range operations; and maintenance requirements were analyzed against 
encroachment factors to gauge our vulnerability to external effects 
that will preclude our ability to support mission training requirements 
on our ranges. Based on that analysis, the Army has developed goals and 
objectives for sustainable range management and is currently drafting 
measures of merit for monitoring their effectiveness upon 
implementation. These goals and objectives for sustainable range 
management build upon our doctrinally based core range requirements and 
integrate them with mechanisms to minimize encroachment and the impacts 
of encroachment, reduce environmental liability through sound 
environmental stewardship and compliance, and provide outreach to the 
public. The goals and objectives form the basis for our comprehensive 
sustainable range management plan, which will evolve into a new Army 
training regulation.
    As part of this effort, the Army is developing policies and 
procedures to correct the shortfalls identified during our initial 
analysis. We are developing integrated management strategies at the 
HQDA, Major Army Command, and installation levels to cut across 
functional lines in order to support the live-fire training mission and 
ensure our range capability into the future. Because Army ranges are a 
combination of training infrastructure, real property assets, and 
environmental resources, the integration of those management functions 
is vital to the success of this approach. To oversee this integrated 
approach and the comprehensive sustainable range management plan, the 
Army created the Army Range Sustainment Integration Council (ARSIC) in 
June 2000. The ARSIC is a HQDA level Council of Colonels that acts as 
an integration process team to support sustainable range management by 
developing recommendations for integrated policy, positions, and action 
plans.
    The Army's ability to implement sustainable range management 
depends not only on its ability to meld the three management programs: 
training, facilities, and environment into a cohesive whole, but also 
on its ability to maintain accurate and up-to-date information and data 
related to the operational and environmental characteristics of our 
ranges, as well as the impact of munitions use on the environment. As 
part of this effort, HQDA has initiated a worldwide inventory of its 
active and inactive ranges. This inventory will provide a ``ground-
truth'' baseline of the Army's extensive range infrastructure and 
provide the foundation for the comprehensive plan.
    Sustainable Range Management will rely on the effective integration 
of the lessons learned, and varied environmental compliance programs 
and practices currently in place within the Army. Some examples of 
these follow.
       lessons learned and compliance practices for urban growth
    One of the most successful approaches to managing urban growth is 
the Joint Land Use Study (JLUS) program within the Office of the 
Secretary of Defense (OSD). This community and economic development 
program provides resources to communities, who, in conjunction with 
neighboring military installations, agree to undertake joint regional 
planning. Resources provide planning expertise. The result is a joint 
land use plan that provides optimal ``zoning'' recommendations to 
reduce civil-military friction resulting from urban growth.
    Another Army initiative is the encouragement of land ownership 
partnerships with conservation groups with the objective of creating 
``buffers'' around installations that will prevent development and 
fence line encroachment.
    An excellent example of the creation of buffers is our Private 
Lands Initiative at Fort Bragg. In this initiative, the Army is 
partnering with The Nature Conservancy to develop buffers adjacent to 
the installation and training areas. While we may not need to ``own'' 
more land, it is clear that the Army must have access to more land.
        lessons learned and compliance practices for t&e species
    HQDA has initiated a series of briefings and information meetings 
with FWS to better inform them about mission requirements and better 
understand FWS T&E species conservation objectives. Army policy states 
that ESA compliance requirements are ``must fund.'' Endangered Species 
Management Plans and their implementation constitute the major focus of 
funding for ESA compliance requirements. The Army has completed 
endangered species surveys for 71 percent of its installations. The 
Army has initiated several studies on Species at Risk in order to 
conserve them before they require listing. Four Army employees serve on 
FWS Recovery Teams. New Army policy will enable installations to 
partner with neighbors for the acquisition of conservation easements 
off of the installation to meet installation management objectives; 
however, funds have not yet been programmed to support this initiative. 
Additionally, the Army and other military services are exploring how 
Sikes Act Integrated Natural Resource Management Plans (INRMP) might 
qualify as ``special management'' schemes such that installations with 
such plans would not require designation of critical habitat.
    At Fort Bragg, we are leveraging public and private resources by 
working with the FWS and The Nature Conservancy to acquire conservation 
easements from willing sellers off the installation. These easements 
allow for enhanced management of the red-cockaded woodpecker, an 
endangered species. The result is that Fort Bragg is able to lessen the 
restrictions on training while enabling the red-cockaded woodpecker to 
move closer to recovery.
            lessons learned and compliance practices for uxo
    It is essential that we respond to all UXO on our closed, 
transferred, and transferring ranges thus demonstrating to the public 
that the Army is accountable for its actions and will not knowingly 
harm the public or the environment.
    A first step in accomplishing this was the completion of Phase I of 
the Army Range Inventory. When completed, the Army Range Inventory will 
collect key information about active and inactive (A/I) ranges and 
closed, transferred, and transferring (CTT) ranges. Phase I was a 
survey data call to all Army Major Commands requesting basic 
information (e.g., location, acreage, munitions fired) about all 
current and former ranges. It is being followed by field visits 
executed by the Corps of Engineers for Closed, Transferring, and 
Transferred (CTT) ranges, and by the Geographical Information Systems 
(GIS) Regional Support Centers under the Army's Integrated Training 
Area Management Program, for Active/Inactive (A/I) ranges. Phase I gave 
us a good estimate of the total amount of acreage for our ranges and 
some information on munitions expenditures. Completion of the follow-on 
phases of the inventory will provide a clearer picture of the Army's 
current range assets as well as a listing of former ranges. The 
complete inventory will help the Army prioritize and program for 
response actions at former ranges and develop sound active range 
management programs.
    Proactive approaches the Army has taken to ensure the continued use 
of Army ranges include finalizing Army guidance for implementation of 
Department of Defense Directives (DODD) 4715.11 and 12, ``Environmental 
and Explosives Safety Management on Department of Defense Active and 
Inactive Ranges Within/Outside the United States,'' promulgated in 
August 1999, and establishing the Range Sustainment General Officer 
Steering Committee (GOSC), chaired by the Vice Chief of Staff. The Army 
also founded the Army Range Sustainment Integration Council (ARSIC), a 
Council of Colonels, to work and integrate solutions to range and 
munitions issues across operational, environmental, and installation 
management functional areas. This group is the proponent for the Army's 
emerging Sustainable Range Management Program.
    Army leads the Office of the Secretary of Defense's Operational and 
Environmental Executive Steering Committee for Munitions (OEESCM), 
which was established to identify and address environmental, 
operational and explosives safety issues throughout the munitions 
lifecycle. The OEESCM, consisting of operator and environmental 
representatives from all the Services, as well as many other DOD 
organizations, has formulated a Munitions Action Plan (MAP). The MAP 
establishes an overall framework that identifies and defines 
significant initiatives that will improve DOD's practices and minimize 
environmental impacts across the full spectrum of the munitions life 
cycle.
    The OEESCM created a work group to establish policy and guidance 
for the management of munitions scrap metal found on ranges. The final 
draft policy is in staffing and the implementing guidance document has 
been started. The OEESCM Range Response Subcommittee, which has spent 
the last 2 years working with EPA, states, and other stakeholders to 
develop a Range Rule, is working to publish a DOD Directive that builds 
on that earlier effort.
    As part of its outreach efforts, MMR is implementing a UXO Safety 
Education program for residents on and around the Reservation. The 
program includes educational videos, handouts, presentations, and a 
website all developed with input and approval from the surrounding 
community. The intent of the program is to educate the community, 
especially young children, on the hazards of UXO and what to do if they 
think they have encountered UXO.
    A key requirement to address potential encroachment is to develop 
and use the best information to support management and decision-making. 
The Army is looking into what is being emitted when munitions are 
fired, how munitions constituents behave when they are in the 
environment, what happens to UXO on the ranges, and the current 
conditions on our active ranges.
    The Army's Range XXI program is beginning to answer these questions 
through a number of forward-looking environmental projects designed to 
support training and testing operations. It is planned and managed by a 
partnership between the Army's Operators, Materiel Developers, and 
Environmental, Safety, and Occupational Health professionals.
    Range XXI's greatest success to date is the Green Ammunition 
initiative. Green ammunition contains lead-free bullets and uses less 
hazardous material in the manufacturing process. Green ammunition is a 
replacement for the standard service round and is an excellent example 
of the Army's proactive, integrated approach to managing environmental 
issues on Army ranges. Lead in ammunition projectiles can accumulate 
and concentrate in the soil in and around the target areas on our 
ranges, and this lead can migrate in certain types of soil. The first 
of this new ammunition is the 5.56 mm used in the M-16 family of rifles 
and the Squad Automatic Weapon. The formal Engineering Change Proposal 
was approved in March 2000, and the Army plans to produce 50 million 
rounds in this fiscal year. This Green Ammunition has enabled the 
National Guard units at MMR to resume the individual marksmanship 
training that is a key element of their readiness posture.
    Another significant Range XXI effort is the ongoing Air Emissions 
Management Program. The objective of this program is to identify the 
true environmental impacts of smoke, pyrotechnics, and high explosives 
during both training and combat operations. The Army Environmental 
Center, in cooperation with the Center for Health Promotion and 
Preventive Medicine, is collecting this essential data.
    The Army will be performing a number of regional studies to assess 
the environmental conditions of a number of its ranges to begin to 
understand the degree of contamination, if any, from its live-fire 
training activities. It is also evaluating the adequacy of the 
available data and scientific knowledge of explosives compounds to 
guide future Research, Development, Test, and Evaluation (RDT&E) and 
data gathering efforts. Other initiatives include designing small arms 
ranges to minimize erosion, employing shock absorbing concrete to 
provide reusable and safe backstops, and utilizing dust control 
technologies on tank trails and helicopter hover pads to reduce turbine 
engine maintenance costs.
    The Army's Research, Development, Test, and Evaluation (RDT&E) 
program is addressing detection and remediation of UXO, the fate and 
effects of explosives, and identification of less toxic replacements 
for explosives.
    The detection and remediation of UXO is one of the Army's most 
pressing environmental cleanup problems. The UXO characterization and 
remediation activities conducted at Army sites using currently 
available technology is extremely expensive and often yields 
unsatisfactory results, due mainly to the inability to discriminate 
between UXO and non-hazardous items. Field experience indicates that 
the overwhelming majority of objects excavated in the course of a UXO 
remediation are found to be non-hazardous items. Advanced technology 
offers the potential to significantly reduce the Department's liability 
and safely and effectively cleanup land so it may be safely used for 
other activities.
    The principal goal of the UXO remediation technology development 
effort is to produce more effective and efficient processes and 
procedures for reliable and cost effective environmental remediation. 
These technologies are currently not available in the commercial 
sector. Although almost all UXO remediation is done by contract to the 
commercial sector, that commercial sector does not have the resources 
required to develop the sophisticated technology needed to effectively 
remediate sites containing UXO. Without Army and DOD-wide investments, 
Army will not see significant advances.
    MMR has afforded the Army a unique opportunity to analyze our past 
practices and to understand what needs to be done differently in the 
future. In order to maintain effective sustainable military operations 
and training, we must have community acceptance and support for 
military activities, including those military activities that affect 
public health and the environment. Environmental problems on our 
installations are problems for the entire surrounding community. 
Information on the conditions at our installations is readily available 
to the public and many of these people are technical experts and many 
wish to use this information to support anti-military objectives.
    MMR had to change to address earlier community concerns. They began 
involving the entire community, not just the vocal critics, in 
decision-making at the earliest possible moment. All technical and 
training programs integrated a community outreach program component. 
They came to realize that the best technical solution might not always 
be the best community solution. They saw that additional staff with 
training in mediation, relationship-building, and outrage management 
was essential, and that information dominance was essential. However, a 
disturbing aspect of this collaboration is the expectation on the part 
of local citizens that they should have veto authority of individual 
training events or even tasks. This expectation is without sound basis 
in either environmental risk management or military training doctrine.
    how congress can help the army with the range encroachment issue
Support and Resource--The Implementation of the Army's Sustainable 
        Range Management Program.
    SRM is the foundation for sustaining live training and the 
environment on our ranges. As we have in the past, we will continue to 
improve range operations, range modernization, state of the art land 
management, research on munitions effects and UXO management, and 
public outreach. Although final funding levels have not yet been 
established, we ask Congress to support this important program.
Support and Foster Cooperation Among Regulators and the Military in 
        Ways That Emphasize the Need to Balance Military Readiness 
        Concerns and Environmental Regulation.
    The Army believes that Congress should continue to recognize that 
Army readiness is a positive societal good and a legal mandate. Defense 
of our nation is an important requirement that benefits all citizens. I 
believe there are ways to balance the needs of the military with the 
needs of the environment. Just as our Nation needs a well-trained 
military force, it also needs a healthy environment. In light of the 
Secretary's current strategic review, it would be premature to discuss 
specific proposals, but I look forward to working with other Federal 
agencies and Congress.
                                closing
    Mr. Chairman and members of the committee: Thank you for affording 
me the opportunity to testify before you today concerning an issue of 
great importance to the Army's future.

    Senator Inhofe. Thank you very much, General.
    General Hanlon.

  STATEMENT OF MAJ. GEN. EDWARD HANLON, JR., USMC, COMMANDING 
              GENERAL, CAMP PENDLETON, CALIFORNIA

    General Hanlon. Thank you very much, Mr. Chairman, members 
of the committee. Senator Kennedy, it is good seeing you again, 
sir, and I am delighted to be here today to be a spokesman for 
the Marine Corps. Let me also point out that I have a couple of 
my colleagues here with me today. I would like to introduce 
Brig. Gen. Gordon Nash, who is Director of Operations Division, 
Headquarters Marine Corps, a former division commander, sir; 
and also Brig. Gen. (Select) Mike Lehnert, who is Director of 
Facilities, and also our expert on ranges and things of that 
sort.
    I should point out to you, sir, that I am not stationed in 
the Washington, DC area. In fact, what makes me perhaps a 
little unique is that they brought me in from 2,500 miles away 
to come here and meet with you today. I am privileged to 
command Marine Corps Base Camp Pendleton, California, which we 
like to think is our premier amphibious training base on the 
West Coast. While I would be more than happy and can answer any 
questions about Camp Pendleton or our western bases, I will do 
my best today, Mr. Chairman, to answer any questions you may 
have about any of our bases and stations around the world in 
the Marine Corps.
    It has been mentioned by a couple of my colleagues already, 
but I would just like to emphasize how important the issue of 
training is. As both my Navy and Army counterparts have said, 
it is a very underpinning, the very foundation of what we are 
about as marines. We have to be able to train. We believe very 
strongly that the training that we do must duplicate the 
complexity of the modern battlefield, whether that battlefield 
might be high-intensity conflict, or the other end of the 
spectrum in humanitarian operations. We must put our marines 
through the same kind of training environment that they would 
see in the real world.
    The Marine Corps is our Nation's force in readiness, ready 
to go at a moment's notice. We do not have a lot of time to get 
ready when a crisis develops. We are built around what we refer 
to as the Marine Air-Ground Task Force, the MAGTF, and 
consequently we train at sea, we train from the sea, we train 
on land, and we train in the air. We use our integrated 
combined arms as part of the way we train and fight. Our 
training is continuous.
    In fact, at Camp Pendleton, Mr. Chairman, I will tell you 
we are training out there about 360 days a year, not just 
marine units, but we also have Army Guard, Air Guard, Navy 
units that train there as well. In the almost 3 years that I 
have been privileged to command at Camp Pendleton, it has 
become more and more difficult for us to duplicate and 
replicate the stresses of the battlefield that I referred to.
    The reason for that is the challenge we refer to today as 
encroachment. Encroachment which we can discuss during the 
course of the hearing today, sir, comes in many forms. But it 
is our belief that it is really the widespread urbanization 
which has had the impact, and which is the main cause for 
concern here at Camp Pendleton and many of the other bases. It 
is also the added weight of well-intentioned laws and 
regulations which Senator Akaka referred to when he mentioned 
the unintended consequences.
    The fact is, many of these laws were passed for all the 
right reasons, but unfortunately they have become for various 
reasons a burden to us in our ability to do our Title 10 
responsibilities in terms of training marines. Addressing these 
unintended consequences is one of the main reasons I am here 
today, sir. We can discuss this in more detail.
    My Army colleague mentioned the Endangered Species Act. 
What has happened from that act is that, of course, a number of 
court decisions have been made, and regulations as a result of 
those court decisions have provided some pretty substantial 
obstacles to guys like me responsible for training marines.
    But there are other issues out there as well, sir. You 
referred to them as the frequency allocation issue, which I 
know you are going to have some hearings on later, air-space 
issues, noise concerns, and we can talk about those today if 
you like, but I am here today to really ask for your 
assistance.
    Senator Kennedy, in your statement you mentioned in the 
case of Massachusetts, the need for partnership and to be able 
to work with the local communities. I want to assure all of you 
that we do that. We do work very hard at Camp Pendleton, not 
only working with our local governments and agencies, we work 
with the local regulatory offices, and we work with the state 
of California. In fact, we have very good initiatives underway 
right now with Sacramento. So I want you to know we are doing 
that. But I really believe that what we have come to is a point 
where Congress, of course, which passed all of these laws such 
as the Endangered Species Act and many others, for all the 
right reasons; you have also given us our Title 10 
responsibilities to train the force. After 3 years of trying to 
work this at my level at Camp Pendleton, I have come to the 
personal conclusion we have come to the point where I think we 
simply need Congress in their wisdom to take a look at these 
laws that have been passed and see if there is not a way that 
we can find some way of clarifying them, and find some way that 
we would be better able to perform our Title 10 
responsibilities.
    It has been mentioned by my colleagues the fact that we are 
very proud of the way we take care of our land, and I really 
believe we do it as well as anybody. I would invite anybody to 
come to Camp Pendleton to see how we take care of our flora and 
fauna and all the other resources the Nation has given us. We 
are very proud of that, and we do a very superb job in 
maintaining what you have given us.
    I am not here in any way to try to avoid or wiggle out of 
compliance with laws. That is not what this is all about. What 
this is all about from my perspective is to find a way to be 
able to find some clarification in some of these laws so that 
we will be better able to do our mission. We need your help to 
do that, Mr. Chairman.
    I go back to my opening statement. What this is all about 
is our need to be able to train our marines and our sailors and 
our soldiers and our airmen as they would some day have to 
fight. We need to be able to duplicate or replicate the 
stresses they would have on the modern battlefield.
    Like my Army colleague, I agree with what he said, I 
believe a balance is possible. I believe there is a way that 
reasonable men and women can find a way to make these 
environmental laws and their Title 10 responsibilities work 
together in such a way that we can meet all of our obligations.
    Sir, that is all I have as far as an opening statement is 
concerned. I would be more than happy to answer any questions 
you may have.
    [The prepared statement of Major General Hanlon follows:]
        Prepared Statement by Maj. Gen. Edward Hanlon, Jr., USMC
                              introduction
    Chairman Inhofe, Senator Akaka, and distinguished members of the 
committee, it is my privilege to report on the effect encroachment is 
having on the readiness of your Marine Corps. On behalf of the Marine 
Corps, I want to thank the committee for its continued support. Your 
efforts reveal not only a commitment to ensuring the common defense, 
but also a genuine concern for the welfare of our marines and their 
families.
    The tried and tested framework of the Marine Corps for 50 years has 
been the Marine Air Ground Task Force (MAGTF). The MAGTF is a flexible 
and mobile integration of air and ground forces, with supporting 
logistics and state-of-the-art command and control that has a proven 
rapid response capability. Its closely integrated elements, in 
partnership with the Navy, achieve the potent and battle-proven concept 
of Combined Arms Operations. It is how we must train; how we will go to 
war.
    The MAGTF trains and deploys as a part of a Navy-Marine Corps team, 
with the Amphibious Ready and Carrier Battle Groups. The elements of 
these forward deployed naval forces need realistic and challenging 
training to effectively function as an integrated and cohesive team. 
MAGTF training must occur prior to deployment to be effective. Your 
marines and sailors must be ready for employment across the spectrum of 
conflict when they deploy.
    Your marines' success on the battlefield depends on having assured 
access to training ranges and installations on the land, sea, air and 
the communications spectrums. However, our ability to train effectively 
is being slowly eroded by encroachment on many fronts. Urbanization, 
increasing environmental restrictions; competition with civilian 
demands for airspace, land, sea space, and radio frequencies threaten 
the long-term, sustained use of Marine Corps bases and ranges. 
Encroachment is a serious and growing challenge. Solutions are 
possible--we can achieve balance between military readiness, 
encroachment pressures, and stewardship responsibilities.
                           issues and trends
    Encroachment on our installations comes in many forms, but 
generally falls within three categories: environmental regulation, 
community complaints about noise from military activities, and attempts 
by civilian authorities to use air, land, sea and the communication 
spectrum dedicated to military activities. In short, the root cause of 
encroachment is increasing population and urbanization pressures around 
our bases, stations, and ranges.
    While encroachment inexorably shrinks our training ranges, the 
military is faced with the need to introduce and train with new weapons 
systems possessing increased stand-off, survivability, and lethality 
capabilities. The training demand on our bases is already high, because 
there are fewer training facilities than in the past, partly due to 
base closures and realignments around the Nation and overseas. Our 
bases and their tenant forces have experienced both successes and 
failures in managing encroachment. We'd like to share a few of those 
with you.
Endangered Species
    Military lands provide excellent habitat for over 300 federally 
listed threatened or endangered species that must be protected under 
the Endangered Species Act (ESA). The Department of Defense is the 
third largest Federal landholder, yet is by far the holder of the 
greatest known biodiversity on a per acre basis of all Federal 
agencies. Many of our installations have become the only large 
undeveloped areas remaining in urban areas where private development 
continues unabated. The lands remain undeveloped in order to conduct 
realistic training to assure readiness. The undeveloped areas on our 
installations support so many endangered species because we are very 
attentive land managers stemming from the Marine Corps' decades-long 
recognition that we must be good stewards of our training lands, to 
ensure they are available to train future generations of marines. Our 
stewardship commitment predates the Endangered Species Act. We take 
pride in our care for these resources and, in partnership with the U.S. 
Fish and Wildlife Service, have devised means to protect them while 
meeting our readiness requirements.
    Marine Corps Base (MCB) Camp Lejeune, in North Carolina, has met 
our training needs while protecting the nine endangered species on the 
base; including two species of sea turtles and the red-cockaded 
woodpecker. During the May through October sea turtle nesting season, 
eggs are removed from a one-mile stretch of Onslow Beach daily and 
placed in an incubator. The hatched turtles are later released. This 
protects these endangered species while attempting to limit the 
disruption to expeditionary amphibious operations. MCB Camp Lejeune 
also supports the only increasing coastal population of the red-
cockaded woodpecker. Initially about 10 percent of the base had 
training restrictions designed to protect this species during its April 
though September nesting season. We managed the forests to improve the 
woodpecker's habitat, dispersing nesting locations away from primary 
maneuver areas. Now, only about 1 percent of the base has training 
restrictions due to the red-cockaded woodpecker. In the last 3 years, 
the species population increased from 35 nesting clusters to 53, an 
increase unmatched by any other land manager in eastern North Carolina. 
We are successful because of the willingness of the U.S. Fish and 
Wildlife Service, state of North Carolina, academia, and environmental 
advocacy groups to work in partnership with us on the management of the 
endangered species at MCB Camp Lejeune.
    Marine Corps Base Camp Pendleton, California's populations of 
endangered species increased from 10 in 1994 to 17 today. Last year, 
approximately 70,000 acres of Camp Pendleton's 125,000 acres were 
proposed as critical habitat under the Endangered Species Act. To a 
significant degree, the gnatcatcher, fairy shrimp and arroyo toad 
critical habitat proposals overlapped, threatening to blanket Camp 
Pendleton with critical habitat and associated training restrictions. 
Recognizing the potential impact to the combat readiness of units 
training and deploying from Camp Pendleton, the Marine Corps and the 
U.S. Fish and Wildlife Service worked together in an effort to resolve 
the situation. Ultimately the Base was excluded from critical habitat 
designation for most of the species. The Fish and Wildlife Service 
determined that the benefits of exclusion outweighed the benefits of 
designation, and also noted that we are currently preparing an 
Integrated Natural Resource Management Plan, as required under the 1997 
Sikes Act.
    Marine Corps Air Station (MCAS) Miramar, California, supports ten 
endangered species. The U.S. Fish and Wildlife Service, in response to 
court orders, proposed designating critical habitat for two species on 
about 65 percent of the station's area--including the runways and 
supporting aviation facilities. Clearly, such designation would have 
had strong readiness implications. We developed an Integrated Natural 
Resources Management Plan that established a framework to protect and 
preserve the station's endangered species, guaranteed the plan would be 
implemented, and defined measures to judge the plan's effectiveness. 
Most importantly, the plan made military readiness activities and 
endangered species protection mutually compatible. In their final rule, 
the U.S. Fish and Wildlife Service determined that lands on MCAS 
Miramar are not critical habitat for these species.
    The Service's decision not to designate Camp Pendleton and Miramar 
lands as critical habitat is the subject of litigation brought against 
the Fish and Wildlife Service by the Natural Resources Defense Council 
(NRDC), and by a building industry association. The NRDC lawsuit 
demands that Miramar and Camp Pendleton lands be designated as critical 
habitat. If the plaintiffs prevail, the Fish and Wildlife Service may 
be compelled to designate critical habitat at MCAS Miramar and MCB Camp 
Pendleton even though our plans meet the need to protect endangered and 
threatened species.
Air Quality
    Clean Air Act (CAA) visibility or nuisance-based ``opacity'' 
regulations can create challenges for the military during training 
operations that generate dust (from vehicular maneuvers) or smoke (from 
fog oil, smoke, or other obscurants) and temporarily impair visibility. 
For example, previous regulations in California and local air quality 
districts severely restricted and generally prohibited this necessary 
military training. The Marine Corps and the other military services 
overcame this issue by obtaining a statutory exemption under California 
law that allows the use of obscurants for training at military ranges 
in California.
    The General Conformity Rule under the Federal Clean Air Act (CAA) 
also has significant potential to impact the basing of new weapons 
systems, new training activities, or significant changes in existing 
activities, at military ranges located in CAA nonattainment areas. The 
statute and the rule preclude any Federal action or activity in such 
areas that do not ``conform'' to the State Implementation Plan (SIP) 
for the area. In these air quality areas, if the emissions from a new 
activity or significant change in current activities exceed the 
specified regulatory thresholds, the entire increase must be fully 
``offset'' or the proposed action must be changed to reduce emissions. 
If the increase cannot be fully offset by reductions in emissions 
elsewhere at the installation, emission reduction credits, or the 
state's agreement to revise its SIP emissions budget to accommodate the 
increase, the action is prohibited by the CAA and cannot proceed. In 
southern California, the emission credit market is extremely limited 
and competitive.
Urbanization
    Most encroachment issues result from population growth and 
urbanization. Urban sprawl is up against our installations and training 
areas, which were once remotely located. Methods for mitigating noise 
or other factors required by environmental regulations often deny the 
marines realistic training.
    Beaufort County is the fastest growing county in South Carolina and 
one of the fastest growing in the Nation. MCAS Beaufort was annexed by 
the city of Beaufort. The action allows the city to exert influence on 
land use guidelines and urban growth on land surrounding the air 
station. The city appears intent on opening hundreds of acres of 
farmland around the air station for urban growth, which will increase 
the number of noise complaints regarding air station activities. Noise 
impacts from training are already an issue with the surrounding 
communities.
    Marine Corps Base Quantico's border is facing encroachment due to a 
Western Transportation Corridor (WTC) Study, the purpose of which is to 
solve transportation needs in response to rapid urban growth. This 
proposed WTC in Stafford County, Virginia is another example of 
surrounding urban sprawl impacting an installation.
Air Space
    Increased growth across the Nation has been followed by a 
significant rise in civilian air traffic. Many of our bases and 
training areas are in the direct path of flight corridors between large 
urban centers. We have four major bases and air stations located 
directly along the eastern corridor and five in southern California are 
in the approaches to Los Angeles International Airport, one of the 
busiest airspaces in the world.
    Special Use Airspace (SUA) is a dimension required for effective 
training. It provides access to the ranges, segregation from civil 
aircraft operations, and maneuvering space for performing various 
ordnance delivery tactics. An air-to-ground range cannot exist without 
SUA. Creation of an additional SUA associated with the air-to-ground 
target ranges BT-9/11 in Pamlico Sound, North Carolina is required to 
achieve realistic training for Marine Corps aircraft. This additional 
airspace includes the Core and Mattamuskeet Military Operating Areas 
(MOAs), which when combined with the existing restricted airspace over 
the target ranges will provide one of the best tactical training 
complexes on the east coast. A MOA does not prohibit civilian aircraft 
from operating within its boundaries. The desired result of a MOA is to 
provide a means by which military and nonparticipating civilian 
aircraft are allowed to coexist in airspace with as few constraints as 
practicable. Efforts to obtain this additional airspace have been 
pursued for more than 12 years. A recent modification to the Marine 
Corps' original proposal includes raising the floor of the MOAs from 
500 to 3,000 feet Above Ground Level (AGL) to lessen the impacts of 
noise on the areas below. Discussions are also continuing with the 
National Park Service in an attempt to address their concerns for 
maintaining the ``natural quiet'' on the nearby outer banks area of 
eastern North Carolina. Approval of this additional airspace is crucial 
to accommodate future training requirements, including deployment of 
standoff weapons.
Military Noise
    Another concern of our civilian neighbors, with the onslaught of 
urban growth, is the noise created by our weapons systems and 
equipment--primarily helicopters, jets and artillery. This noise is not 
viewed by all as the ``sound of freedom''. MCB Camp Lejeune has 
received noise complaints about tank gunnery activities in the Greater 
Sandy Run Area. Prior to construction of these ranges, units had to 
travel to other military installations at great expense to satisfy 
training standards and prepare for deployments. Now that these new 
ranges are operational, the surrounding community has placed great 
pressure on the Base to close them as a means to reduce noise 
complaints. A recent letter from the Onslow County Commissioners asked 
the Marine Corps to close the recently completed $6.5 million Combat 
Vehicle Crew Qualification Range. Camp Lejeune monitors noise levels at 
the active range and temporarily ceases live-fire training when noise 
levels at homes in the surrounding area exceeds acceptable levels. Two 
recently approved housing developments are currently under construction 
within 2,500 meters of two of the new Greater Sandy Run Area ranges, 
which will compound the noise complaint problem.
    Complaints as a result of noise from military aircraft operations 
are becoming increasingly more emotional and political. Airborne noise 
potentially impacts installations, training ranges, SUA, and low-level 
training routes. Communities surrounding military airfields are 
principally exposed to noise resulting from aircraft takeoff and 
landing. Our installations develop Compatible Use Zone studies to 
identify appropriate land uses for areas immediately surrounding the 
installation. We then provide these studies to the local land use 
planning authorities, and request that they consider them when 
developing zoning ordnances. This process is only effective when it 
receives the support of the local planning authorities. Absent 
appropriate zoning restrictions, buffer land acquisition is our sole 
remedy to legitimate noise complaints.
Unexploded Ordnance
    The application of environmental statutes to unexploded ordnance 
(UXO) and munitions on active ranges could impact our ability to train 
marines. Such statues are: the Comprehensive Environmental Response 
Compensation and Liability Act (CERCLA), the Resource Conservation and 
Recovery Act (RCRA), the Clean Water Act (CWA), and the Safe Drinking 
Water Act (SWDA). Their application could shut down or disrupt live-
fire training.
    Marine Corps Air Station Cherry Point, North Carolina, aviation 
units have increased their use of Bombing Target-9/11, in Pamlico 
Sound, to make up for the temporary loss of training available at 
Vieques. Those efforts have been met by government agency and local 
resistance. The Marine Corps and Navy are actively engaging the state 
regulators on these issues and believe we will develop a satisfactory 
solution.
Frequency Encroachment
    New improvements in telecommunications have placed pressure on the 
portions of the radio frequency electromagnetic spectrum used by the 
Marine Corps. This pressure is in the form of requests for portions of 
the spectrum for civilian activities and from interference to both 
civilian and military communications. This form of encroachment is 
tentatively scheduled to be briefed at another hearing, but you should 
know that it has the potential to adversely impact the command and 
control capabilities of our Operating Forces, bases, and installations.
                          impact on readiness
     Our bases are the platforms where we train our marines, and from 
which we launch our MAGTFs. We need the sea, land, and air and the 
flexibility to use them. We would like to take this opportunity to 
cover with you some of the training challenges your marines face on a 
daily basis as a result of encroachment.
    Fundamental to the success of Marine Corps operations are the 
concepts of expeditionary maneuver warfare and combined arms. The 
employment of naval surface fires, air, artillery, mortar, and direct 
fire weapons in conjunction with maneuver is essential to the 
effectiveness of the MAGTF. The most significant effect is the 
restriction on our MAGTFs, in partnership with the Navy, to train as a 
single, cohesive entity. They are forced to train piecemeal, separated 
by time and distance; often never ``tying it all together'' prior to 
deploying.
    No where is this more evident than at MCB Camp Lejeune following 
the 1999 restrictions on training on Vieques Island Puerto Rico--a 
vital training facility used to ensure the readiness of deploying 
Marine Expeditionary Units (MEUs) and their Amphibious Ready Groups 
(ARGs). Since the range facility was closed in 1999, the east coast 
ARG/MEUs have been unable to conduct a live-fire Supporting Arms 
Coordination Exercise due to the lack of live-fire naval surface fire 
support (NSFS). Without the Vieques training, the MEU loses the 
opportunity to coordinate live-fire NSFS, an important piece of the 
integration package between the Carrier Battle Group (CVBG), Amphibious 
Squadron, and MEU. The January 31, 2000 Presidential Directive limits 
training on Vieques to inert ordnance. The 22d MEU did train on Vieques 
in October 2000 with inert ordnance to include inert artillery and 
mortars but, it was not the same. Live-fire training is essential to 
maintaining the readiness of Navy and Marine Corps forces.
    Vieques is the only location on the east coast that can support 
live-fire training and maneuver on the scale necessary to maintain 
MAGTF combat readiness. MEUs have resorted to sending their NSFS 
personnel to train in Scotland with CVBGs enroute to the Mediterranean 
without the benefit of coordinating the training and application of 
fires with the rest of the ARG and MEU. As a result, ARGs and MEUs 
train in an environment that does not support combined arms operations 
prior to deployment.
    MCB Camp Lejeune is the only location available for East Coast 
Marine Corps units to conduct amphibious operations. Sensitive habitat 
for all nine endangered species occupies 5 percent of the base's 
training area. Though, at a glance, this appears to be insignificant, 
it is not the amount of area that is of concern, it is the locations. 
The beach is also sensitive habitat. During nesting season, units are 
restricted to administrative offloads and traversing narrow lanes that 
have been hand-cleared of turtle eggs. Once off the beach, the 
remaining forms of sensitive habitat are astride roads leading to 
training and maneuver areas, and live-fire ranges. This hinders the 
ability of units to maneuver their vehicles in a tactical and realistic 
fashion. Because of the artificialities and canalization created by 
these restrictions, the advantages gained by force-on-force or freeplay 
exercises are greatly degraded. The limits to unrestricted movement and 
freeplay result in an inability to properly develop the decision-making 
skills of leaders at all levels, most severely the junior leadership, 
the future leaders of your Corps. Additionally, live-fire attacks with 
air, artillery and mortars in support of maneuvering forces cannot be 
conducted aboard MCB Camp Lejeune. These training restrictions and 
hindrances on Vieques and Camp Lejeune prevent our East Coast MAGTFs 
from the opportunity conducing realistic, meaningful training in 
combined arms and amphibious operations prior to deployment.
    While simulation can be used to enhance combat performance, it 
cannot replicate or replace live-fire. Technology has yet to produce a 
mechanism to simulate the complex, end-to-end series of procedures 
associated with preparing and launching live weapons, then assessing 
the results in a training environment. Likewise, the handling and use 
of live ammunition, with the resultant psychological impact cannot be 
replicated by simulation. This holds true for the training of the 
individual marine as well as the entire MAGTF.
    Marine Corps Base Camp Pendleton is the Marine Corps' most complete 
amphibious training base. Yet the doctrinal landing of a Regimental 
Landing Team is not possible. Even Battalion Landing Team-sized 
landings are severely limited. Beach access is the major factor 
limiting these activities. Access to and across our beaches is key to 
the conduct of our Expeditionary Maneuver Warfare. MCB Camp Pendleton 
has approximately 17 miles of beach, yet there is only a little more 
than 1 mile of unrestricted access with usable exit points. Movement on 
the beaches and adjacent inland terrain is restricted due to endangered 
species concerns and the presence of a State Parks, Interstate 5, and 
the San Onofre Nuclear Generation Plant on our land. These restrictions 
have resulted in only three usable exit points off the beach. These 
exit points, which are under I-5 and the paralleling railway, 
completely prohibit any tactical movement off the beach and require 
units to abandon realistic training and exit the beach in an 
administrative, non-tactical fashion. During March 2000, the 13th 
Marine Expeditionary Unit, while conducting their Special Operations 
Capable Certification prior to deployment, was limited to only 500 
yards of Red Beach because it was breeding season for the California 
Least Tern. Units coming ashore on Landing Craft Air Cushion's (LCACs) 
administratively offloaded at the LCAC facility, before moving inland 
to continue the exercise. Logistical support employing helicopters with 
external loads was restricted to the administrative delivery of cargo 
seaward of I-5 and the railway, because of restrictions on overflying 
these two manmade features that traverse the entire length of Camp 
Pendleton's coastline.
    Inland training restrictions continue to apply pressure on 
commanders at all levels to come up with innovative, realistic training 
that complies with environmental limitations. Off-road vehicular 
movement is seasonally restricted in various areas because of either 
breeding and nesting seasons of endangered species or simply because 
the seasonal appearance of a vernal pool. Environmental restrictions 
against digging have limited the placement of artillery and mortar 
firing positions. The placement of these positions is based solely on 
environmental factors, which prohibits the training experience of 
marines learning how to position their units based on the tactical 
situation.
    San Clemente Island offers the west coast MEUs their only 
opportunity to coordinate naval gunfire, air, artillery, and mortars. 
It does not permit the coordination of fires with maneuver. Maneuver is 
limited because of the presence of the night lizard. This range is also 
home to an endangered population of the loggerhead shrike. During the 
bird's breeding season from February to July, our training is limited 
to 3 days a week. The use of live ordnance is restricted from May to 
November, because of the fire season. The use of inert ordnance is not 
practical, because the Marine Corps' inventory for artillery and 
mortars is limited.
    MAGTF Training Center at Twenty-Nine Palms is located in 
California's Mohave Desert. It has few encroachment concerns and is the 
only site marine units have to exercise the live-fire and maneuver 
capabilities of the entire MAGTF. Twenty-Nine Palms does not, however, 
provide for amphibious training. Camp Pendleton units are increasingly 
using Twenty-Nine Palms to avoid their Base's training restrictions. 
The increased competition between resident units, units training for 
the ten annual live-fire Combined Arms Exercises, and units from Camp 
Pendleton, puts training time and space at a premium. Deploying to 
train at Twenty-Nine Palms has its drawbacks. Firstly, it is expensive. 
11th Marine Regiment, from Camp Pendleton, saved over $100,000 by 
conducting their annual Fall Firing Exercise at Camp Pendleton and 
Twenty-Nine Palms rather than solely at Twenty-Nine Palms. The down 
side was that the exercise was greatly reduced in size to accommodate 
the restrictions at Camp Pendleton. Second, deploying to Twenty-Nine 
Palms increases deployment tempo for marines. Twenty-Nine Palms is not 
a panacea to the restrictions resident at Camp Pendleton.
    MCB Kaneohe Bay in Hawaii has its own encroachment challenges. The 
Army's Makua Range is the only live-fire range on Oahu capable of 
supporting company maneuver supported by mortars and attack 
helicopters. The range has been closed since September 1998, due to 
endangered species and archeological compliance issues. Without this 
range, marines must deploy to the Pohakuloa Training Area (PTA) on the 
big island of Hawaii. Though workable, this solution has drawbacks. 
Ground unit maneuver and close air support or indirect fire are 
possible, but cannot be done simultaneously. It is also not cost 
effective to deploy marines to the PTA and this option creates an 
additional deployment tempo burden. The Marine Corps wholeheartedly 
supports the Army's environmental analysis efforts to reopen the range.
    MCAS Yuma in Arizona is the home of our Aviation Weapons Tactics 
School, which uses air-to-ground ranges, such as the Chocolate 
Mountains aerial gunnery range to the West and the Goldwater air-to-
ground range to the East. The Goldwater Range provides habitat for the 
Sonoran Pronghorn Antelope. The Marine Corps completed an Environmental 
Impact Statement in 1997 evaluating our aviation impacts on this and 
other sensitive biological resources. A recent court decision requires 
the Marine Corps to prepare a revised cumulative impacts analysis of 
military air operation impacts on the species. The same court decision 
requires the Fish and Wildlife Service to reevaluate the biological 
opinion, which allows aviation operations that may affect the species. 
This reevaluation may result in further restrictions in air operations. 
Our current practice is to ``wave off'' flights when the animals are in 
the impact area. The target areas in the Chocolate Mountains aerial 
gunnery range are surrounded by critical habitat for turtles and cannot 
be relocated due to noise concerns from adjacent communities. The 
continuous impacts from encroachment have reduced the Chocolate 
Mountains air-to-ground impact zone, which was once larger than MCB 
Camp Pendleton, to an area less than one-tenth its original size. The 
training value of these ranges is reduced, because target acquisition 
training becomes less challenging as the acquisition area becomes 
smaller and the targets fewer.
    These encroachment limitations debilitate our MAGTF training. We 
are training a generation of marines who will have less experience in 
the intricacies of combat operations. If encroachment continues, many 
of today's junior leaders may initially face the full challenges of 
combat not during training, but during conflict.
    We have shown you some of the successes and failures your marines 
experience on a daily basis while facing these challenging issues. We 
would now like to propose some possible solutions, which could result 
in a balanced approach to meeting the needs of the Marine Corps, the 
community, and the environment.
                               strategies
    Just as encroachment takes multiple forms, the solutions to 
encroachment management are many. The Marine Corps encroachment 
management strategy is three fold: public outreach and engagement, 
legislative clarification, and dedication of surrounding undeveloped 
land as permanent natural areas.
    It is in our best interests to reach outside the fence and actively 
engage our neighbors, educate them on our mission and operations in 
support of readiness, work to understand their concerns, and develop 
working relationships built on respect to limit or prevent encroachment 
pressures. We are engaging encroachment issues at all levels of 
government. Some encroachment issues affect more than one installation. 
Cross service coordination is often appropriate for resolving issues. 
One example of engagement at the regional level is the efforts to 
initiate constructive dialog with state governments such as 
California's Defense Retention and Conversion Council. The Marine Corps 
can articulate recommendations for the state to reduce encroachments, 
while improving the viability of the installations, ranges, and 
training areas.
    Recently, we met with members of the Endangered Species Coalition, 
an umbrella organization consisting of environmental advocacy groups 
concerned about endangered species. Many of the coalition's members 
have sued the Marine Corps over environmental issues. However, they 
understand that for many ecosystems, military lands are the only 
undeveloped lands left. Though they don't always agree with our 
activities due to their endangered species concerns, they are impressed 
with our stewardship record. They are interested in forming a strategic 
alliance with us to help keep undeveloped lands in their natural state. 
Achieving this mutually beneficial goal will limit additional 
urbanization around our installations. It also builds support for our 
military land use and stewardship efforts, while reducing friction and 
litigation.
    This Congress will re-evaluate many laws governing environmental 
protection. The Marine Corps is not asking for a rollback of these 
laws. The Marine Corps' commitment to protecting our Nation also 
extends to protecting our natural resources. We have been innovative in 
meeting our compliance requirements, while meeting our readiness needs. 
We can, and are doing much to protect the environment. However, we 
cannot be expected to shoulder a disproportionate share of 
environmental protection and still meet our readiness requirements. We 
ask that you consider the unique nature of military activities when 
developing or reauthorizing these laws. Providing acknowledgement of 
the need to consider national security issues in development and 
implementation of regulations will also benefit the regulatory 
community by allowing them the flexibility to weigh the value of good 
stewardship offered through our land management practices in their 
enforcement of laws and regulations.
    The Marine Corps needs the land around its installations to remain 
undeveloped. Our bases and ranges were largely acquired during the 
1940s and 1950s. At that time, they were ``sized'' to fit the weapons 
systems of the day. They were also out in the middle of nowhere. The 
footprints of our weapons systems have become bigger, and the far-off 
cities have become next-door neighbors. Our installation boundaries, 
though, have remained the same, and in some cases have been reduced. 
The Marine Corps will need to acquire additional land around some of 
its installations and ranges to protect them from additional 
urbanization pressures.
                               conclusion
    Today's world situation, combined with our mandate to be a force in 
readiness, highlights the need for a properly trained Marine Corps. The 
Corps will continue to focus its efforts on the strength of its Marine 
Air Ground Task Forces. However, to meet tomorrow's challenges and 
maintain your expeditionary force in readiness, will require the 
ability to train marines during peace the way we will fight in war.
    We have spoken today about the need for fundamental recognition of 
our unique mission and military land use needs, our stewardship, our 
contributions to our local regions, and our vital role in the National 
defense. The Marine Corps takes great pride in its care of the 
environment and natural resources in its trust. We have achieved a fine 
record of stewardship. In light of that record, the Marine Corps needs 
support of its unique requirements considered by all levels of 
government when developing and implementing Federal statutes, as well 
as local, state, and Federal land use and air space policies and 
practices. In recognizing those needs, I am confident that we can 
achieve and maintain the appropriate balance between military readiness 
and competing demands for scarce resources.

    Senator Inhofe. Thank you. General Buchanan.

STATEMENT OF MAJ. GEN. WALTER E. L. BUCHANAN III, USAF, DEPUTY 
          CHIEF OF STAFF FOR AIR AND SPACE OPERATIONS

    General Buchanan. Thank you, Mr. Chairman. Thank you for 
the opportunity to talk to you about Air Force ranges and some 
of the challenges we face in the future to properly manage 
them. Maintaining continued access to our ranges and air space 
is critical to the Air Force and DOD readiness. We view these 
areas as national assets. They allow the Air Force to test new 
equipment, develop tactics and, most importantly for us, to 
train the readiness of our air crews.
    Air Force ranges are also used to accommodate important 
civilian aeronautical testing for public use and public 
protection. The current Air Force ranges we have are successors 
to those that were first put in place in the Army Air Corps of 
World War II. They have evolved over time to meet the changing 
test and training requirements.
    The increased lethality of today's modern combat 
environment has also required that we have evolved the way that 
we train to be sure that our young men and women are trained to 
go into combat. Modern ranges of today include electronic 
warfare, arrays of tracking and recording equipment, and 
multiple target sets. The Air Force currently owns and/or 
operates approximately 35 ranges in the continental United 
States and Alaska.
    We see the training ranges of the future will still exist 
in three basic formats, smaller primary training ranges that 
provide a chance for local units to hone their skills on a day-
by-day basis, intermediate-sized ranges such as the Air 
National Guard's combat readiness training centers, which allow 
for more complex skill training, and large ranges like the 
Nevada Test and Training Range which provides a complex 
environment of threats, targets, and instrumentation needed for 
large force exercises to men and women for the complex combat 
environment we face in the future.
    Ranges will continue to be needed for training purposes to 
provide the large air and land areas necessary for advanced 
live weapons evaluations. Test and space ranges also 
accommodate a substantial number of civilian aviation and space 
activities. Large training ranges dedicated to large force 
exercises will routinely include three types of participants. 
We will have the real operations actually on the scene, and in 
the air we will have operations participants who are linked by 
simulators and then, too, we will have simulator players.
    At the same time, though, at the other end of the scale, 
the primary training ranges will continue to serve the nearby 
flying organizations. However, due to size and air space 
limitations, we will find that some of the evolving long range 
weapons tactics will have to be simulated because we will be 
unable to use them on the smaller ranges. However, these 
smaller training ranges will still be important and will 
require modifications for basic weapons and modern warfare 
training in the future.
    Continued access to ranges will remain critical to the Air 
Force. In 1994, we learned a very valuable lesson when we had 
both a failed range project in Idaho, and at the same time, we 
had a successful air space proposal in Alaska. In light of 
these events, we have reorganized our staff to consolidate 
range and air space management under an operations lead. In the 
past, we have been fragmented in our approach to how we managed 
ranges and training.
    What we found, was that we needed to go ahead and focus 
these with an operations lead; with a mission requirement first 
to meet the legal requirements that have become more 
complicated over time. Our goal both then and today is to meet 
the military needs first while addressing public concerns and 
Federal, tribal, state and other agency issues as well.
    We also recognize the importance of establishing and 
maintaining permanent relationships with the stakeholders. In 
general, we have found most of these stakeholders very 
supportive of the Air Force and our mission, as long as we have 
communicated with them. Sustainable access to ranges benefits 
many folks. Our ranges contain significant cultural and natural 
areas where they are used for grazing or agriculture, to allow 
hunting, or forms of outdoor recreation.
    Lastly, I would like to discuss five areas of importance to 
the Air Force and all of DOD, unexploded ordnance, air quality, 
noise, the national air space redesign, and endangered species.
    Meeting the challenges posed by these issues remains key to 
meeting the military need and abiding by the myriad laws 
regulating ranges and air spaces today. Concerning unexploded 
ordnance, the Air Force has had a program in place since the 
1940s to clear unexploded ordnance from our ranges. Existing 
Air Force policy requires that active air-to-ground ranges be 
cleared on a quarterly, annual, and 5-year basis at varying 
distances from each target.
    We have recently taken another hard look at our unexploded 
ordnance practices to make sure we manage our ranges over the 
life-cycle of the entire range in terms of what we can do today 
to possibly avoid costs in the future. Our ultimate goal is to 
manage our ranges effectively and efficiently throughout the 
life-cycle process and allow for sustainable operation that 
focuses on mission requirement, and at the same time, safe and 
effective unexploded ordnance removal, residue treatment, and 
long term environmental stewardship.
    Air quality regulations are another challenge. Many of our 
largest and most important installations are located in areas 
that are experiencing rapid growth, and the attendant pressures 
resulting from air quality standards. Several of our bases are 
in nonattainment areas or areas destined to become 
nonattainment. This impacts basing and beddown decisions. If 
the beddown action is found not to conform to the state 
implementation plan for the clean air compliance, the Air Force 
must obtain air quality credits, reduce emissions at another 
base, or counter the impact, or not be allowed to bed down at 
that location, otherwise the proposed action cannot take place.
    At the same time, we are working very hard to lower our 
emissions at all of our installations. We are working with 
state regulations and local communities to ensure that we have 
the flexibility to base aircraft at installations where we have 
already made investments in infrastructure not only in the 
installation itself, but in the adjacent ranges that are used 
by the installation aircraft.
    Noise is one of the most obvious byproducts of readiness 
and aircraft and has long been a dilemma at air bases. In 
addition, though, we have found an increased public concern 
over low-level routes, military operating areas, and the ranges 
themselves. Today, noise is the Air Force's number one concern 
when we try to modify or establish new air space. In some cases 
we can accommodate public noise concerns with no loss to the 
effectiveness of our training. When apprised of a noise-
sensitive area, we routinely chart it and avoid it if possible.
    In a few instances, we have made allowances for short 
periods in national park recreation areas at times when the 
park experiences its peak in number of visitors. When we cannot 
deconflict schedules, we communicate to the users and managers 
alike to let them know what we are doing, why we are flying the 
way we are, and when. We have found that altering their 
expectations and increasing their knowledge of our requirement 
has been helpful.
    In addition, the services are working together to formulate 
a plan that will eventually lead to a unified DOD noise program 
to address the full range of noise issues, not only from 
aircraft, but also from our military operations, testing, and 
training.
    Despite decreases in force structure and flying hours, the 
DOD and the Air Force still have a need for air space. In 1998, 
the FAA initiated a national airspace structure redesign with 
goals to maintain safety, decrease delays, and increase 
flexibility, predictability, and user access. A part of user 
access is the requirement for special use air space for 
military training. This is necessary for us to conduct critical 
testing of equipment, and training of our air crews.
    In the future, as we assist the FAA in the National air 
space redesign, the key to successful establishment and 
modification of the existing air space will require the 
application of the four following parameters.
    Volume. It will still require sufficient operational test 
and training air space to accomplish our objectives. New and 
more lethal weapons are requiring larger pieces of air space to 
effectively deploy and test them.
    Proximity, distance to the air fields themselves, time. We 
must have the ability to get on the ranges at the appropriate 
times and the ability to remain on them sufficiently to conduct 
our training.
    Then, specific attributes, the ability to accomplish 
specific air-land-sea events that are needed for the testing 
required.
    The first three are self-explanatory. The term, attributes, 
refers to the quality that differentiates one piece of air 
space from another. For instance, there might be a range over 
water, one over a desert, or over mountainous terrain.
    The key to maintaining our access to special use air space 
is to work closely with the FAA. The senior members of the DOD 
Policy Board on Federal Aviation are currently developing a 
plan for effective joint FAA-DOD interaction in this effort.
    Currently, 79 federally listed threatened and endangered 
species are found on approximately 9 million acres of Air Force 
lands and waters. They include various species of antelopes, 
bats, mice, reptiles, amphibians, and plants. In some cases our 
installations and ranges are the only large, undeveloped, and 
relatively undisturbed areas remaining in the growing urban 
areas.
    This often leaves Air Force lands as the last refuge in the 
region that can support endangered species. Biological opinions 
resulting from required Endangered Species Act assessments have 
resulted in range and air space restrictions mainly associated 
with aircraft noise and munitions use. We operate under 
altitude restrictions due to noise and its possible effects on 
endangered species in Arizona and New Mexico.
    The Barry M. Goldwater Air Force Range in Arizona is home 
to the last 100 or so of the Sonoran pronghorn antelope in the 
United States. We fly about 70,000 sorties a year there. We 
have seven targets in the area that are surveyed daily before 
we can fly on these sorties. If we find any antelope present, 
we do not drop or strafe the target that particular day.
    The key to addressing endangered species is adequate 
science and good communication. The Air Force will continue to 
monitor activities even outside our fence line and engage our 
local communities before issues begin to impact Air Force 
ranges. We have found that where we have good relationships 
with regulators, we have been able to develop cooperative 
strategies that allow the Air Force to accomplish its mission 
while at the same time providing necessary stewardship of this 
Nation's natural resources.
    In conclusion, I would like to reiterate that maintaining 
continued access to Air Force ranges and air spaces is vital to 
sustaining mission readiness. To date, the impacts of 
encroachment have resulted in minor impacts for our operations 
with work-arounds implemented to avoid significant readiness 
impacts. However, we expect to encounter increased challenges, 
not only with our current level of operations, but also with 
the beddowns of new weapons systems realignments in the coming 
years.
    We recognize the need to balance our test training and 
readiness requirements with responsible stewardship. We believe 
effective and early communication that is key. Partnerships we 
have with our sister services, civilian and Government 
agencies----
    Senator Inhofe. General, can I ask you to kind of wind up 
here?
    General Buchanan. Yes, sir, and we appreciate very, very 
much, the hearing today and your concerns, and we stand ready 
to answer any questions.
    [The prepared statement of Major General Buchanan follows:]
      Prepared Statement by Maj. Gen. Walter E. Buchanan III, USAF
    Mr. Chairman and members of the committee, thank you for the 
opportunity to speak to you about Air Force ranges and some of the 
challenges we face in the future to properly manage them.
    Maintaining continued access to our ranges and airspace is critical 
to readiness. These areas are national assets, which allow the Air 
Force to test new equipment, develop new tactics and train our 
aircrews. AF ranges also accommodate important civilian industry 
aeronautical testing, and provide for public use and natural and 
cultural resource protection.
                               background
    Current ranges are the successors of test and training ranges 
designed to support the Army Air Corps in World War II. Tactical 
fighters used decentralized ``backyard'' ranges (now called ``primary 
training ranges'') to practice the release of live and practice bombs. 
Such ranges usually were located within a 150 nautical mile (NM) radius 
of their home bases. Strategic bombers trained on ranges and simulated 
deliveries using radar bomb scoring sites thousands of miles away. 
These ranges were customized to fulfill the training requirements of 
individual aircraft types and various missions. Large-scale exercises 
were conducted on training and test ranges, usually in the west, which 
could accommodate such tactics. Today, these ranges include an 
extensive electronic warfare array, an instrumentation system for 
tracking and recording aircraft activities, and multiple target 
concentrations. The Eglin Range, FL; Nevada Test and Training Range, 
NV; Barry M. Goldwater Range, AZ; and the Utah Test and Training Range, 
UT, are our largest ranges.
                             present ranges
    Today, management of Air Force (AF) ranges is the responsibility of 
several AF commands. Air Combat Command (ACC) is generally responsible 
for the majority of combat training that occurs on our ranges. Other 
commands that manage ranges predominately for training include the Air 
National Guard (ANG), Air Force Reserve Command (AFRC), Pacific Air 
Forces (PACAF), Air Education and Training Command (AETC), and United 
States Air Forces Europe (USAFE). Air Force Material Command (AFMC) is 
responsible for ranges primarily tailored toward test activity and Air 
Force Space Command is responsible for the management of the East and 
West Launch Ranges. Currently, all commands and service components 
share ranges. For example, the AF operates 17 ranges on U.S. Army lands 
in the continental U.S. (CONUS) and Alaska.
                            present airspace
    The FAA manages the complex multi-use nature of the National 
Airspace System (NAS) to provide both safety and efficiency for civil 
and military users. Viewed in a two-dimensional perspective, military 
Special Use Airspace (SUA) appears to cover a large portion of the 
CONUS. Adding the third dimension (depth) shows that civilian air 
traffic uses the airspace above SUA even when it is active. But to gain 
a true perspective of the AF's use of the National Airspace System 
(NAS), the fourth dimension (time) must be considered. In other words, 
as our force structure has decreased, the time we use the NAS has also 
decreased.
                   ranges and airspace in the future
    Consolidation of units after base closures, more capable aircraft 
systems, long range precision weapons such as JDAM, JSOW, and AMRAAM 
and constantly changing tactics will continue to obligate the AF to 
modify and consolidate our ranges and SUA to allow our aircrews to be 
the most proficient possible.
    The training range of the future will still exist in three basic 
formats--smaller primary training ranges that provide a chance for 
local units to hone their skills on a day-to-day basis, intermediate 
size ranges such as the Air National Guard's Combat Readiness Training 
Centers which allow for more complex skill training in an increasingly 
instrumented environment, and large ranges which provide a complex 
environment of threats, targets, and instrumentation needed for large 
force exercises.
    Ranges will continue to be needed for test purposes providing the 
large air and land areas necessary for advanced and live weapons 
evaluations. Test and space ranges also accommodate a substantial 
number of civilian aviation and space activities. Large training 
ranges, dedicated to large force exercises will routinely include three 
types of participants--real operations on the scene, operations from 
participants linked by simulators, and simulated players. Primary 
Training Ranges will continue to serve nearby flying organizations. 
Some long-range weapons delivery tactics will be simulated. However, 
the Primary Training Range will still be important and will require 
modifications for basic weapons and electronic warfare training in the 
future.
                   range management in the air force
    In the coming years, our ability to modify ranges and airspace will 
be critical to maintaining AF readiness. However, the legal and 
procedural requirements are more and more complicated and time 
consuming and military needs can change quickly. In 1994, the Air Force 
was in the middle of an important range project that eventually failed 
and an equally important airspace project that was ultimately 
successful. General Ralston, the AF Deputy Chief of Staff for Plans and 
Operations at the time, reorganized his staff to consolidate 
operational range and airspace management policy and provide 
operational leadership in this important area. Although ranges and 
airspace are still managed by either individual units or the major 
commands, General Ralston set the vision for range and airspace 
management that we still follow today. Our goal is to meet the military 
need while addressing and resolving, to the extent possible, public 
concerns and Federal, tribal, state, and other agency issues. We have 
adopted a spirit and practice of flexibility, and a willingness to 
adapt when we can without compromising our operations. We also realize 
the importance of establishing and maintaining permanent relationships 
with stakeholders. Most of those stakeholders are very supportive of 
the AF and our mission. Sustainable access to ranges benefits many 
people. Our ranges contain significant cultural and natural areas, are 
used for grazing and agriculture, and allow hunting or other forms of 
outdoor recreation.
             challenges to sustainable ranges and airspace
    In this session, I intend to focus on five areas that stress our 
ability to maintain sustainable access to ranges and airspace. They are 
unexploded ordnance, air quality, noise, the NAS Redesign, and 
endangered species. These areas are generally referred to as 
encroachment issues. Encroachment on ranges and airspace is a serious 
and growing challenge to the Air Force, as well as the other services. 
Encroachment issues are complex and involve multiple Federal, state, 
tribal and local agencies, as well as Congress and the public. Meeting 
the challenges to readiness posed by these issues will be key to 
meeting the military need and abiding by the myriad of laws regulating 
ranges and airspace.
                       unexploded ordnance (uxo)
    UXO and the disposal of residue material (primarily scrap metal) on 
air to ground ranges is one area where we have taken a hard look at our 
practices and policies recently. UXO and range residue (used targets, 
inert ordnance, etc.) physically occupy only a very small part of any 
air to ground range, but its presence is an increasingly expensive 
problem. The costs associated with clearing closed ranges have led us 
to the conclusion that we need to plan and manage for the entire life-
cycle of a range.
    The AF first started clearing ordnance from active ranges in the 
late 1940s. Active range clearance not only provides for safe target 
area operations, but also provides airfield-recovery training for our 
Explosive Ordnance Disposal specialists. AF policy requires that active 
air to ground ranges be cleared on a quarterly, annual, and 5-year 
basis at varying distances from each target. We have reviewed our 
practices and found that we could make some changes that would still 
allow us to meet our military need and lessen the impacts and costs in 
the future. This, combined with our current scheduled UXO and residue 
removal program, will ensure long-term range sustainability and the 
safety of personnel on the range. Our ultimate goal is to manage our 
ranges effectively and efficiently throughout the life-cycle process 
that allows for sustainable operations, safe and effective UXO and 
residue treatment, and long term environmental stewardship. These 
policies are not without costs. One of our commands, Air Combat 
Command, is currently undertaking a project to remove the legacy of 
residue that has accumulated on some of our ranges. In fiscal year 
2000, the AF dedicated $4.8 million to this effort, removing residue at 
the rate of 1 million pounds per month. At current funding levels, it 
is estimated it will take approximately 4 years to remove known 
accumulated residue from ACC's primary training ranges alone. 
Remediating closed ranges and clearing active ranges will need to be a 
long and incremental process to be affordable under today's budgets. 
The same active range operations and maintenance budgets that fund 
targets and electronic warfare operations for our aircrews fund UXO and 
range residue removal. Anything more aggressive than a long-term 
program will significantly strain present readiness accounts.
                              air quality
    Many of our largest and most important installations are located in 
areas that are experiencing rapid growth and the attendant pressures 
resulting from air quality standards. A number of our bases are 
currently located in ``nonattainment'' areas, and more bases are in 
areas that surely are destined to become nonattainment areas. Air 
quality pressures generally affect operations at our installations more 
than ranges, and they potentially limit our basing options to support 
force realignment and weapon system beddowns. If the beddown action is 
found not to conform to the state implementation plan for Clean Air 
Compliance, the Air Force must either obtain air quality credits, or 
reduce other emissions at the base to counter balance the impact. 
Otherwise, the proposed action can not take place. We are working very 
hard to lower our emissions at our installations. We are working to 
ensure that environmental, safety, and health considerations--including 
air quality--are integral to requirements definition and the 
acquisition process. We are working with state regulators and local 
communities to ensure we have the flexibility to base aircraft at our 
installations which have huge investments in infrastructure not only on 
the installation itself, but also in the ranges used by installation 
aircraft.
                                 noise
    Noise from military aircraft is one of the most obvious byproducts 
of military readiness and has long been a dilemma at our bases. 
Additionally, many people are increasingly concerned with noise along 
many of our low-level flying routes, in our military operating areas, 
and on our ranges. Today, noise is the AF's number one concern when we 
try to modify or establish new airspace. We often hear the ``not in my 
backyard'' philosophy. Some people say they want a strong national 
defense as long as the AF flies ``somewhere else.'' However, if you 
look at a map of the U.S., ``somewhere else'' doesn't exist. In fact, 
``somewhere else'' is always ``right here'' for someone else. In some 
cases, we can accommodate public noise concerns with no loss to the 
effectiveness of our training. When apprised of a noise sensitive area, 
we routinely chart it and avoid it if possible. In a few instances, we 
have made allowances for short periods in National Park recreation 
areas when the park experiences its maximum number of visitors. When we 
cannot deconflict schedules, we try to communicate to users and 
managers alike to let them know what we are doing; when we are flying 
and why. We have found that altering their expectations and increasing 
their knowledge of what is going on can reduce a person's negative 
reaction to noise.
    The services have formulated a plan that will eventually lead to a 
unified DOD noise program to address the full range of noise issues not 
only from aircraft, but also from other military operations, testing 
and training. This program will coordinate policy, plans, and funding 
for noise effects, maintain noise models, and oversee R&D efforts. It 
will also include efforts to ensure that environmental, safety, and 
health considerations--including noise--are integral to requirements 
definition and the acquisition process.
                       national airspace redesign
    Despite a decrease in military force structure and total flying 
hours, the DOD has a continuing requirement for airspace to train in. 
At the same time, fueled by deregulation and relatively affordable 
fares, the civil airline industry has grown steadily. The projected 
growth rate of the civilian airline industry is expected to continue at 
a 6 percent annual increase for the foreseeable future. In 1998, the 
Federal Aviation Agency (FAA) initiated the National Airspace Redesign 
program. This program has been commonly called ``Free Flight.'' The 
goals of the redesign are to maintain system safety, decrease system 
delay, increase system flexibility, increase predictability, and 
increase user access.
    A part of ``user access'' is DOD Special Use Airspace (SUA), which 
is necessary to conduct critical testing of equipment and training of 
aircrews. In the future, the key to the successful establishment, 
modification and use of SUA will require the application of four 
following parameters:

        Volume--enough to accomplish operational, test or training 
        objectives
        Proximity--distance to operating airfields
        Time--available when operations, test, or training required
        Attributes--ability to accomplish specific air/land/sea events

    The first three are self-explanatory. The term ``attributes'' 
refers to the quality that differentiates one piece of airspace from 
another. For instance, there might be a range under the airspace, or 
mountainous terrain needed for a particular test or instrumentation 
needed for training.
    The key to maintaining our access to SUA is to work closely with 
the FAA. The senior members of the DOD Policy Board on Federal Aviation 
along with the Department of Transportation/FAA are currently 
determining a plan for effective joint FAA-DOD interaction. We will 
have to be able to predict and articulate our requirements. In order to 
move toward more real-time use, we will have to work with the FAA to 
focus on the technology necessary to make real-time work. Finally, we 
will have to take advantage of the natural flexibility of air 
operations to work creative solutions to difficult issues.
                           endangered species
    Currently, 79 federally listed threatened and endangered species 
are found on approximately nine million acres of AF lands and waters. 
They include various species of antelope, bats, mice, reptiles, 
amphibians, and plants. In some cases, our installations and ranges are 
the only large, undeveloped and relatively undisturbed areas remaining 
in growing urban areas. This often leaves AF lands as the last refuge 
in the region that can support endangered species. Biological Opinions 
resulting from required Endangered Species Act assessments have 
resulted in range and airspace restrictions mainly associated with 
aircraft noise and munitions use. We operate under altitude 
restrictions due to noise and its possible effects on endangered 
species in Arizona and New Mexico. The Barry M. Goldwater Air Force 
Range in Arizona is home to the last 100 or so Sonoran Pronghorn 
Antelope in the United States. The DOD flies about 70,000 sorties there 
each year. Seven different target areas are surveyed daily before we 
fly any sorties. If there are antelope present, we do not drop or 
strafe on that target that day. The potential designation of range 
areas as critical habitat could seriously limit our ability to modify 
missions on our lands. We need to work with other agencies to ensure 
that habitat constraints do not restrict our operations. For instance, 
in the Sonoran Desert, we are participating in a DOD/Department of 
Interior sponsored ecoregional study. This study, conducted by the 
Nature Conservancy and the Sonoran Institute, with the cooperation of 
the Mexican State of Sonora, has characterized the resources on over 55 
million acres in the U.S. and Mexico. This broad view by over 100 
academic, agency, tribal and public Sonoran Desert experts will help 
Federal agencies and local governments to set their resource planning 
within a larger ecoregional context. The U.S. Marine Corps and the AF 
are using the study as a starting point for the Integrated Natural 
Resource Management plan for the Goldwater Range and Pima County, 
Arizona has incorporated the study into their overall planning effort.
    Marine environmental protection regulations also have the potential 
to impact Air Force operations. The Air Armament Center at Eglin AFB, 
FL uses live munitions over the Gulf of Mexico for a wide variety of 
live ordnance test and training and has obtained permits from the U.S. 
Fish and Wildlife Service (FWS) to allow them to carry out their 
mission. For example, gulf sturgeon in the area are electronically 
tagged. FWS employees track the sturgeon to ensure they are not in an 
area where live ordnance is being detonated.
    The key to addressing endangered species is adequate science and 
good communication. The AF will continue to monitor activities outside 
our fence-line and continue to engage with local communities. We have 
found that where we have good relationships with regulators, we have 
been able to develop cooperative strategies that allow the AF to 
accomplish its mission while at the same time providing the necessary 
stewardship of this nation's natural resources.
                                summary
    The Air Force manages approximately 9 million acres of bases and 
ranges. When many of these installations were established they were in 
rural, sparsely populated areas like the deserts of the southwest. 
These areas are seeing double digit increases in population growth. In 
order to ensure that the rapid pace of urban growth in some areas does 
not endanger our existing capital investment in base infrastructure, as 
well as our ability to access test and training areas, we will need to 
work closely with local governments and other interested parties to 
safeguard our capabilities to operate effectively as an AF.
    We not only need land and airspace, but we also rely heavily on 
critical parts of the electronic spectrum to carry out our missions. We 
must also ensure we can continue developing new electronic 
countermeasures and counter-countermeasures systems and capabilities as 
well as exercise existing systems as closely as possible to how we 
would employ them in conflict. To date, the impacts of encroachment 
have resulted in minor impacts to our operations, with work-arounds 
being implemented to avoid significant readiness impacts. However, we 
expect to encounter increasing challenges not only with our current 
level of operations, but also with beddowns of new weapon systems or 
realignments.
    Maintaining continued access to AF ranges and airspace is vital to 
sustaining mission readiness. The AF recognizes the need to balance its 
test, training, and readiness requirements with responsible 
stewardship. There will be challenges in the future. Effective 
communication is the key. The partnerships we have with our sister 
services, civilian government agencies, and other stakeholders are 
essential. Together, we can meet these challenges head-on and sustain 
our readiness into the 21st century. We continue to look to our ranges 
and airspace to provide the AF the operational flexibility, efficiency, 
and realism necessary to continuously enhance readiness while allowing 
commanders to minimize, to the extent possible, the impacts of their 
mission on the community, the environment, and the National Airspace 
System.

    Senator Inhofe. Well, let me tell you how we are going to 
do this. We will take 7-minute rounds, so if we can try to 
confine our answers to that short period of time so that we can 
cover the things that are necessary. I am going to begin, and I 
am going to use the early bird rule if that is all right, of 
course, with the Ranking Member.
    There are a couple of areas that I want to make sure that 
we get into, and so I want to start off. As I mentioned in my 
opening remarks, I have been for some time the Chairman of the 
Clean Air Committee. During that time we were fighting what I 
thought were unscientific requirements that we had to comply 
with concerning ambient air, which can be in two forms. It can 
be ozone and particulate matter.
    Unfortunately, the courts, as you are all aware, have 
overturned this thing, so all of a sudden we are going to have 
areas that are in nonattainment. I will just use an example in 
my state, because I am very concerned about Fort Sill, as 
Comanche County is one of those counties that are going to be 
out of attainment, according to the map that EPA has. Quite 
frankly, General Buchanan, I think that very likely Altus AFB, 
OK, could have the very same problem.
    Now, in the case of Fort Sill, it is the ozone portion of 
it. That means that we could be faced with a situation of not 
knowing when we are going to be able to start up our diesels or 
whether we are going to be able to use our equipment. So I 
would like to have you try to quantify the problem here as to 
what we might be looking at in terms of your training, the 
artillery training at Fort Sill in Oklahoma.
    General Van Antwerp. Sir, dealing with specifically Fort 
Sill, I think the challenge will be when you can train, when 
you can meet these required ozone restrictions, and opacity 
restrictions that allow you to train during the optimum time.
    We have found that many of our installations, at the very 
time that it is right to do live firing or to use pyrotechnics 
or to use smoke, or those other things that have air quality 
impacts, is exactly the opposite time of when you would want to 
train. So we find that what we are trying to do, to train our 
soldiers to do and recognize the optimum conditions from a 
standpoint of weather and other environmental conditions, we 
cannot absolutely not train during those times, and so it is 
very artificial training.
    Senator Inhofe. Well, but of course you have some guard 
units that come in for a short period of time, and if they 
happen to be there during that time frame when you could not 
train, what would happen, just no training?
    General Van Antwerp. They would certainly have to look for 
other opportunities throughout the year. I would think they 
would have to seriously consider whether they could train 
during that period, and normally it is during the warmer times 
in the summer when they actually have their scheduled training. 
So this is a huge concern in the Guard and Reserve.
    Senator Inhofe. It is something we are going to address. 
Right now we are addressing it in the other committee, with 
legislation that might ease up, but right now I consider it to 
be a very serious problem.
    General Buchanan, would you respond. If this ended up 
being--well, in fact, Tinker Air Force Base is in a 
nonattainment area, according to the EPA maps.
    General Buchanan. Yes, sir, and you mentioned Altus. The 
impact of restricting training at Altus would be significant. 
It is the only base right now where we currently train all of 
our strategic airlift forces. Where we do initial check-outs in 
the C-5, C-141, C-17. You can see where our strategic 
airlifters are day-in and day-out, both for supporting 
operations overseas and at the time of conflict, so if we had 
to restrict that, that would be difficult.
    Senator Inhofe. Admiral Amerault and General Hanlon, I want 
to make sure we get started on this discussion about what I 
consider to be the greatest crisis in our training today, and 
that is what happened on the island of Vieques. The two of you 
are involved and have been involved, or your services have been 
involved in integrated training. With the problems present that 
we are all very familiar with, we have had to suspend training 
for a period of time and then use inert training.
    So I would like to have each one of you from your 
perspective--perhaps, Admiral Amerault, you might even cover 
the problems. I was out on the U.S.S. Eisenhower when they were 
trying to get the training, and they were having to use 
Pinecastle and some of the other places, to respond as to what 
this means in terms of your training ability, and then, of 
course, General Hanlon, as you are going through your 
amphibious operations over there, what it would mean if you 
were not able to use live-fire.
    Then thirdly, since there is no other alternative out 
there, and I have been all the way around the world looking at 
every alternative, how this is going to impact the training of 
our battle groups from the east coast.
    Admiral Amerault. Yes, sir, and I probably was remiss, I 
did not introduce two gentlemen who have come with me today, 
Admiral Baucom and Admiral Heimgarten, distinguished aviators 
who head my environmental shop and my readiness shop, and I am 
glad they are here today.
    Yes, sir, I know that you are a pilot, and I know that you 
realize the physical and intellectual challenge, the stressful 
activity that is required in flying airplanes is intense, and 
you know, as well, that that can be elevated to the highest 
level.
    When you combine that with the speed of jet aircraft, the 
fact that live air ordnance is carried on the wing, integrated 
formation flying coming at targets, precise timetables, 
friendly troops on the ground, the threat of any antiaircraft 
missile or gun fire, or the threat proposed or posed by jamming 
or other things that interfere with the aircraft that are being 
flown. Those kinds of air challenges and that kind of stress is 
impossible, I think, to simulate. No one has ever crashed a 
simulator and not walked away from it, in my experience. It is 
that very kind of stressful environment that we can put 
together at Vieques.
    If you think about the geography of the Navy's activities, 
and to a large extent the Marine Corps', it would seem to 
anybody that we have unlimited training space. We have got the 
vast oceans of the world. But really, where it is important to 
us, is the interface between the shore and the ocean, is where 
shore meets ocean, and particularly these days, as our concept 
of operations is more centered on the littoral activity.
    Blue water navies are not threats to us today. That can 
happen again, but right now we are more concerned with those 
who might operate against us in the littoral, where the land 
meets the ocean.
    In Vieques, we have a very particular kind of an 
environment. It is out of the general aviation flight paths, 
and so we are not restricted as to height. We are very 
unrestricted in terms of access to the air space because of 
intruding airliners.
    Second, there are deep water enclaves very close to the 
land, and its shallows up. That mimics very much what happens 
to submarines approaching from sea to the shore and, in fact, 
it mimics the environment that they would be in if they were, 
indeed, searching for and destroying enemy diesel submarines 
that might be in that area, and in general the bottom 
conditions and sonar performance they are likely to encounter.
    In addition to that, because there is a buffer zone between 
the firing range and any civilian activity on the island of 
about 11 miles, the marines can be doing their ground combat 
maneuver, their landings and so forth in that buffer zone, or 
what we call the maneuver area. While at the same time, even 
though it is not a 100-percent exactly as it would be in 
combat, aircraft and ships can be doing their surface fire 
support or the aviation ground combat support in such proximity 
that it mimics as realistically as you can get it, the 
proximity of the landing of those weapons close to friendly 
troops.
    Senator Inhofe. Admiral, I thank you for that answer. My 
time has expired, but on the second round General Hanlon, I 
would like to go to you with some of these. I was a product of 
the draft. I remember so well the live-fire I crawled under and 
how different that was from inert.
    Senator Kennedy--well, first of all we have Senator Nelson 
who has arrived. Senator Nelson, did you want to make an 
opening statement? All right. We will get to you in just a 
moment.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, and I want to thank 
my good friend Senator Akaka, who is always accommodating, 
generous and courteous for his willingness to yield at this 
time. I again reiterate my appreciation, Mr. Chairman, for 
having this hearing today.
    I am impressed by the comments and the statements that have 
been made by our panel today. It has not always been this way. 
This is something which I think is of importance, and I think 
we want to build on the lessons of the past so we can avoid 
some of these problems in the future. Three years ago, the Army 
was unresponsive to the challenges we were facing at the 
reservation on Cape Cod. It was only after EPA succeeded in 
their administrative orders that we found out about the 
considerable amounts of contamination there. It was after these 
studies that the Army finally acknowledged this contamination 
and really got involved in this whole process.
    A concern that many of us have now, even with the Army's 
statements and comments that they will work to clean up the 
contamination, is that somehow the environmental quality of the 
region's drinking water will suffer permanent harm. The Cape's 
drinking water shortfall is estimated to be more than a million 
gallons a day by the year 2020. This is not a maybe. This is a 
fact. It is very important that the new drinking water wells 
that they are drilling will be filled with clean, usable water.
    Although, General Van Antwerp, in his own testimony said 
that Royal Demolition Explosive has been detected in 
groundwater under MMR's impact area, there is no evidence the 
current drinking water supplies are affected. Unfortunately, it 
is moving towards the town of Bourne. They are moving toward 
that area, and while we wish we could be confident that the 
contamination is going to be controlled, and we wish that we 
could be assured that we are going to have the resources to be 
able to try and clean it up, we are not. That is a larger 
issue, and is something that this committee is going to have to 
deal with.
    I know that there are scarce resources for training, 
preparedness, and readiness. But, we have to be involved in 
this kind of undertaking--environmental cleanup--to ensure that 
training will be available in the future. This needs to be a 
priority. We have to try and find ways of trying to deal with 
this, and, unfortunately, it does not come on the cheap end. 
The best estimates for the cost of UXO Cleanup is in the 
billions of dollars. It is enormously important that we start 
to deal with this now.
    I want to mention, Mr. Chairman, the good work that the 
Army is doing at the present time. They are doing a much better 
job having established a range sustainment program to look into 
how to manage the range. The Army has also taken the step of 
establishing a steering committee comprised of the Vice Chair 
of the Army, the General Office of Training Acquisition and the 
Environmental Division to continue to work through problems at 
MMR. Locally, the Army is working with the community doing 
education programs for children and others. These programs help 
to build trust.
    In the brief time that I have left, I want to mention one 
particularly impressive program that the Marine Corps has, 
General Hanlon. As I understand it's at Twenty-Nine Palms, the 
Marine Corps has a very extensive program for policing the 
various ranges and clearing them of UXO. I think it is 
something of which we ought to take note.
    I understand you have developed a computer software program 
for that site's management, which has a wide range of different 
uses. It provides correlation of explosives used, the area 
cleared, the ordnance found, vehicles, fuel, and the manhours 
used for range clearance operations. Your UXO environmental 
management program combines this with post-exercise cleanup and 
regularly scheduled range cleanup activities throughout the 
year.
    This is enormously impressive. I have not visited there, 
but I have read about it in your testimony. This program is 
important, especially when you realize that, in a lot of these 
instances of old ranges, there is difficulty in just knowing 
where these old munitions are stored. The Services do not have 
good information about them, and in many cases, the shells are 
obviously deteriorated and are leaching explosives into the 
ground or water supplies.
    This is what seems to be happening currently at MMR. I 
would like to try and look down the road toward the future and 
how we can deal with this problem. Perhaps you could just make 
a brief comment about what the marines have decided to do on 
this, and if you or other members of the panel could indicate 
whether there are lessons that have been learned here that 
could have application to the other services.
    General.
    General Hanlon. Thank you, Senator. Yes, sir, you are 
right, you described exactly the site management model, the UXO 
model that they have at Twenty-Nine Palms.
    The reason the Marine Corps went to this model is because 
Twenty-Nine Palms is a really unique base for us, Senator, 
different than our other bases. You can just picture in your 
mind about 900,000 acres of desert maneuver area, and there is 
no set impact area. In other words, the units that go out there 
literally fire and maneuver throughout the entire complex.
    Since you do not have a contained impact area, when an 
exercise is done, there has to be a method to go back and 
literally police up the area to make sure you did not have any 
unexploded ordnance or any other debris out there that should 
not be there. So they came up with this model, which was a way 
to go ahead and track the exercise.
    From the moment the troops left the point of departure to 
the time they went through the entire exercise, everything that 
was fired was tracked through this model. Then when the 
exercise was done, the Explosive Ordnance Disposal (EOD) 
personnel would then go out using this model to locate where 
they best thought this ordnance would be.
    They would then go out and sweep the area and collect that 
which had not exploded, or other kinds of metal debris. They 
would then collect it and either blow it in place or bring it 
back to another site to be disposed of. They would also take a 
lot of the metal that was recovered and go ahead and actually 
recycle it. It has worked very, very well at Twenty-Nine Palms 
because of the nature of that particular base.
    For example, sir, I was speaking earlier about Camp 
Pendleton. It is a little bit different at Camp Pendleton, 
because we have a set impact area that we fire into. Nobody 
else goes in there. Then about twice a year, Senator, we close 
the base down and go in and sweep the area and look for 
ordnance, and so I think your point is well-taken, sir. I think 
this is the utilization of modern technology to help us. It is 
something that there is no reason why we cannot migrate that 
into our other bases, and certainly it would be available for 
our sister services to use as well, sir.
    Senator Kennedy. I thank you. I think there are important 
initiatives in this area that can be helpful in finding future 
solutions. I thank the chair.
    There are four members of the full committee that wrote the 
Secretary of Defense in January urging that he establish an UXO 
clean-up account. We know that there has been a transition, so 
we are understanding, at this time, about the development of 
this type of program to try and respond to these kinds of 
concerns.
    I would hope that all of you are being asked to submit your 
recommendations to the Secretary regarding this idea. It has 
been several weeks now since we sent the letter, but the need 
is there and I do not think it is going to go away. We are 
going to have to come to grips with these issues sooner rather 
than later.
    I hope that we are not--speaking parochially now, but this 
is important that we in Massachusetts are not going to be held 
hostage because of the impression that whatever is done there 
in terms of clean up could be used as a precedent to clean up 
other areas. This would not suit either the vital health needs 
of the people of the Upper Cape area or the DOD's interests.
    I thank the Chairman for this hearing on this very 
important public policy issue, and I thank him for his 
involvement, and for the courtesy of letting me sit in.
    Senator Inhofe. Senator Bunning.
    Senator Bunning. Thank you. I apologize for missing part of 
it, but I had some meetings.
    I find it amusing, I guess I should not, but I do, that 
Senator Kennedy comes as a nonmember of the subcommittee, and 
you all kiss his ring before you go ahead and discuss the 
important matters that are before us.
    Some of us are new to the committee, but have a deep and 
abiding interest in what is going on. We have some real, real 
problems in the Commonwealth of Kentucky, and I want to address 
them with the Army.
    At Fort Knox we train, as you well know, soldiers to 
maneuver and fire tanks. It takes lots of room to do that, and 
we are the home of the mounted warfare----
    Senator Kennedy. Would the Senator yield for a personal 
privilege?
    Senator Bunning. I would be glad to.
    Senator Kennedy. I want the record to show I did call the 
chairman yesterday and asked, as a member of the full committee 
to attend this hearing, because I was particularly interested 
in it.
    Senator Bunning. Absolutely. I understand that. I do the 
same thing when I have a deep concern.
    Senator Kennedy. So I want the record to show that I am 
very grateful. This is not a new issue for any of these 
gentlemen in my state, so I appreciate all of their courtesies. 
But I wanted to again state that and I just want to make sure 
that the Senator understood, and if he has any personal 
problems with that----
    Senator Bunning. If I had a personal problem with it, I 
would come to you personally.
    Senator Kennedy. Thank you.
    Senator Bunning. You are welcome.
    Let us get back to Fort Knox. It has a current tank range, 
and some training problems. Fort Knox wants to expand its 
training range into 2,000 undeveloped acres on the base, just 
beyond the current range. However, this would allow range 
activities to occur in undeveloped wilderness areas and closer 
to residents in Meade and Bullitt Counties of Kentucky.
    We have had local officials and residents in these counties 
concur about the environmental impact and noise levels 
surrounding the expansion of this training range at Fort Knox. 
I am asking you, as the person who the Army has sent here to 
explain how important it is for the safety of our troops to 
train under live-fire, where do you draw the line on the safety 
of people versus the safety of the snail darter, or whatever 
might be out there?
    General Van Antwerp. Senator, your point is well made. That 
is the balance that has to be struck, that in order to prepare 
our soldiers for the job they have to do, you have to be able 
to do live-fire and maneuver. Incidentally, I think the land 
required in the future is going to be even greater than today.
    As we look at the force of the future, we are looking at a 
more mobile force, a faster force, more vertical with 
aviation----
    Senator Bunning. But I need you to answer the question. I 
need you to answer--when do you make the decision? If the 
decision being made is that you have to have those 2,000 
additional acres to train your troops properly, when is the 
decision made to go forward with that additional 2,000 acres, 
you as the Army?
    General Van Antwerp. As the Army, when we make that 
decision to go forward, it would have to be in partnership with 
the regulatory agencies, but in those forums. That is where we 
would try and strike the balance between protecting--in Fort 
Knox' case, they have the Indiana bat, for instance, which 
there are restrictions, that we have to strike the balance 
there. We would make the absolute strong case----
    Senator Bunning. The Indiana bat is more important than the 
training of our military people when you send them in harm's 
way?
    General Van Antwerp. No, sir.
    Senator Bunning. That is just about what you said to me.
    General Van Antwerp. My point is that we would have to look 
at the habitat requirements by law.
    Senator Bunning. Would you not come to us and say, hey, by 
the way, the bats are not as important as the people?
    General Van Antwerp. Sir, I think we would come to you to 
look for that balance, and we would look--the first question 
that is always asked of us, what other mitigation, what other 
areas can you set aside?
    The description I said of Fort Bragg, buffer land, that 
provides habitat so we can train properly in our training 
areas. That is exactly what we would try and do in the Fort 
Knox region to determine whether there is other habitat that 
could be set aside so that we could properly train and get the 
additional land.
    Senator Bunning. If there were other areas that could be 
set aside we would not be looking at the 2,000 acres at Fort 
Knox to expand the range so that we could train properly those 
people that need to send into harm's way.
    The fact that there are bats and other problems on the land 
has to be mitigated to the point that either you have to take 
the training somewhere else, where you have enough range, or 
you are not willing to fight, as the Army, for the range in its 
present place because there are mitigating circumstances.
    General Van Antwerp. We are willing to fight. Sometimes 
there are restrictions at local installations that we can only 
do that training at one of our training centers. That is not 
optimum. We need to be able to train at the local training 
site, as you suggest. So I think we would come back to you for 
the balance on that. If we found that it was so encroaching 
upon the training that we need that we have to come back to get 
relief, I think we have all talked that there might be that 
occasion.
    Senator Bunning. Well, my time has expired and I have not 
even begun to ask the questions I wanted to, but I will concede 
to the chairman.
    Senator Inhofe. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Again, I 
want to thank you for this hearing and thank our witnesses for 
being here and for your testimony. I firmly believe that all of 
us, you and the Senate, have intentions of using good faith 
efforts in trying to meet the challenges that we are 
discussing. There is no question, and it has been mentioned 
time and again, that we must have training for our troops 
before they are sent into harm's way. I think there is no 
dispute in that.
    What we are looking for are ways to try to work out some 
effort and working in this case with communities and trying to 
carry on these training programs. I would like to address this 
to the Admiral. The impact of community concerns on the 
military's ability to conduct training is perhaps more acute on 
the island of Vieques than anywhere else, and as we all know it 
has been a hot subject, one that Puerto Rico has had. It even 
impacted the elections out there, and this is how in a sense, 
the community became passionate about this.
    The last administration placed a high priority on reaching 
an accommodation with the Puerto Rican Government that would 
permit a resumption of live-fire training on Vieques. As we 
know, there is an expected referendum to be held there, and I 
think we have a feeling that if it is taken--and let me use the 
Navy. The Navy loses I think in that referendum, so we need to 
keep that in mind.
    It appears this agreement may now be falling apart because 
of that. My question to you is, what steps are being taken 
today to address concerns raised in Puerto Rico and enable the 
Navy to resume live-fire training in Vieques? Who is in charge 
of this effort on a day-to-day basis?
    Admiral Amerault. Yes, sir. Those are extensive questions 
and are very good as well.
    You wanted to know who is in charge on a day-to-day basis, 
and what steps we are taking. The questions at Vieques are many 
and multifaceted. The day-to-day in-charge nature of the answer 
is that this is a question that is being worked on at almost 
every level in the Navy. The Secretary of the Navy, now the 
acting Secretary of the Navy himself is involved with Vieques 
almost on a daily basis.
    The question of Vieques has already come before the new 
Secretary of Defense. The most intimately involved officer is a 
Rear Admiral Green, who is on the ground in Vieques, or 
actually in Puerto Rico.
    After that, the day-to-day managing of the situation is by 
the Commander in Chief of the Atlantic Fleet. That is because 
the range in Vieques and the training it represents is in his 
particular area of responsibility. He is the gentleman whose 
job it is to put forward ready and trained forces in the 
Atlantic Fleet to go to the warfighting CINCs in the 
Mediterranean and South America and the Middle East and the 
Atlantic. So he is actually in charge of what we are doing 
there, with advice support from the Chief of Naval Operations 
Staff, which is me, at the Directorate of Logistics and 
Readiness.
    He is also getting support from the Secretary's Office in 
the political arena, so I would say there is an overwhelming 
amount of concern, work, and attention on the Vieques issue. We 
are addressing every one of the community concerns with regard 
to all of the potential or implied damages to any of the 
environment there, in terms of water and the water pathway, air 
quality pathway, soil, whether or not the effect of weapons in 
the water causes some kind of an acoustic problem which causes 
some kind of disease, whether there has been any change in the 
rate of cancer and so forth on the island. We are very much 
involved in finding answers to those questions.
    Many of those we think can be answered without--or by 
saying there is no risk. We think that is going to be the 
ultimate answer to those questions, almost 100 percent of them. 
However, we are very interested in finding the scientific 
answers, or in refuting answers that are not based on real 
science.
    Other concerns such as the welfare of the community in 
terms of its ability economically to survive, because, say, the 
maneuver area or the weapons ranges are adjacent to it, are 
issues that we have over a number of years been working on with 
the community in Vieques. Sometimes with some success and 
sometimes without notable success, but we have been working to 
some degree on those issues for quite a long time. However, we 
have heightened that activity tremendously and there are funds 
that we have pledged to be able to use to help that community 
attain more economic viability.
    In the past, there have been efforts by the Navy to bring 
in businesses from the outside. Some of those have met with 
success and some have not. Sometimes, because in Puerto Rico 
there has not been the ability or the resources from Puerto 
Rico to put in, for instance, ferry service and other things to 
service the island.
    We have been very attentive to the environmental condition 
of the island. We have been, we think, a superb steward of the 
lands entrusted to our care. In fact, we think that the beaches 
and the mangrove swamp, mangrove areas and so forth that we 
have stewardship over are very, very well-maintained and in a 
near-pristine condition. We have been very attentive to the sea 
turtle population in the island. In fact, that population is 
growing. There were 17,000 hatchlings that were released back 
to the environment since 1991 because of the program by the 
Navy.
    We take mitigation efforts to be sure that we preserve the 
turtle population on the beaches before any marine activity in 
terms of landing on the beaches. We think we are addressing 
those problems very extensively, and completely. However, we do 
not have an agreement with Puerto Rico on that score.
    I do not know if there are any other things I can answer.
    Senator Akaka. Well, my time has expired, but let me ask, 
have you more recently tried to, or made an attempt to discuss 
any of these challenges with the present Governor?
    Admiral Amerault. Sir, I personally would be in danger of 
potentially misspeaking. I do know there has been a recent 
meeting with the Secretary of Defense and the present Governor.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you very much, Senator Akaka. I would 
also add that I have heard very complimentary things about 
Admiral Green, and reestablishing relationships that perhaps 
were not as good as they should have been, so I would like to 
get that comment in the record here.
    Admiral Amerault. Might I say, sir, that we had a similar 
issue with the island of Vieques over the installation of a 
major radar installation about 8 years ago in which we did work 
with the community and made that installation a fact. It is now 
operating, and so we have had a history of working with the 
community.
    Senator Inhofe. Thank you, Admiral. Welcome to the 
committee, we would say to our friend from Nebraska, Senator 
Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. It is a 
pleasure to be here, and I want to commend the military on the 
environmental stewardship that you are undertaking as part of 
the overall commitment to public safety as well as to the 
public good.
    I was taken by the desire to try to create a balance, 
General Van Antwerp, because I suspect that almost everything 
that we do these days has some balance associated with it. The 
balancing act is more difficult in certain instances than at 
other times. But to try to balance the percent of the budget 
that goes for prevention and cleanup of the environment versus 
what is necessary for training, the challenge to comply, to be 
a good steward of the land and of the water, and the balance 
that is required between having the right kind of training and 
simulated training.
    Do you feel that you are trading, or jeopardizing the 
security of the military by trying to comply with environmental 
requirements?
    General Van Antwerp. Senator, I think up to this point we 
have been able to manage it. As we do our range sustainment 
models and our management plans in the future we are finding it 
more and more difficult. The encroachment is greater and 
greater. We do not want to get to the point, as discussed with 
Senator Bunning, that we cannot train at our local 
installations and only have to do it at a few places where it 
is allowed. Last year, we spent about $17 million on the 
Endangered Species Act. That is a lot of money.
    When you look at unexploded ordnance, the bill for that 
could be absolutely enormous. What is being done out at Twenty-
Nine Palms, that costs money to make those sweeps through after 
live firing exercises. That comes out of the very same pot that 
we do maintenance of our installation and its facilities, so 
the strains are becoming greater and greater. I could easily 
see in the near future that we would get to the point that we 
are not able to train as we want to because of clearance 
requirements or endangered habitat requirements.
    Senator Ben Nelson. So there is a danger signal there for 
all of us to be aware of and be concerned about. I do not think 
there is anybody sitting at this table who wants to ignore the 
requirement on the one hand, and on the other hand we do have 
to strike a balance to make it work.
    I wondered also if I might ask if you trade--and I know 
there is a lot of competition among the branches of the 
military, as well there should be. Esprit de corps is 
absolutely essential, but do you share information about what 
you are doing for prevention and cleanup technology so that you 
are getting the benefit of every other experience that one 
branch encounters versus another branch? I suspect water issues 
may be more in the province of the Navy but not necessarily 
exclusively. I just wondered if you are sharing technology.
    Admiral Amerault. Yes, sir. Our water issues are different, 
because they are sea water, and, in fact, each of us has a lead 
service aspect for a different aspect of unexploded ordnance. 
So we are working in different areas. Ours is the maritime 
area, and so we are very concerned with that, and leaching of 
chemicals in deep water, what those effects are when the 
ordnance lands there and so forth. But there are a lot of 
difficulties in finding unexploded ordnance, particularly in a 
range that is a very wide range.
    You cannot just rely on something like a metal detector. A 
lot of it is lead. A lot of it is metal that is buried deep in 
the ground because of the velocity of the impact and bombs and 
so forth. It is not a simple thing. We spend a lot of money on 
cleanup in some notable areas, and one of the difficulties is 
that that cleanup sometimes has to be absolutely iron-clad 
guaranteed not to allow an injury of someone who uses that one-
time range for other purposes.
    You may have to excavate to 4, 6, 8, 11 feet, basically, 
take out all the ground and sift it or whatever, and put it 
back. It is very extensive, and very expensive, and you are 
right about the competition for resources. When you cannot 
train in some place, you have to balance the fiscal constraints 
of the numbers of munitions you have, in fact, to use for live-
fire training because we are constrained on our budgets at the 
present time with the numbers of those we can buy, training 
days, now personnel tempo, which is costing us in the 
recruiting and retention arena, and the war for people, which 
is another aspect of this as well, and flying hours and the 
cost of those. It is a very interesting tradeoff between this 
kind of training and the other things we have to pay for.
    Senator Ben Nelson. One further question. Are you finding 
people with the kind of experience and/or with the kind of 
educational background and knowledge in the technology among 
your recruits, or among the private contractors you have?
    Admiral Amerault. For things like unexploded ordnance and 
disposal and so forth we all tend to use similar contractors 
who are experts in the field, and we tend to share it 
specifically because we often use the same contract or the same 
contracting methods, so I think there is a sharing of the 
technology.
    General Van Antwerp. Sir, if I might just briefly say, 
there is a steering group at the OSD level that all of us are 
members of that talks about unexploded ordnance, where at the 
last meeting we had a lay-down of the latest technologies for 
clearance. We find ourselves most aligned with the marines, 
because we have the majority of the small arms and ground-type 
things. The Army has, of course, a big piece of this. About 90 
percent of the unexploded ordnance out there is ours, so we 
have got a major part of this problem, but there are steering 
groups to share the lessons learned, and we are working 
together on that.
    Senator Ben Nelson. Well, thank you very much. I appreciate 
it.
    Senator Inhofe. Thank you, Senator Nelson.
    Let us start off where we ended, General Hanlon, you did 
not get a chance to respond to my question, and specifically, 
the live-fire portion, and how that contributes to the 
training, and how this translates into perhaps lives.
    A lot of people are aware of when we make these east coast 
deployments that go through the Mediterranean and on down 
around to the Persian Gulf, in fact, the danger, as we found 
out from having to go in, but when you get there the likelihood 
of being in a combat environment is about 50-50, so with that 
in mind, why don't you go ahead and respond.
    General Hanlon. Yes, sir. Thank you, Mr. Chairman. I 
thought the Admiral a few minutes ago did a wonderful job of 
talking about the importance of Vieques to the training of our 
MAGTFs, but as you know, thinking about your question, sir, my 
first response is, what you do not want to have happen is for a 
marine to have the experience of firing live munitions or 
hearing live munitions for the first time in combat. That is 
not what you want to have happen.
    Going back to my comment to you about, we train as we 
fight, I think it is essential that our marines understand how 
to utilize and properly employ live munitions. In my comment, I 
mentioned that we are an integrated combined force, that is 
infantry, artillery, close air support, tanks.
    Each one of these systems has their own individual effects 
on the target, but when you bring them together there is a 
synergy that takes place, and an even greater effect, and that 
is what it is all about, learning how to use those combined 
arms at the right time and in the right place. It is a timing 
issue. You have got to bring in your naval gunfire, your 
artillery, your air on a set sequence, because if you do not, 
something catastrophic could happen.
    Having spent many years, sir, at Fort Sill in your area of 
responsibility (AOR) in Oklahoma, I will tell you that one of 
the things that you have to do, you have to learn how to take a 
155 round in the dark, how you put the right powder charge on 
it, how you put the right fuse setting on it in the cold, and 
in the heat, and in the daylight or at night. You have to get 
that round in the tube and down range.
    The forward observer has to be able to adjust that round on 
the target and do it quickly, and you have to go out and 
experience and do that. It is just something that is part of 
what we do. We use simulation, we use inert weapons when we 
can, but you can only do so much with that. I mean, there comes 
a point where they actually have to go out there and do it for 
yourself.
    A company commander, when he has got his unit out there, he 
can sit in a classroom and he can talk to his troops all he 
wants about maneuver and everything else, but until he 
physically gets out there in the field with his troops in the 
fog of war and the confusion and the heat and everything else, 
and actually commands and controls in the attack or in the 
defense, and experiences that, I mean, you cannot duplicate 
that in the classroom. You have to physically go out and do it.
    I think another reason that it is important to do this, 
sir, is because it is not just that you want to get it right in 
combat, but it is how you prevent fratricide, by going out in a 
training environment and being able to practice time and time 
again how you use live weapons and ammunition. I believe that 
prevents unintended consequences in the battlefield, either in 
terms of collateral damage, or in terms of fratricide with your 
own troops.
    I use an analogy with my own people sometimes at Camp 
Pendleton, and that is, that is the reason the football coach 
Monday through Friday has his ball players go out and hit and 
tackle and block, is because they have to know how to do that 
and how it feels, because when game time comes on Saturday, I 
mean, it is too late to start then.
    So I believe that the reason that the utilization of a 
place like Vieques is so crucial to us is because when you take 
the MEUs that come off the east coast, now, they are getting 
ready to go on a 6-month deployment with the fleet. It is at 
that point, kind of a graduation exercise, they come together, 
they have this big exercise at Vieques where they bring all of 
these skills together as part of the final certification before 
they go off and deploy with the fleet.
    The minute they leave and start sailing east, anything can 
happen anywhere on the globe, and they may find themselves on 
their way to a conflict, and I will tell you, sir, having done 
a couple of tours in Europe a number of years ago we had access 
to training places in Turkey and in Greece and in Italy and 
places in France. We do not have access to those places like we 
used to, so it is harder in theater to find places to train 
your troops, so you have got to get as much of that done before 
you deploy.
    Did that answer your question, sir?
    Senator Inhofe. It does, General Hanlon, and in fact when 
this discussion started--you mentioned Capa Teulada. I went 
over to Capa Teulada to see, can you get this kind of training 
there. Well, on some days you can, and we are down to 22--at 
least the last time I looked, to 22 days a year that we could 
use that range, and that would only be where they agree, their 
country agrees with our mission, and you and I can both think 
of some areas where they might not agree.
    General Hanlon. Yes, sir. In the case of Capa Teulada, that 
is a main training base for the Italians, and so they have got 
their own units coming and going through there, so what we try 
to do is sequence our own units into their training, and if we 
are lucky we can find a gap that gives us access. If we cannot, 
then we are out of luck, sir.
    Senator Inhofe. Senator Akaka, this kind of addresses your 
concern, too. If there were another place it would be 
different, but there is no other place. We have been to all of 
them, and as a matter of fact, in Northern Scotland when we 
were there there is an article in the paper that said, wait a 
minute, if they are not willing to have this live training on 
their own range that they own, why should we let them do it 
here, and there is very strong suggestion that they are not 
going to let us. It is in jeopardy.
    Now, Admiral, you mentioned in your remarks, to make sure I 
properly understand and the record does reflect this, when your 
pilots take off from the carrier--and incidentally, the 
football analogy we used was used on U.S.S. Eisenhower when we 
were out there by one of their pilots, the same thing. They 
have to go through civilian air space, they have to change 
their formations, they have to go through--and as a commercial 
pilot, I have been for 40 years, I know you have to go through 
thinking about that even as long as I have been doing that, and 
then to reprogram yourself back into a military--is this what 
you are getting at?
    Admiral Amerault. Yes, sir, and the closest, the only 
place, really, we can do the kind of combined arms training 
that we do at Vieques in two places, one is Vieques, and one is 
where the General is on the west coast in conjunction with San 
Clemente Island, that combination, but Vieques is by far, I 
think the best in the world, because of the fact that the air 
space is less encumbered, and you do not have a lot of that.
    We have already got the clearance activity, the radars, the 
long-range radars sited high, the kinds of things to maintain 
the clearances.
    Senator Inhofe. I do not want this to dominate the 
discussion, but when you are talking about encroachment, this 
is the area with the most multiple encroachment, because you 
have endangered species, you have all these other air problems, 
and General Buchanan, I am sure you will agree with this, as 
you are having to use fewer and fewer available live ranges for 
your operations, too.
    General Buchanan. Yes, sir. Your comment about, as you 
accommodate this, where I was a commander we were able to take 
off and within about 15 miles you were really in warning air 
space, so you could fly as you were going to fight right away. 
Other places around the states, sir, are not as fortunate in 
their training ranges. They are up to 150 or 200 miles away, 
and in that transmit time then you do have to change in flight 
procedures. You get to the air space, you have to take a moment 
to kind of switch over and take off your civilian transit hat 
and now put on my go-to-war hat, and when you return you have 
to do the reverse as you go through.
    Senator Inhofe. I appreciate that. My time has expired. 
Senator Bunning, Senator Akaka said he would defer to you.
    Senator Bunning. Thank you. I just wanted to bring up one 
more problem you have in Fort Campbell. We fly troops from this 
base airfield for training and missions abroad. In fact, we are 
going to send 3,000 people off to Bosnia on June 1 from there. 
We have a great airfield there.
    The problems now have developed that some developers near 
Fort Campbell airfield want to construct high hotels and gas 
station signs visible from the highway near Hopkinsville. The 
Army says this poses a safety threat to arriving and departing 
aircraft. How does the Army plan to address this problem, and 
you can take that as the first question.
    When will the Army complete its sustainable range 
management plan? Will you rank in order those posts which have 
best and biggest problems with encroachment issues? I hope in 
your plan that you will offer and recommend specific solutions 
to address these issues, because only then can we help to lift 
the burden resulting from these matters to ensure that we do 
have sufficient readiness.
    General Van Antwerp. Yes, sir. Thank you for both those 
questions. I will take the first one on the Fort Campbell 
Airfield. There were dealings--and I actually have our lawyers 
involved in those issues that would restrict our ability to 
take off and land and use the full extent of that, because we 
obviously need that as one of our power projection platforms, 
as one of our crucial divisions, and we need the space, so we 
are working with the local population, working through the 
lawyers to make sure that we do not have anything that will 
restrict the use of that air space.
    Senator Bunning. They are doing it right at the end of the 
runway?
    General Van Antwerp. Yes, sir, so you do not have the 
overflight, and you do not have to go up too quickly or use the 
full extent of the runway, as I understand the problem. So it 
will take some time to work through, but we are going to stand 
our ground on that. We need to have that air space utilization 
to be able to take off with the loads that are required, so 
that is a very important issue not resolved yet.
    The second one, I would ask if maybe General Webster on the 
sustainable management----
    General Webster. Sir, in the sustainable range plan this is 
something we are working on over time, and I do not expect it 
will ever be completely done, because as new laws are passed 
and new species are identified, and as technology improves, we 
will continue to look for opportunities to apply that 
technology to be able to train better.
    However, we do expect to prioritize our installations and 
the requirements on each of those installations so we can tell 
where the highest priority areas are.
    Senator Bunning. When would you say that would be done?
    General Webster. Sir, I will have to get back to you on 
that. I do not have the end state right here.
    Senator Bunning. In other words, let us say the status quo 
is maintained on new laws and new problems. You do have 
facilities. You know the facilities, you know the training 
ranges, and you are trying to prioritize. You do not have any 
idea when that would be completed?
    General Webster. Sir, I know one part of the sustainable 
range management plan we have is to get a complete inventory of 
any ranges where we have fired, or where any of our services 
that are on Army installations have fired ammunition before, 
and that is supposed to be completed by 2003. That is our 
complete end-to-end inventory. I do not expect that is the same 
time that we will finish our plan, but I know that each 
installation is required to put together a sustainable range 
management plan.
    Senator Bunning. Can you at least give me an idea, or this 
subcommittee an idea of when you will do the current 
installations and get back to the subcommittee before you get 
the current one done?
    General Webster. Yes, sir. If I could take that for the 
record I will get that to you.
    [The information referred to follows:]
                army sustainable range management (srm)
    Army Approach: The Army must improve its management of ranges and 
training land in order to sustain readiness in light of increasing 
encroachment challenges. The Army's Sustainable Range Management plan 
is based on three tenets:

          (1) Develop and maintain the best Information--establish 
        solid baseline data on all aspects of ranges--their operational 
        characteristics as training facilities, their physical 
        characteristics as real property facilities, their 
        characteristics as part of the natural and cultural 
        environment, and environmental impacts to training.
          (2) Integrate Management--across the three disciplines that 
        directly affect ranges, training, range operations and 
        modernization; facilities and installation management; and 
        environmental management.
          (3) Establish Outreach--educate and inform the public, 
        decision-makers and influence leaders to explain why we must 
        conduct live-fire and maneuver training, what impacts training 
        and readiness, and how we are moving to a more sophisticated 
        management approach to ensure that the concerns of the public 
        are addressed. Form partnerships with local governments as part 
        of this effort.

    Army Live Training: Army live training is unique. Live training is 
required across the spectrum of Army missions. It is conducted as part 
of Initial Entry Training, to provide basic soldiering skills. It is 
conducted in units of both the Active and Reserve Components to hone 
collective skills. It consists of ground maneuvering by combined arms 
elements, and live weapons firing of both individual weapons and 
weapons systems, as well as of units employing multiple weapons and 
weapons systems.
    Army Ranges: The Army controls an extensive range infrastructure to 
support its live training requirements. Army ``ranges'' consist of 
fixed firing ranges for the full array of Army weapons systems, 
including small arms, crew-served weapons, and major direct and 
indirect fire weapons. This also includes Army aviation systems. Ranges 
also consist of impact areas (both dudded and non-dudded) onto which 
firing ranges are oriented. Ranges include maneuver areas where force-
on-force training takes place. Finally, ranges include other live 
training facilities, such as Military Operations on Urban Terrain 
(MOUT) training facilities. The Army's range infrastructure is complex. 
Over 430 installations and sites with ``ranges'' currently exist.
    Encroachment: Army ranges are experiencing increasing 
``encroachment.'' Encroachment is the sum of external factors, 
impacting ranges and land, that have the potential to limit the Army's 
capability to accomplish its mission and maintain ready forces. Such 
encroachment stems from a variety of environmental, social, political 
and economic influences. Impacts include, but are not limited to:

        <bullet> Restrictions on the locations available for test and 
        training
        <bullet> Restrictions on times and durations available for test 
        and training;
        <bullet> Reduced effectiveness of testing and training 
        activities
        <bullet> Restrictions on the weapons systems, equipment, and 
        ammunition used during testing and training.

    Sustainable Range Management (SRM) Scope: Army ranges are a 
combination of live training infrastructure, installation facilities, 
and the environment. Sustainable Range Management (SRM) in the Army is 
an integration of training, facility and environmental management to 
ensure that viable assets exist to support the Army's Title 10 
missions.
    Army SRM Objective: In light of increased encroachment, maximize 
the capability, availability, accessibility of ranges and training land 
to support doctrinal training and testing requirements, mobilization, 
and deployments under normal and surge conditions.
    Capability: The capability of Army ranges is based on their 
functionality in supporting live training. Capability components 
include requirements and operations.

        <bullet> Requirements and Range Modernization: Capability 
        requirements are derived from doctrine using the Army's Range 
        and Training Land Program (RTLP) standard methodology. This 
        methodology considers forces assigned to, or using, 
        installations to identify range and land requirements from 
        primary doctrinal sources, notably Training Circular 25-1, for 
        land, and 25-8 for ranges. Based on this doctrinal requirement, 
        installations determine the need to retain, or modernize 
        ranges. Modernization can be accomplished by upgrading existing 
        ranges or constructing new ranges. The same consideration is 
        applied to land to identify existing critical training parcels, 
        or the need to acquire additional land. As new ranges are built 
        or existing ranges modernized, the Army must integrate improved 
        designs derived from sound engineering and environmental 
        research. New range designs will contribute to mitigation of 
        encroachment, particularly in the areas related to the 
        regulation of munitions.
        <bullet> Operations: Ranges must be operated and managed in a 
        manner that ensures safe, doctrinally sound training. Range 
        management also includes allocation and scheduling to meet the 
        needs of users in an equitable manner reflecting the 
        commander's priorities. Operations includes a full awareness of 
        use, and consideration of capacity--training and operational; 
        as facilities; and as a part of the environment. The Training 
        Requirements Integration (TRI) component of the Army's 
        Integrated Training Area Management (ITAM) program is central 
        to this allocation and scheduling process. The Army Testing and 
        Training Area Carrying Capacity (ATTACC) methodology provides 
        an indicator of training land environmental capacity against 
        various training loads. The Range Facility Management Support 
        System (RFMSS) provides the automated capability needed to 
        support scheduling and other range operations tasks.

    Availability: Availability of ranges stems from accountability, 
assessment of facility condition, maintenance, and environmental 
management.

        <bullet> Accountability: Ranges are Army real property and are 
        accounted for as such. Each distinct range ``type'' is 
        identified with a facility category code. Each code, in turn, 
        represents a standard configuration that supports a distinct 
        set of training tasks. Accountability is extended to knowledge 
        of the scientific characteristics of the range, to include 
        soils, vegetation, etc.
        <bullet> Maintenance: Maintenance of Army ranges is 
        accomplished through two means. The Army's Sustainment, 
        Restoration and Modernization Program generates a facility 
        maintenance fund based on the range inventory and 
        characteristics. The Land Rehabilitation and Maintenance (LRAM) 
        component of the Army's Integrated Training Area Management 
        (ITAM) program provides a fund to maintain training land.
        <bullet> Assessment: Range conditions are assessed using three 
        elements of the Army's Installation Status Report (ISR) 
        process. As facilities (ISR Part D, ranges are measured against 
        their operational capability to meet doctrinal training 
        requirements. As services (ISR Part III), range operations are 
        assessed in terms of adequacy to support commanders' priorities 
        and to provide safe operation. As the environment (ISR Part 
        II), ranges are assessed in terms of environmental compliance 
        and stewardship, as well as in terms of environmental impacts 
        on live training execution.
        <bullet> Environmental Management: Environmental management is 
        a significant challenge on Army ranges. Environmental 
        management for ranges includes elements of all four 
        environmental program ``pillars''--conservation, pollution 
        prevention, compliance and restoration. Each contributes to a 
        varying degree to sustainable ranges. Because of the unique 
        characteristics and effects of Army training, many of the 
        traditional management practices within the pillars are 
        insufficient or inadequate requiring investments in 
        environmental research and development (the Environmental 
        Quality Technology program) to provide new techniques and 
        assess Army-unique effects. The area with greatest potential 
        for increased environmental management is that associated with 
        munitions use on ranges.

    Accessibility: Accessibility to ranges depends on their management 
through all the means already discussed above, and the ability to 
demonstrate effective management so that external pressures do not 
create restrictions to the uses required for readiness.
    SRM Implementation: The Army's ability to implement Sustainable 
Range Management depends on its ability to meld the three management 
programs--training, facilities and environment--into a cohesive whole 
that will ensure the availability of ranges to support Army live 
training indefinitely. At HQDA, SRM has begun through three 
initiatives:

        <bullet> The creation in June, 2000 of the Army Range 
        Sustainment Integration Council (ARSIC), an Army Staff 
        ``council of colonels'' representing all staff elements with an 
        interest in ranges and supporting programs. The ARSIC is co-
        chaired by the Chief of Training Simulations, Office of the 
        Deputy Chief of Staff for Operations and Plans (ODCSOPs) and 
        the Director of Environmental Programs, Office of the Assistant 
        Chief of Staff for Installation Management (OACSIM). The ARSIC 
        mission statement is as follows:

        The Army Range Sustainment Integration Council (ARSIC) is a 
        HQDA level Council of Colonels and Integrated Process Team that 
        supports Army sustainable range management by developing 
        recommendations for policy, positions, and action plans, and by 
        coordinating, integrating and focusing the Army's many 
        activities related to sustainable range management.

        <bullet> The Active/Inactive Range Inventory: Begun in August 
        2000, this effort is managed by the Army Environmental Center, 
        under the direction of the ACSIM, and supported by the Training 
        Directorate, ODCSOPS. This inventory will provide a ``ground-
        truth'' baseline of the Army's extensive range infrastructure. 
        It will be a foundation element of the Army's SRM plan.
        <bullet> The Army's Sustainable Range Management Plan is being 
        developed under the direction of the ARSIC. This plan will 
        evolve to a new training Army Regulation that will describe the 
        range management interfaces between training facility and 
        environmental programs.
        <bullet> Implementation timeline:

                <bullet> September 1: Draft HQDA Level Sustainable 
                Range Plan.
                <bullet> September 1--September 2: Convert HQDA SRM 
                Plan to Army Regulation in 350 series (replaces AR 210-
                21, Range and Training Land Program, and AR 350-4, 
                Integrated Training Area Management). Supplement new AR 
                with Department of the Army Pamphlet (DA PAM).
                <bullet> October 1--September 2: MACOMs and 
                installations implement IAW HQDA plan and commanders' 
                guidance.
                <bullet> December 1-May 2: SRM reflected in Army POM 
                for fiscal year 2004-2009).
                <bullet> October 3 (+): Full implementation IAW fiscal 
                year 2004-2009 POM.

    Senator Bunning. Thank you. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Bunning.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I am very concerned about what you might highlight as 
communications, and I think that was alluded to in your 
testimony, and particularly communications between the Armed 
Services and the people in the area where the training is being 
carried out.
    For the record, I would like to ask this question of all of 
you as to your intentions as you meet these challenges, and 
that is, would you agree that one of your foremost objectives 
addressing the issues before us today is to work as closely as 
possible with local communities to address legitimate concerns 
and ensure that we do not find ourselves at odds as we are 
finding in the Vieques situation? Would you agree that this 
would be our foremost objective?
    Admiral Amerault. I will start, Senator. That would be 
absolutely the desire, our desire, and we are committed to try 
and do that to the maximum extent possible, and I think we will 
do it and continue to do it.
    Our commitment, of course, has to be to our sailors and 
marines, but we will, and will continue to interface with the 
local communities to the maximum extent possible and to try to 
interface with the regulators to come to agreed-upon work-
arounds where they do not so severely impact training that it 
is not worth doing, and then we will still try to work that 
out, but we may have to go different ways to do that.
    General Hanlon. Senator, I would like you to know this is 
something we work on very, very hard at Camp Pendleton and all 
of our western bases. Our community outreach is significant and 
substantial.
    As an example, sir, I spend a great deal of my time 
speaking to chambers of commerce, rotaries, any kind of 
community organizations at all that need to get a briefing or 
find out what is going on not just at Camp Pendleton but in our 
other bases around us. I have my staff out and about all the 
time doing it.
    We have a couple of briefs that we have put together over 
the last few years that we have given to the Southern 
California Association of Governments. We have given it to the 
Western Council of Governments, to the California Biodiversity 
Council, to anybody and everybody, to go ahead and explain not 
only what our mission is and our purpose for the American 
people, but to explain our challenges we have in being able to 
do our mission and how we need their support.
    I mentioned earlier we have a wonderful arrangement now 
with the State of California. The current Governor and his 
administration have really reached out to the Department of 
Defense in that state to see what they can do in terms of how 
they write their own state legislation, in terms of making it 
more, if I could use this term, DOD friendly, and we have an 
active dialogue with them.
    In fact, I have one of my senior civilians who actually 
works as a liaison from me to Sacramento, spends a lot of time 
going back and forth talking to the leadership of the state, 
and the legislature, to work these things out. They have put 
together, the Governor has put together, along with the state 
legislature, a committee they call the California Defense 
Retention and Conversion Committee, which brings together a lot 
of the leadership from the state and ex officio members of each 
of the four services to get together and talk about 
communication issues and many other things.
    So it is something we work on very, very hard, sir, and I 
will tell you, when I say it is continuous, it is something you 
can never stop doing. You have to continually be out there 
talking about your message, because elections come, new folks 
come in, and there are always new questions that come up, but 
the result of this I think is very positive.
    In the case of Camp Pendleton I am not going to sit here 
and pretend that I can tell you what percentage of people 
support us and do not, but I can tell you the overwhelming 
number of people in the community in both Orange and San Diego 
County are very supportive of who we are and what we do, and so 
I think your question is an excellent one, and it is something 
we will continue to do very hard, sir.
    General Van Antwerp. Sir, the Army is very committed to 
community outreach and to the community involvement portion of 
this. Some lessons we have learned from the Massachusetts 
Military Reservation which we are exporting has to do with 
these very things.
    Up there, we have had multiple public meetings. We have 
found that that is absolutely essential, and we are exporting 
that to other places where we have issues, whether it be Clean 
Water Act issues or any of the regulatory issues.
    We have embedded this in our training plan. We have a 
couple of courses we run, one for installation commanders, one 
for garrison commanders and sergeant majors, and we have 
embedded the community outreach and community involvement 
training in those.
    At the MMR we found that newsletters and fact sheets on our 
web site were very effective in communicating as new things 
were found and came up, so we are embedding that across the 
country as we have other sites that have possible controversial 
issues.
    Then finally we are taking that to the local schools. In 
addition to the forums you would think, the rotaries and 
others, and with the community folks, we are also taking it to 
the schools, so there is a strong understanding from both 
educators--we have two points there, to get the educators, but 
also to get the children involved so they understand what we 
do, and why we need to train, and foster that good 
relationship.
    So we are absolutely committed, as are my colleagues here.
    General Buchanan. Senator, I would just echo my colleagues 
and only add one further comment. One of the things that--I had 
a recruiting service some time years ago, and now, being the 
commander out there, what we have all seen since the demise of 
the draft is an ever-deeply receding percentage of our American 
society that has ever spent time in uniform, and so it is more 
incumbent than ever today that we in the military make an 
effort to make sure we educate those that we are sworn to 
defend, and make sure that they understand what the men and 
women in uniform do for them day-in and day-out.
    So all of us are engaged as much as we possibly can in the 
surrounding communities and elsewhere to make sure that they 
are aware of the capabilities and what their militaries are 
doing for them day-in and day-out.
    Senator Akaka. Thank you very much to all of you. I am so 
glad to hear what you said, and your commitment towards working 
with the communities, and I believe, with you, that this is the 
way to go, and as the understanding becomes evident, agreement 
usually comes with that also.
    My time is up, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Akaka. Let me just say 
that it is very significant in the BRAC process, the base 
realignment and closure process. One of the eight criteria is 
community support, and I know that certainly in the case of my 
five installations in Oklahoma they have always had the highest 
ranking on that. I mean, this is the area where they do go out 
and they make their speeches.
    I think very likely we had a problem surface in Vieques 
where that was not being done as much as it should have been, 
and that has corrected now.
    We have a lot of things that we have not talked about, and 
I have a couple of things to bring up. General Buchanan, with 
the readiness crisis that we are facing in this country--I am 
talking about troop strength, quality of life--we have serious 
problems. One that most people are not aware of is in our 
modernization program.
    I was very proud of General John Jumper about a year ago, 
who came out and said that the SU series, SU-30 to SU-37--37 is 
not even out yet, but 27 and 30, were actually better than 
anything that we had in air-to-air and air-to-ground combat 
already, so that makes me very much concerned about the joint 
strike fighter and the F-22 programs.
    Now, they could be impacted by encroachment also, both in 
emissions and noise Do you see that their rapid development 
could be impacted in terms of where they are being located and 
so forth?
    General Buchanan. Yes, sir, very definitely.
    As you probably know, the joint strike fighter right now, 
the F-119 engine as it is, unfortunately has a higher 
particulate matter and nitrous oxide rating than most of the 
100-229 have right now, although it is cleaner in some 
respects.
    But as we move into the next generation fighters, the 
performance that is required to be able to prevail in combat 
demands that the contractor deliver that kind of performance--
and you are absolutely right, when it comes to beddown the 
joint program office or the JSF right now is overseeing a 
survey, taking a look at bases CONUS-wide to where we can begin 
to beddown, not just for the Air Force but for all services, 
and one of the big determining factors quite obviously is going 
to be environmental.
    I will tell you right now that as you look at the air bases 
that have the infrastructure in place, that have the ranges in 
close proximity, all the things that you would like to have to 
be able to train on the joint strike fighter, each one of them 
is an area where it is in a nonattainment area or it is close 
to it and requires some kind of tradeoff as we begin to bed 
down the airplanes, or possibly obtain credits one way or 
another, but you are absolutely right, as we go to bed down the 
JSF's this is going to be a problem.
    Senator Inhofe. Are you working on that now with both of 
these vehicles and trying to anticipate those problems so we 
can hopefully resolve them before it is critical?
    General Buchanan. Yes, sir. As a matter of fact, there is a 
DOD group and we have been directed to go back and see if there 
is a way to try and make the F-119 engine cleaner. However, 
there is no way we are going to be able to alleviate all of the 
environmental problems, both noise and pollutants, that come 
with the engine itself, but there is an ongoing effort to do 
that, and it is one of our planning parameters right from the 
very beginning, so that is something we are going to try and 
find an offset for as we begin to bed it down.
    Senator Inhofe. For General Van Antwerp and General Hanlon, 
in my personal visits to a lot of the training areas, and ones 
that come to mind right now are Bragg and LeJeune, they 
actually have Harriers out there where they have--this is the 
red-cockaded woodpecker, and they have ribbons around the 
trees. Tell us how that impacts the quality of training that 
you are trying to achieve in your various installations.
    General Hanlon. Sir, if I may, General Nash, if you would 
put that one chart up for me--I am going to put a chart up and 
tell you a little bit about--the one that shows the 57 percent, 
that one right there. Why don't you show that. I do not know, 
can you see that, Mr. Chairman, or not?
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    I brought this particular graphic to show what the impact 
of what critical habitat could have on a base like Camp 
Pendleton. The parameters of the base, 125,000 acres, goes from 
the Pacific Ocean right here all the way up, close to 2,000 
feet up in the Cleveland National Forest here to the east of 
us, a great base, 85 percent undeveloped. This is important in 
southern California--most everything else is developed--so when 
you drive along the Interstate between Los Angeles and San 
Diego, when you go through that one beautiful open spot, that 
kind of looks like what California used to look like, then you 
are aboard Camp Pendleton.
    I point this out to you, sir, because 85 percent of the 
base is purposely not developed, because that is where we 
train.
    Now, this graphic right here, the 57 percent shows what 
would have happened if the critical habitat of the fairy 
shrimp, the California gnat-catcher, and the arroyo toad had, 
in fact, taken place aboard Camp Pendleton over the last few 
months.
    First of all, let me for the record say, sir, the Fish and 
Wildlife Service was able to get us an exclusion, but right now 
my understanding is we are being sued, and if, depending upon 
how that particular litigation goes, it may end up that we are 
not able to be excluded under the critical habitat, which would 
mean that 57 percent of our base would have critical habitat 
for some of these species.
    The areas in white would be all that would be remaining for 
us in terms of having unencumbered training. The hash mark 
areas would be critical habitat, and that critical habitat 
would be areas in which we would have to consult and get 
permission to be able to go and train, and it would be time-
consuming, and we would not be able to do the kinds of training 
that we would want to do.
    Now, currently this number is at 10 percent, because of the 
exclusions, but the point I want to make here is, this is what 
can happen when critical habitat gets overlaid on the base like 
his, and the other thing I want to point out is that there are 
many other species coming down the pike. San Diego County has, 
I think, the highest percentage of endangered species in the 
United States, and all of southern California, because of 
development and because the environment, and the habitat of 
many of these creatures have been destroyed. A place like Camp 
Pendleton, of course, is looked at as a place to become a 
refuge, and we are concerned that in the future there will be 
even more species that will be identified by the service, that 
they will come looking to us for critical habitat.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Our whole point of this, Mr. Chairman, is that we 
understand that we are going to have to do our fair share to 
protect the species. We understand that, but we are hoping that 
through the use of our Integrated Natural Resources Management 
Plan that we want to get to under the Sikes Act, that we will 
be able to show that we have got a plan that we can go ahead 
and manage our property, take care of our species, at the same 
time do the unencumbered training of marines we feel we need to 
do.
    So this graphic was the best way I could kind of show you 
on a base the size of Camp Pendleton, 125,000 acres, the impact 
of something like critical habitat.
    Senator Inhofe. OK, but part of the question is, let us 
assume that you are not going to be able to get these waivers. 
How does that impact the quality of training? Is there a way to 
quantify that?
    General Hanlon. There is, sir. Well, I am sure there is a 
way that you could quantify it. I will give you an example of a 
conversation I had just before I came out here with the 
commanding officer of the 13th MEU just returned from the 
deployment to the Persian Gulf. They were there when the Cole 
was bombed and what-have-you.
    A year ago in March they were in the final stages of their 
training to deploy. One of the evolutions that they were 
supposed to go through was an amphibious assault involving 
their light armored vehicles coming in a Landing Craft Air 
Cushioned (LCAC) to take an infantry unit ashore at night to 
move in and go ahead and seize an objective. Because of the 
time of year, because of the habitat and the breeding taking 
place along our beaches, beaches were unavailable for them to 
go ahead and make this amphibious landing.
    What they had to do, sir, was, they had to make an 
administrative landing in the LCAC, take the air-cushioned 
vehicles into the concrete ramp, which is the base of the LCAC. 
They had to drive out, administratively drive up a road, go 
into the training areas until they got out of the beach, out of 
the critical habitat areas, and then go ahead and do the 
training.
    My point to you on this, sir, was that unit commander did 
not have an opportunity to put his unit across the beach and go 
through the kinds of training that they would have to do to 
prepare themselves to go across a hostile beach, or some beach 
somewhere in the world that they would have to deploy. They did 
not do that, and so I think what that does is, that is a 
degradation of training. He was not able to train his unit to 
do that particular evolution the way he should have, and there 
are many more like that, sir. That is just one example.
    Senator Inhofe. General Van Antwerp.
    General Van Antwerp. Sir, I would say that briefly it does 
introduce artificial issues into the training. I will just give 
you--for the red-cockaded woodpecker at Fort Bragg, first of 
all you cannot drive a vehicle within 50 feet of a cavity tree, 
a tree that is marked as you have said. You have seen how they 
mark for the red-cockaded woodpecker.
    Also, you cannot establish a fixed position within 200 feet 
of that same cavity. You cannot do multiple rocket-launch 
firings or other firings within that buffer zone, and so what 
you have created is a lot of islands out there where these 
cavity trees are as you draw the concentric circles around 
them, and you have to manage that as you are doing your 
training, so it creates that you do not position your force 
exactly like you would like to. You have introduced this 
artificial constraint to it, and so I think that, does it 
impact the quality, absolutely it does.
    Senator Inhofe. Senator Akaka, did you have anything 
further?
    Senator Akaka. Thank you, Mr. Chairman.
    Again, I want to thank you for the agreement you mentioned 
in my last round. In Hawaii, we have an issue with military 
training in an area called Makua Valley, and that is a valley 
that is rich in cultural heritage. The Army has been using that 
for many years, and the Army voluntarily suspended training on 
the range after a fire in 1998 that burned the valley, and is 
now working to address a wide range of community concerns with 
a 14-point plan, and it is a great plan that they are working 
on with the community.
    Now, Major General James Dubik, the commanding general for 
the 25th Infantry Division, and his staff, have done a lot of 
work with the community in an effort to resolve this issue. 
They are still working on it. They are working with the 
community very closely, and we hope that they can come to some 
agreement soon, but this reveals exactly what you are 
committing to, or agreeing to here, working with the community 
and their concerns, and in this case consulting with them 
because of the rich cultural heritage of that valley. We hope 
that the agreement can come about soon.
    I would like to switch to something that is environmental, 
and this may be my last question, Mr. Chairman. I understand 
that the Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are 
already out of compliance and subject to an enforcement action, 
and those that will be out of compliance before the next budget 
cycle.
    Now, the question is, what impact would it have on your 
ability to address the environmental issues that you have 
raised today if the administration or Congress would have 
substantially reduced the amount of money available for 
environmental compliance? Admiral.
    Admiral Amerault. Yes, sir. It would have a severe impact, 
because you have correctly stated, because of--I was the Navy 
budget officer at one time, so this is a near and dear question 
to my heart. We have fiscal difficulties as it is with our 
operation and maintenance budgets for training and readiness.
    We only make priorities such as the first priority being 
something that is out of compliance, the next priority being 
something that is about to go out of compliance and so forth, 
because of the constraints on environmental budget now, so that 
if we had further constraints on it, it would certainly be 
something that would preclude the kinds of things we would like 
to do to be good stewards of the environment on our ranges and 
bases, and it would upset any or many of the outreach programs 
we would like to entertain, as you have mentioned, so we would 
like to see the environmental budget stay at least what it is, 
I think.
    General Van Antwerp. Sir, I would say you are correct in 
that what we are able to fund up to this point is our must 
funds, which are those things which are already out of 
compliance, or those things that we feel will be out of 
compliance during that budget year, that there is not more room 
for the preventive things that I think we all want to do to get 
out ahead of it, and that would take an increase in funding in 
this area, and we just do not have the top line room to do 
that.
    Sir, I might mention on Makua Valley that we did have a 
formal consultation with the Fish and Wildlife Service. It 
looks like there will be agreement probably made pretty soon. 
We are working on the final aspects to develop a fire control 
plan, if you will, and it looks like possibly we will have to 
limit the size of the unit's exercising there to company size, 
but I think that there should be an agreement in the offing 
pretty soon.
    Senator Akaka. Well, I thank you very much for your 
responses.
    Mr. Chairman, I do have other questions, but I will submit 
them for the record.
    Senator Inhofe. Yes. We will leave the record open for 3 
days for questions. There are some things we have not talked 
about. One is the BRAC process, as we alluded to it very 
briefly, but things like this do not happen in a vacuum.
    As you go through that process, I am sure that encroachment 
is going to become a very significant part of base closure. I 
mean, some things are obvious, Vieques, obviously. If we were 
unable to use that for training as a live range, it would 
ultimately result in the closing of Roosevelt Roads, Fort 
Buchanan, and some of the other operations.
    I think, though, that for our purposes that we need to be 
looking--and when you are talking about excess infrastructure, 
I think we need to keep in mind that that excess infrastructure 
is not going to be in a vacuum, too. We have other areas where 
new regulations, new species to be protected, new emissions 
controls are going to come in and it is going to dramatically 
affect what happens to our future infrastructure.
    We have gone 10 minutes time past--we were supposed to 
close this down. Is there anything that any one of you is just 
dying to share with us? [Laughter.]
    Admiral Amerault. I want to thank you for taking an 
interest in this arena, because if, in fact, communities do not 
want us to train the way we fight, it is very difficult for us 
sometimes to get through the courts and the other avenues that 
we have to maintain the ability, and we do not want to become a 
pariah on society. We want to have a recognition, we hope, for 
the contributions to the national defense and its proper 
relationship with the environment.
    Senator Inhofe. That is a good point, and in my State of 
Oklahoma we have Fort Sill, where you compare, for example, 
Vieques and Fort Sill, the live ranges, we have always had ours 
open twice as many days of the year, more ordnance, bigger 
ordnance, and yet the people there, a population not of 9,400 
like on Vieques, but of 100,000 people, closer to the range 
than the people in Vieques are, and yet they say it is the 
sound of freedom.
    Admiral Amerault. Sir, war, major war is an extreme blight 
on the environment. If you look at pictures of the way the 
Civil War left Northern Virginia, very close to here, the way 
the First World War left France, you can still see the trenches 
in some place, and from the air, it permanently changed the 
landscape in France. World War II, Vietnam with the defoliation 
and so forth.
    These are tremendous environmental disasters. We would like 
to think that the readiness that we represent is something that 
prevents, we hope, in the nature of what happened in the Cold 
War, war from occurring, so potentially--it may be a stretch, 
but perhaps this is an investment in preventing something like 
that.
    Senator Inhofe. I do not think it is a stretch at all, if 
you get into war-torn areas and see what has happened to the 
environment. Any of the rest of you?
    General Buchanan. Sir, if I may, I would like to kind of 
tee off of your comment on the SU-35, 37 versus the F-15. Today 
I have the good fortune and great privilege as a part of coming 
here to have been the commander of Tyndall Air Force Base, 
which you probably know is where we train all of our new F-15C 
air superiority fighter pilots.
    As such, I was blessed with a very, very supportive 
community, and despite the fact that I, too, had my challenges 
with the environment and the surrounding areas, we found work-
around, so I can honestly say there was almost no impact on the 
training we had, but I was blessed with a supersonic training 
area, as I mentioned, within just miles of the coast, where our 
pilots were able to train like they were going to fight.
    They were putting high G's on the jet. They were able to 
use chaff and flares, and at the same time, too, they were able 
to fly down low over land in our overland training area as 
well, and as we move into the future we find our men and women 
that go into combat meeting technologies that are equal, in 
some cases superior because we have not been able to maintain 
the technological edge we would like to provide our young men 
and women.
    It is my personal view that it is only the training that we 
provide them day-in and day-out that is going to make that 
difference in combat, because for years we have talked about 
the potential threat we have had out there. Well, they have had 
very capable systems, but what we have found quite honestly in 
the past has been that when we are able to open up the doors 
when we were able to kind of take a look at the way they were 
training to deploy those systems, no one knew how to deploy 
them better than the American fighting man and woman. Quite 
honestly, I think we have to maintain this edge, because that 
is what is making the difference today.
    Senator Inhofe. Thank you very much. Any other comments?
    General Van Antwerp. Sir, I would say for us it is all 
about maintaining the edge, and the more frequently you can do 
the things we need to do in our maneuver areas and our live-
fire, that is what maintains the edge, and there is no 
substitute for it.
    General Hanlon. Mr. Chairman, thank you. As a sitting base 
commander dealing with these issues every day, I just want to 
say how much I really appreciate you and the other members of 
this committee taking time to hear us out. I was just talking 
about this with my staff last night, sir, saying in 3 years we 
have come a long way, that we are able to get it up to your 
level.
    I think it is so important, because I am just concerned, 
sir, that if we do not get it to the attention of Congress, 
then we will continue to see court actions that will decide 
what we can do or cannot do on our base, and I do not think 
that was ever the intention, sir, of Congress, and I just thank 
you for taking the time to hear us out and to help us, because 
we certainly need it.
    Senator Inhofe. This is the whole reason for having this. 
We appreciate so much your bringing it. Several times you have 
said, we need your help, and we have to tell you that we need 
your help, too, to come up with the solutions to these 
problems. We are already working on some, and it is something 
we are going to have to work harder on, and we will be 
depending upon all of you.
    Thank you very much. This concludes our hearing.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                           range encroachment
    1. Senator Inhofe. Major General Van Antwerp, Vice Admiral 
Amerault, Major General Buchanan, and Major General Hanlon, the Senior 
Readiness Oversight Council identified a series of encroachment issues 
that adversely impact military readiness: endangered species and 
critical habitats; unexploded ordnance and other constituents; maritime 
sustainability; airspace use; air quality; airborne noise; and urban 
growth. Based on the testimony provided by the services at the hearing 
on March 20, 2001, it appears that the time is ripe for the development 
and implementation of a comprehensive strategy that addresses both the 
individual and the cumulative effects of these issues.
    What specific actions have the military services taken in relation 
to the development and implementation of a comprehensive strategy 
intended to address readiness concerns related to these encroachment 
issues?
    What recommendations will the military services make regarding 
further actions in this area?
    General Van Antwerp. The Army's comprehensive effort to ensure 
readiness and minimize impacts of encroachment is the Sustainable Range 
Management (SRM) initiative. The objective of SRM is to maximize the 
capability, availability, and accessibility of ranges and training land 
to support doctrinal training and testing requirements. SRM is based on 
three tenets: (1) Develop and Maintain Scientifically Defensible Data. 
We must have complete data on all aspects of our ranges--their 
operational characteristics as training facilities, their physical 
characteristics as real property, and their characteristics as part of 
the natural and cultural environment; (2) Integrate Management across 
the four disciplines that directly affect ranges: range operations and 
modernization, facilities and installation management, explosives 
safety management, and environmental management; and (3) Establish an 
Outreach Campaign--to inform and address the concerns of the community 
so all may gain an understanding of why the Army must conduct training 
and testing, and how we are moving to a more sophisticated management 
approach to ensure that the public's concerns are addressed. The Army 
Deputy Chief of Staff for Operations and Plans (DCSOPs) leads this 
initiative and is working with my office and other Army organizations 
to develop and implement SRM. We anticipate that SRM will lead to a 
better understanding of our training and testing activities, both 
within and outside the military. SRM will promote a more informed 
dialogue when weighing national security and environmental 
requirements.
    Part of environmental management, and therefore part of SRM, is the 
Army's natural resource management program. Currently, the Army plans 
for natural resource management through development of its Integrated 
Natural Resource Management Plans (INRMPs), pursuant to the Sikes Act. 
Army policy goes further than minimal statutory compliance, however, by 
requiring installations to prepare Endangered Species Management Plans 
(ESMPs) wherever listed or proposed species or designated critical 
habitat exist on an installation. Neither the Sikes Act nor the 
Endangered Species Act (ESA) requires ESMPs. These plans are developed 
in consultation with the U.S. Fish and Wildlife Service, as well as 
with state fish and game agencies. The Army is working with the U.S. 
Fish and Wildlife Service and state fish and game agencies to finish 
the first set of INRMPs and ESMPs. These plans form the basis for 
managing the natural resources that compose the Army's training ranges. 
We believe that this component of SRM will contribute significantly to 
lessen encroachment impacts.
    The Army recommends that Congress support and resource 
implementation of the Army's SRM initiative. SRM is the foundation for 
assuring continued live training and environmental stewardship on our 
ranges. We will continue to improve range operations, range 
modernization, state-of-the-art land management, research regarding the 
effects of munitions constituents, UXO management, and public outreach.
    We also recommend that Congress support and encourage cooperation 
among regulators and the military in ways that emphasize the need to 
harmonize military readiness and environmental concerns. The Army 
believes that Congress should continue to recognize that Army readiness 
is a positive societal good and a legal mandate. Defense of our Nation 
is an important requirement that benefits all citizens. I strongly 
believe there are effective ways to harmonize the needs of the military 
with the needs of the environment, and I firmly believe it is in our 
Nation's best interest to do so.
    Admiral Amerault. Navy has nearly completed its ongoing efforts to 
develop a comprehensive strategy that identifies our core ranges and 
operations areas, and defines the initiatives needed to sustain or 
expand our access to them. The strategy consists of a roadmap that 
links range requirements and capabilities to readiness; determines 
readiness impacts and alternatives when a range becomes unavailable; 
minimizes encroachment impacts via sustainable action plans; reaches 
out to neighboring communities; emphasizes opportunities for mitigation 
to reduce or avoid impacts; and formalizes a Training Range 
Organizational structure.
    The Navy Training Range Roadmap outlines our strategy to train 
while protecting the environment to the maximum extent practicable. 
Navy needs congressional support to ensure that an appropriate balance 
is struck between military readiness requirements and environmental 
protection concerns when environmental laws and regulations are applied 
to military unique training activities and fleet operations.
    General Buchanan. Under the auspices of the Defense Test and 
Training Steering Group (DTTSG), DOD has established a Sustainable 
Range Working Group. This group is chartered to work all areas of range 
sustainability. It is in the process of developing action plans on 
various encroachment areas, to include endangered species, unexploded 
ordnance, air quality regulations, maritime encroachment, noise, 
national airspace redesign, frequency encroachment, and urban growth. 
It also includes development of an outreach program. We also recognize 
the need for an outreach program that educates our national, regional, 
and community stakeholders while incorporating their inputs. Conducting 
these activities will lead to a greater recognition of DOD's mission 
and need for military ranges and an acceptance that communities and 
military installations can co-exist.
    General Hanlon. Through the Senior Readiness Oversight Council 
(SROC), the services are developing coordinated action plans to address 
various aspects of encroachment.
    In concert with development of these action plans, the Marine Corps 
has a three-fold strategy to address encroachment:
    Public outreach and engagement: It is in our best interests to 
reach outside the fence and actively engage regulatory agencies and our 
neighbors, educate them on our mission and operations in support of 
readiness, work to understand their concerns, and develop working 
relationships built on respect to limit or prevent encroachment 
pressures. The Marine Corps is engaging encroachment issues at all 
levels of government and with the public. For example, we have 
initiated constructive dialog with state governments such as 
California's Defense Retention and Conversion Council. Through this 
forum, the Marine Corps has been able to articulate ways to reduce 
encroachment while improving the viability of the installations, 
ranges, and training areas. Another example of our engagement efforts 
is our work with members of the Endangered Species Coalition, an 
umbrella organization consisting of environmental advocacy groups 
concerned about endangered species. Many of the coalition's members 
have sued the Marine Corps over environmental issues. However, they 
understand that for many ecosystems, military lands are the only 
undeveloped lands left. Though they don't always agree with our 
activities due to their endangered species concerns, they are impressed 
with our stewardship record. They are interested in forming a strategic 
alliance with us to help keep undeveloped lands in their natural state. 
Achieving this mutually beneficial goal will limit additional 
urbanization around our installations. It also builds support for our 
military land use and stewardship efforts, while reducing friction and 
litigation.
    Legislative clarification and consideration: We are asking this 
Congress to re-evaluate many laws governing environmental protection. 
The Marine Corps is not asking for a rollback of these laws. We have 
been innovative in meeting our compliance requirements, while 
addressing our readiness needs. We are doing much to protect the 
environment. We fully acknowledge our environmental responsibilities, 
however, we have a nonnegotiable contract with the American people to 
properly train their sons and daughters. We are increasingly being 
asked to shoulder a disproportionate share of environmental protection 
while still meeting our readiness commitment to the citizens of our 
country. The unique nature of military activities must be considered 
when developing or reauthorizing these laws. The Marine Corps' national 
security responsibilities under Title 10 must be acknowledged in 
development and implementation of regulations. This will also benefit 
the regulatory community by allowing them the flexibility to weigh the 
value of good stewardship offered through our land management practices 
in their enforcement of laws and regulations (Title 32).
    Acquire real property interests: The Marine Corps needs to acquire 
additional land around some of our installations and ranges to protect 
them from additional urbanization pressures. This can be accomplished 
via real property acquisition or in partnership with other 
organizations or non-profit groups that will manage the land in a 
natural state for their ``green space'' goals while also serving for us 
as a buffer zone against urbanization.

                          unexploded ordnance
    2. Senator Inhofe. Major General Van Antwerp, Vice Admiral 
Amerault, Major General Buchanan, and Major General Hanlon, unexploded 
ordnance and other by-products of test and training activities can 
cause environmental contamination and safety concerns that may trigger 
restrictions on military testing and training. I am aware of the 
training restrictions in place at Massachusetts Military Reservation.
    What other installations are vulnerable to such restrictions?
    How feasible is it to relocate training activities in response to 
restrictions that may occur at major training facilities?
    What is the current technology challenge in resolving this problem?
    What research and development (R&D) priorities have been identified 
in this area?
    General Van Antwerp. All Army installations, training areas, and 
range operations are vulnerable to imposition of environmentally-based 
restrictions on training activities. Because our units train with 
numerous and diverse weapons on thousands of ranges, the potential for 
unilateral administrative cease-fire orders exists Army wide. At the 
Massachusetts Military Reservation, EPA exercised very powerful, 
discretionary authority under the Safe Drinking Water Act and the 
Resource Conservation and Recovery Act. The use of environmental 
regulation to curtail training activities must have a scientific basis. 
Unilateral orders to stop firing while we investigate these challenging 
issues will adversely impact readiness. A more balanced approach is 
warranted. Such an approach should ensure that national security 
concerns, as well as environmental stewardship interests, are weighed 
by policy makers whose interests and perspectives are broad.
    Encroachment has diminished the amount of land available for 
training, while at the same time training requirements have increased. 
Relocation of training activities within a given installation to meet 
environmental compliance requirements has become increasingly 
difficult. Environmental restrictions exist throughout installations, 
and if a training operation is moved from one area of an installation 
to another, this normally triggers other environmental issues.
    Relocating training from one major training installation to another 
is also very difficult--and costly. Physically moving personnel and 
equipment to another installation is expensive and displaces training 
activities at the alternate site. It also increases personnel tempo 
(PERSTEMPO) adding to the ``deployed'' time of Army personnel--a known 
morale and retention disincentive. Most major training installations 
are equipped with ranges designed and constructed specifically to meet 
the requirements of the forces assigned to that installation. Even in 
instances where another major training installation or a number of 
smaller facilities are located within a few hundred miles, it is 
unlikely that these alternate sites are equipped with appropriate 
ranges or could accommodate the additional training load in their 
already tight schedules. The dramatic increase in training load would 
trigger requirements under the National Environmental Policy Act to 
assess environmental impacts to the alternative training site. This 
process would increase lag time, further restrict training, and 
potentially result in litigation against the Army.
    I would also like to address a serious challenge concerning recent 
regulatory actions on ranges--explosives safety decision-making. The 
Army is very concerned that environmental regulators, who lack both 
training and experience in explosives safety and munitions response, 
are using environmental laws to take actions that our explosives safety 
experts believe are unsafe to themselves and/or the public. DOD's 
authority and responsibility for explosives safety decision-making 
should be reaffirmed.
    Given the potential consequences of an explosives incident, the 
Army believes that explosives safety considerations must be fully 
integrated into the decision process for response actions involving 
military munitions, to include UXO, munitions constituents, and other 
constituents of concern. We also believe that DOD personnel, 
particularly those responsible for handling response actions involving 
explosives safety hazards, are the best qualified to make decisions 
about the safety of a proposed response action. We must ensure that any 
action involving military munitions first be safe from an explosives 
safety hazard standpoint. As such, the Army cannot implement any 
response action that, in the judgment of DOD's explosives safety 
experts, presents an unreasonable risk of death or serious injury to 
anyone, including DOD and regulatory personnel. Therefore, we strongly 
believe that explosives safety should be paramount in the determination 
of how environmental statutes and regulations will be applied and 
implemented for response actions involving munitions.
    As for the scientific community, technical understanding regarding 
the linkage between range training activities and environmental risk 
remains the single most important challenge. As a result, the Army's 
scientific community is focused on gaining the requisite data and 
information to make sound, valid determinations of the risk from 
environmental hazards associated with training.
    In terms of prioritization, the Army derives environmental quality 
technology requirements from an iterative, bottom-up formulated, and 
top-down driven process called the Army Environmental Requirements and 
Technology Assessments process. This robust and vigorous prioritization 
process captured early the need for research in this area. As a result, 
the following three funded programs of particular note are ongoing: 
Unexploded Ordnance (UXO) Identification and Discrimination, Hazardous/
Risk Assessment Tools for Military Unique Compounds, and Sustainable 
Army Live-Fire Range Design and Maintenance. As the names imply, these 
programs attack the problem from three directions--risk assessment of 
military unique compounds, identification of UXO, and the 
sustainability of training ranges.
    Admiral Amerault. All of our test and training ranges and 
installations are subject to statutory and regulatory requirements that 
have the potential to inhibit our ability to conduct realistic test, 
evaluation and training activities. We are currently developing a 
protocol that will be applied uniformly across all Navy ranges to: (1) 
evaluate the current environmental health of those facilities; (2) 
ensure range operations do not pose an imminent and substantial 
endangerment to human health or the environment; and (3) identify how 
existing legal requirements could potentially affect their use.
    We are engaged in a detailed analysis of the potential for using 
alternative sites if use of our major training facilities is restricted 
in the future. From our experience in seeking alternatives to 
compensate for restrictions on our use of Vieques, we already know that 
finding sites that adequately meet our mission readiness requirements 
is extremely difficult. Many alternative sites can provide some, but 
not all, of the training required. Others are just not able to support 
the train-as-we-fight reality that our major ranges are capable of due 
to their location, geography, lack of instrumentation, distance from 
the sea, or other limitations. Some of our existing ranges would be 
hard pressed to absorb additional training activities relocated from 
Vieques.
    Overseas ranges do not necessarily provide a viable alternative if 
U.S. ranges are restricted. For example, the Pacific Fleet has only one 
U.S.-controlled range for live-fire training of forward deployed Naval 
forces, and no agreements that would guarantee us access to any 
foreign-controlled range. At this time, Pacific Fleet's ability to 
conduct readiness essential training on this range is subject to an 
ongoing lawsuit seeking to enjoin its use based on the Migratory Bird 
Treaty Act. This lawsuit, filed despite our full compliance with the 
National Environmental Policy Act and the Endangered Species Act, 
including consultations with the U.S. Fish and Wildlife Service, is a 
serious threat to the fleet's combat readiness.
    We face a variety of complex scientific and technological 
challenges in managing sites that potentially contain munitions or 
unexploded ordnance. Existing technology is unreliable. For example, 
field experience indicates that a high percentage (i.e. as much as 99 
percent) of the objects found in the course of a UXO response are non-
hazardous metal items. As a result, a significant portion of the cost 
of a UXO response stems from excavating these non-hazardous items. To 
address this challenge, DOD has invested in improving our understanding 
of the underlying geophysics and at advancing the capabilities of 
specific systems used in conducting UXO responses.
    The two principal R&D programs with investments in this area are 
the Strategic Environmental Research and Development Program (SERDP) 
and the Environmental Security Technology Certification Program 
(ESTCP). These DOD-sponsored programs work with the services, various 
regulatory agencies, industry representatives, leading universities, 
government and corporate research laboratories, and other stakeholders 
to determine specific areas for further investigation that appear to 
promise a high return-on-investment (ROI). SERDP and ESTCP are 
currently funding efforts to address the following:

        <bullet> Improving the science underlying UXO response 
        technologies (e.g. geophysics),
        <bullet> Developing more effective and efficient technologies 
        for conducting UXO responses,
        <bullet> Significantly increasing the probability of UXO 
        detection, and,
        <bullet> Increasing applicability of these systems to a diverse 
        set of geographic applications.

    General Buchanan. All Air Force ranges comply with applicable 
Federal and state environmental regulations, thus limiting our 
vulnerability.
    Relocation of Air Force test or training activities from one major 
training facility to another would be difficult. Each of our major 
ranges has unique capabilities not found on other ranges. There is 
little redundancy. For example, at Barry M. Goldwater Rang in Arizona, 
the combination of weather and target layout make it the ideal training 
range for F-16 and A-10 pilots. The Nevada Test and Training Range has 
instrumentation that allows us to evaluate advanced tactics and perform 
realistic large-force exercises. At Edwards, we have a large block of 
airspace that is heavily-instrumented for flight testing. Eglin AFB is 
also heavily instrumented for weapons testing, as is the Utah Test and 
Training Range. It would be a challenge to try to overlay the mission 
of any one of these ranges on another ran:,e.
    The Department of Defense (DOD) faces a number of complex 
scientific and technological challenges in dealing with sites 
potentially containing munitions or unexploded ordnance (UXO) like the 
Massachusetts Military Reservation. For example, field experience 
indicates that a high percentage (i.e., as much as 99 percent) of the 
objects found in the course of a UXO response activity are non-
hazardous metal items. Excavating these non-hazardous items contributes 
to a significant portion of the cost of UXO responses. To address this 
specific challenge, the DOD makes focused investments aimed at 
improving our understanding of the underlying science of UXO response 
technologies (e.g., geophysics) and advancing the capabilities of 
specific systems used in conducting UXO responses. Overall, DOD's UXO 
technology goals and developmental objectives seek an increase in the 
probability of detection, while significantly reducing the false alarm 
rate for conducting UXO responses.
    The Air Force in cooperation with Department of Defense and the 
other military services have identified high priority technology and 
requirements to detect, characterize, and remove unexploded ordnance 
(UXO), and to conduct fate, transport and effects studies. Other 
requirements include UXO-related human health and ecological risk 
assessments. Addressing these requirements will allow the military 
services to assess the impacts of UXO and other chemical residuals, and 
support development of appropriate cleanup technologies. These high 
priority requirements will also support the establishment of science-
based regulatory standards.
    General Hanlon. At the Massachusetts Military Reservation (MMR), 
the Environmental Protection Agency used their authorities under the 
Safe Drinking Water Act to restrict operations at the base. The MMR is 
located in the recharge area for a sole source groundwater aquifer that 
serves upper Cape Cod. Although none of our installations are located 
over such a sole source aquifer, this does not mean that Marine Corps 
installations are not vulnerable to restrictions similar to those 
imposed at MMR. Many of our installations use on-base groundwater or 
surface water as their source of drinking water and are therefore 
regulated under the Safe Drinking Water Act. In addition, our 
installations are vulnerable to training restrictions due to other 
environmental statutes (e.g., the Endangered Species Act, Resource 
Conservation and Recovery Act, Clean Air Act) and the numerous forms of 
urban encroachment (e.g., nose, airspace, frequency spectrum).
    The Marine Corps is not directly involved in the development of 
technologies for clearance or remediation of UXO. Although this 
research and development is accomplished by the other military 
services, the Marine Corps actively participates on the boards that 
functionally review these technologies. The Marine Corps is working 
with the other services to develop a process to evaluate environmental 
impacts at our active ranges. This evaluation will be used to identify 
scientific information gaps and our UXO technology needs to the 
research and development community.
    The Marine Corps is confronted with modifications to training on a 
daily basis due to a variety of restrictions placed on the utilization 
of training ranges. These modifications range from simple solutions, 
where local commanders adjust training due to restrictions emplaced to 
protect endangered species, to restrictions which have the potential to 
impact service-wide capabilities, such as restricting large scale, 
live-fire and maneuver exercises due to environmental and populace 
encroachment issues. Thus, a single, simple answer to the question is 
difficult to frame, and is wholly determined by the scale and impact on 
training overall. In those instances where local commanders can adjust 
training and still accomplish the training objectives, relocating 
training activities is easily accomplished. In those instances where 
major restrictions are placed on live-fire and maneuver, the relocation 
or adjustment of training could have a service-wide impact 
approximating the impact of a BRAC base closure.
    In all cases, while certain restrictions may reduce or eliminate 
the ability to train to full potential, the requirement to train never 
goes away. The Nation requires a corps of Marines ready to respond to 
any contingency at a moment's notice. This readiness is squarely based 
on the ability of our operating forces to train across the full 
spectrum of their capabilities.

           maritime operations, test, and training activities
    3. Senator Inhofe. Vice Admiral Amerault, maritime resource 
protection laws, executive orders, and interpretations of Federal and 
state regulations have affected the conduct of maritime operations, 
test, and training activities.
    How have fleet operations and training exercises been specifically 
impacted?
    What is the Navy doing to protect its readiness capability in 
relation to this issue?
    What are the problems with the statutory/regulatory framework?
    What is the Navy's research investment in this area and what has 
the research revealed?
    Admiral Amerault. Our ability to operate and train has been 
affected by many factors. In order to ensure full compliance with 
existing laws and regulations, we have reduced our number of training 
days, reduced our training realism and effectiveness by employing 
mitigating operational parameters (altitudes, airspeeds, profiles), and 
accepted temporary reductions in range access in order to protect 
natural resources.
    In addition to these impacts, we have experienced concomitant 
administrative and manpower costs resulting from decreased scheduling 
flexibility (to accommodate long lead times required to ensure legal 
compliance), increased flight hour costs, increased travel expenses and 
most importantly, increased time away from home for sailors during the 
18 month training cycle leading up to their 6 month overseas 
deployment.
    (a) Reduction in the number of available training days

        <bullet> Vieques--Navy has access to the range at Vieques under 
        existing Presidential Directives 90 days per year. Navy 
        currently has plans to train at Vieques for 55 days in 2001. In 
        1998, Navy trained at Vieques 197 days.
        <bullet> San Clemente Island (SCI) During the breeding season 
        for the San Clemente Loggerhead Shrike (February to August), 
        the Shore Bombardment Area (SHOBA) range is open to Fleet 
        training ONLY 3 days a week, because the other 4 days a week 
        the range is shutdown to allow biologists opportunity to 
        examine the Shrike. Moreover, the range is closed to training 
        whenever biologists are authorized access to the SHOBA range. 
        In fiscal year 2000 Biologists were in the field in SHOBA 
        portions of 322 days.

    (b) Decline in training realism as tactics are modified to comply 
with environmental laws.

        <bullet> Workarounds used by both the Atlantic and Pacific 
        Fleets in conducting training exercises include use of non-
        explosive ordnance, limiting some training to daylight hours, 
        and limiting use of illumination rounds during night bombing 
        and gunfire training.
        <bullet> On San Clemente Island nesting Shrikes are vulnerable 
        during the fire season, which runs from May to Jan/Feb (9 to 10 
        months/year). To protect the Shrike from the fire hazard, we 
        shrink the size of the two live-fire impact areas to provide a 
        buffer zone between Shrike nests and potential fire hazards. 
        Although small to begin with, one impact area is reduced 90 
        percent in size and the other 67 percent. This results in fewer 
        available targets. We also eliminate use of illumination rounds 
        and all Naval Gunfire Support training at night.

    (c) Accept temporary or permanent loss of range access.
    Restricted or temporary loss of access to a range and the 
subsequent requirement to seek alternatives or workarounds often 
results in increased training costs and reduced training realism and 
effectiveness.

        <bullet> NAB Coronado Beaches--NAB Coronado has recently been 
        designated critical habitat for the Western Snowy Plover and 
        the California Least Tern. As a ``work around'' to support the 
        recovery of these species, Navy physically marks nesting areas 
        and reschedules training to other areas during nesting season, 
        which runs from March to September.
        <bullet> Navy conducts an active predator control program on 
        its beaches to protect nesting birds. Adjacent non-DOD beaches, 
        which are also within the critical habitat boundaries, do not 
        have similar conservation programs in place. Our stewardship 
        has led to increased population counts for both species on Navy 
        beaches. Last year 40-50 percent of the beach area was lost to 
        nesting. We anticipate the beach area occupied by nests to 
        continue to increase each year for the foreseeable future.

    (d) Decreased scheduling flexibility/increases in costs.
    When Vieques has been unavailable for training deploying carrier 
battle groups, we have relied in part upon the range at Eglin Air Force 
Base, Florida, to accomplish required training. Use of the range at 
Eglin does not come without costs. There are additional time, manpower 
and fiscal costs to obtain the same level of readiness. Equally 
important is the fact that scheduling of Eglin ranges is beyond the 
control of Navy planners. As a result, Eglin's availability for 
training may not coincide with the carrier battle group's deployment 
training cycle.
    As the DOD Executive Agent for maritime sustainability, Navy is 
basing its actions on a four-pillar strategy: sound legal position; 
knowledge superiority; consistent policy and procedures; and education 
and engagement. We and the other services have taken the position that 
we must operate from a sound legal position. We intend to be expert in 
the subject area so that well-informed decisions are made during the 
planning for training, testing and operations. Key to our strategy is 
the implementation of policies and procedures that ensure consistency 
in environmental documentation and supporting technical methodologies. 
Finally, our strategy is designed to promote engagement with the public 
and regulatory agencies to make them aware of our environmental 
stewardship efforts, and to help them understand the nature and 
importance of DOD's National Security mission.
    Successful execution of our 4-pillar strategy mandates that we 
engage continuously with regulatory agencies and Congress to clarify 
the intent of current laws and regulations, and to ensure that future 
laws balance our national security mission with our environmental 
stewardship requirements. Consequently we have established working 
partnerships with other Federal agencies, and have engaged with them to 
address common challenges. For example, our partnerships with NOAA 
Fisheries, U.S. Fish and Wildlife Service, and the Marine Mammal 
Commission have resulted in a joint legislative proposal to amend the 
Marine Mammal Protection Act by clarifying the definition of 
``harassment.''
    The reach of existing environmental laws and regulations is very 
broad, extending beyond U.S. waters onto the high seas. Some of these 
laws and regulations lack clarity. The definition of harassment in the 
Marine Mammal Protection Act is one such example, as noted above. Other 
laws, like the Endangered Species Act, place protection of Endangered 
Species above the primary mission of Federal agencies. Our commanders 
of course strive to reconcile their obligations under existing 
environmental laws and the Navy's responsibility under Title 10 to 
maintain ready forces. In some cases, to comply with these laws, we 
must adjust the training designed to prepare our carrier battle groups 
for deployment. These adjustments take the form of environmental 
mitigation. Adoption of mitigation increases the probability of 
obtaining the necessary authorization from the appropriate regulatory 
agency, and decreases the risk of having to defend against a citizen 
suit (and its inevitable delays) designed to enjoin military training. 
Such adjustments to our planned training sometimes impact its realism 
and intensity, thereby contributing to a reduction in its utility.
    The Navy's marine mammal program is the only one in the world 
focusing on marine mammals and underwater sound. The goal of the 
program is to provide the data required to assess the potential effect 
of an at-sea-activity on living marine resources. It is a closely 
coordinated program of Research and Development funding to 
universities, industry, and national defense labs. Preliminary research 
began in 1988, and the program was expanded in 1994 and 2000. The 
program is divided into four research categories:

        <bullet> Hearing and non-hearing physiological effects,
        <bullet> Enabling technologies for impact assessment and 
        mitigation,
        <bullet> Ecosystem Studies, including controlled sound exposure 
        to assess behavioral responses,
        <bullet> Modeling and simulation.

    This research indicates that it is possible to determine the 
temporary threshold shift in the hearing of some species of marine 
mammals.
    Navy has several programs underway to assist in developing a 
predictive model for animal distribution and behavior. The development 
of bottom-mounted listening devices has provided the tools to derive 
estimates of fin whale numbers based on recorded whale calls. The 
movement of right whales and other species are monitored by development 
of radio telemetry tags attached to the animals. These tags measure sea 
surface temperature that helps to determine habitat preferences. New 
sensors use ARGOS I satellite tracking tags to follow the migration 
movement of humpback whales. Another new sensor--acoustic Datalogger 
tag--enables the Navy to record acoustic, behavioral, and depth data 
from a single tag.
    The Navy is developing a marine mammal information system for the 
planning of exercises and training. The Living Marine Resources 
Information System (LMRIS) has five main elements: (1) monthly 
occurrence levels that provides information on the distribution and 
timing of living marine resources in large ocean regions; (2) 
population estimates of the species of concern including individual 
stock numbers; (3) sanctuaries, reserves, and critical habitats for all 
the geographic areas within which the Navy operates; (4) data that 
indicates the criteria used to determine the occurrence indices for 
each species and region; and, (5) a browser-based information and 
mapping system served through a web-accessible LMRIS server that 
provides immediate access to authorized users over the internet. The 
LMRIS provides access to consolidated information on what is known 
about living marine resources distribution and abundance over large 
ocean regions. Such information is critical for continued Navy 
operations while protecting and conserving our living marine resources.
    Future directions include: (1) the development of predictive 
modeling of risk for Navy activity planners; (2) continued research to 
identify the data sets and models required to calculate the effect of a 
given sound source on marine mammals in a specific area; and, (3) 
developing simulation architecture to integrate the component data sets 
and models mentioned above.

                          special use airspace
    4. Senator Inhofe. Major General Hanlon, commercial air traffic is 
expected to increase 6 percent annually and military airspace use will 
also increase with the next generation of high performance weapon 
systems. The Marine Corps has been attempting to obtain additional 
special use airspace in Pamlico Sound, North Carolina, for more than 12 
years. A recent modification to the Marine Corps' original proposal 
includes raising the floor of the Military Operating Areas from 500 to 
3000 Above Ground Level to lessen noise impacts.
    How might the recent modification to the Marine Corps' airspace 
proposal impact training?
    Why is it taking so long to obtain this critical airspace?
    General Hanlon. Raising the floor of the proposed special use 
airspace (Core and Mattamuskeet MOAs) from 500 feet to 3,000 feet, 
Above Ground Level (AGL), lessens the realism of training for Marine 
Corps TACAIR assets. It will restrict aircrew from using the airspace 
for low altitude air to ground, air to air, and basic low altitude 
maneuvering training. Aircraft participating in large scale and joint 
force exercises will be restricted to the mid and higher altitude 
blocks limiting the full potential benefits of the exercise and 
training.
    The previous proposal (with a 500 ft. floor) was shelved/delayed 
for fear of litigation from local opposition groups. The Marine Corps 
has offered to raise the floor of the training airspace in an effort to 
speed up the approval process and limit exposure to litigation. In 
addition to raising the floor of the training area, the Marine Corps is 
currently preparing an Environmental Impact Statement (EIS) vice an 
Environmental Assessment (EA) to further limit susceptibility to 
litigation.
    The Marine Corps' ability to acquire this additional special use 
airspace has been delayed as ongoing negotiations between the Marine 
Corps, FAA, and local opposition groups have failed to reach an amiable 
solution. Increased population in the area, combined with the 
increasingly restrictive environmental trends, and competing demands 
for additional airspace have forced the Marine Corps to compromise, in 
an effort to reach an amiable solution. Ultimately the FAA approves the 
allocation of Marine Corps special use airspace.

                      airspace acquisition and use
    5. Senator Inhofe. Major General Van Antwerp, Vice Admiral 
Amerault, Major General Buchanan, and Major General Hanlon, what other 
specific challenges do the Services face regarding airspace acquisition 
and use?
    As currently proposed, how might the Federal Aviation Agency's 
``Free Flight'' program effect military operations?
    What are the Services doing to address these challenges and to 
provide adequate airspace volume for current and future military 
testing and training needs?
    General Van Antwerp. The Army recognizes that airspace is a 
critical element required to support training, testing, demolition, and 
other essential operations and activities. Those activities include 
firing indirect weapons such as artillery, air defense, Unmanned Aerial 
Vehicles (Remotely Operated Aircraft), Army and joint aerial gunnery 
missile intercept programs, such as Theater High Altitude Air Defense. 
For example, Special Use Airspace (restricted areas) is required to 
contain activities that would otherwise be harmful to non-participants. 
Airspace is also required to support installation airfields and other 
aviation training areas, e.g., Nap-of-the-Earth and Night Vision 
Device. Complaints concerning noise generated from aircraft and ground-
based sources are also a concern and can impact on airspace 
availability. The Free Flight concept, if not implemented carefully and 
wisely, has the potential to have significant adverse impact on the 
Army. Free Flight implementation must include adequate provisions to 
accommodate the needs of national defense. To ensure that the Army has 
access to sufficient airspace to meet its needs and accommodate 
combined and joint training, we are engaged with the other Services, 
OSD, the Joint Staff, FAA, and other agencies on a frequent basis to 
address these issues. We implement our engagement strategy through 
formal, chartered committees, boards and working groups, interagency 
representatives, and less formal daily coordination.
    Admiral Amerault. The military recognizes that new, more 
sophisticated weapons and platforms require larger areas of Special Use 
Airspace for testing and training. The new testing and training 
activities, however, may be of shorter duration than similar current 
activities. We will continue to work closely with the FAA and have 
received a commitment from the FAA's Airspace Manager to include DOD in 
all discussions that deal with Special Use Airspace.
    DOD and the services will continue to work closely with the FAA in 
the establishment of the Free Flight Program to ensure it does not 
affect our mission readiness. The FAA understands that the airspace 
overlying our major test and training ranges must remain. Some of these 
areas, the R-2508 Complex, Nellis, Fallon, White Sands and Utah Test 
and Training Range, to name a few, are critical to maintaining our 
mission readiness. We cannot afford to compromise this airspace.
    FAA and DOD have agreed that additional discussion regarding other 
pieces of airspace to accommodate the Free Flight initiative may be 
necessary. We will thoroughly review each proposal to ensure that our 
testing and training requirements are not compromised.
    General Buchanan. Despite a decrease in military force structure 
and total flying hours, the Air Force has a continuing requirement for 
airspace to train in. The Air Force is working closely with the FAA in 
the establishment of the Free Flight program to ensure it does not 
affect our ability to train. The FAA understands that the airspace 
overlying our major ranges with the costly ground infrastructure must 
remain. Some of these areas, such as the R-2508 Complex near Edwards 
AFB, CA, the Nevada Test and Training Range, and the Utah Test and 
Training Range, are critical to the accomplishment of our mission. 
These groups of airspace must not be compromised.
    Both the FAA and DOD accept that there may be a need to negotiate 
on other pieces of airspace to accommodate the Free Flight initiative. 
But, we will thoroughly review each proposal. The key to the successful 
establishment, modification and use of Special Use Airspace (SUA) will 
require the application of the four following Parameters:

        Volume--enough to accomplish operational, test or training 
        objectives
        Proximity--distance to operating airfields
        Time--available when operations, test, or training required
        Attributes--ability to accomplish specific air/land/sea events

    The first three are self-explanatory. The term ``attributes'' 
refers to the quality that differentiates one piece of airspace from 
another. For instance, there might be a range under the airspace, or 
mountainous terrain needed for a particular test or instrumentation 
needed for training.
    The key to maintaining our access to special use airspace is to 
work closely with the FAA. The senior members of the DOD Policy Board 
on Federal Aviation, along with the Department of Transportation/FAA, 
are currently determining a plan for effective joint FAA-DOD 
interaction. We will have to be able to predict and articulate our 
requirements. In order to move toward more real-time use, we will have 
to work with the FAA to focus on the technology necessary to make real-
time work. Finally, we will have to take advantage of the natural 
flexibility of air operations to work creative solutions to difficult 
issues.
    General Hanlon. The biggest challenge the Marine Corps faces in the 
procurement and use of military airspace is encroachment. Civilian 
development, civilian aviation traffic, and environmental protection 
groups have encroached upon some training areas to the point that it 
limits our ability to train. Encroachment has significantly reduced the 
number of live-fire training ranges (particularly on the east coast, 
Hawaii, and Japan). Additionally, the usable range space of existing 
live-fire ranges have been reduced as a safety precaution due to 
encroachment to range boundaries, impact areas and firing fans. The 
ever intensifying and increasingly restrictive National Environmental 
Protection Act (NEPA) standards set forth by the EPA and other federal 
agencies further limits our use of training ranges and airspace. The 
combined result of these factors is a reduction in usable range space 
which detracts from training realism and negatively impacts aircrew 
readiness. 
    As proposed the free flight program will negatively affect military 
training operations and readiness. DOD must work together to build the 
proper infrastructure to manage airspace in coordination with the FAA. 
A good example of this is currently underway at Yuma, Twenty Nine 
Palms, and El Centro with the planned acquisition of ATC radars to 
manage the special use airspace in the vicinity of those bases. The 
radars, however, will not be operational until at least 2004.
    The Marine Corps recently assigned the Training and Education 
Command (TECOM) as the executive agent for all ranges and training 
areas. This assignment enables better coordination of all ranges and 
training area requirements with that of emerging combat and training 
requirements by placing both responsibilities under a common commander, 
the Marine Corps Combat Development Command (MCCDC), located at Marine 
Corps Base Quantico, Virginia. Additionally, a Joint Sustainable Range 
Working Group Initial Action Plan National Airspace Redesign, the Air 
Installation Compatible Use Zone (AICUZ), and the Range Air 
Installation Compatible Use Zone (RAICUZ) programs were established to 
aid in the management of airspace.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
          easements to protect rf frequency and communications
    6. Senator Allard. Major General Buchanan, Schriever Air Force Base 
in Colorado is trying to secure easements to protect RF frequency and 
communications with satellites. The easements include height 
restrictions for the line of sight for satellite dishes. They are 
taking a pro-active approach to range encroachment. How are you 
supporting these efforts in the formulation of your budget?
    General Buchanan. The United States Air Force is aware of the need 
to protect RF frequencies for command, control and communication links 
with satellites. The 50th Space Wing at Schriever Air Force Base is 
currently assessing the adequacy of local easements, to include height 
restrictions, and other limitations on range encroachments near its 
facilities. The purpose of the assessment is to identify potential 
problems that may impact either the surrounding community or satellite 
command and control operations. If the assessment identifies 
deficiencies, the 50th Space Wing and Air Force Space Command would 
develop action plans to meet its communications requirements while 
still accommodating local community concerns. Funding to address any 
deficiencies would be requested through the normal planning, 
programming, and budgeting process.
    Satellite operations depend upon preserving the critical RF 
communications access we have today. It is important we continue to 
work closely with the Federal Communication Commission as well as local 
communities, such as Schriever Air Force Base, to create viable 
solutions that satisfy each other's needs.

               air force academy flight training program
    7. Senator Allard. Major General Buchanan, due to close in and more 
dense building around the Air Force Academy they are struggling with 
getting their flight training program restarted. Citizens complain 
about the noise and safety of planes flying over their homes during 
takeoff and landing. What is the Air Force doing and what can we do to 
help the Academy as well as the local citizens?
    General Buchanan. The Academy is aware of community concerns 
regarding the Introductory Flight Training (IFT) program, an Air Force-
wide program to better prepare pilot candidates for success at 
Undergraduate Pilot Training. In December 2000, the Academy developed, 
and made available to the public, an Environmental Assessment (EA) 
which analyzed the potential environmental impacts of the proposed IFT 
program. In an effort to accommodate community concerns, the Academy 
Superintendent, Lieutenant General Dallager, directed an additional 
review of the proposed IFT program alternatives. The purpose of the 
review is to identify potential program modifications that might 
mitigate community concerns and also meet IFT program requirements. The 
Academy is working hard to address these issues.
    Your offer to help the Academy and community in this effort is 
greatly appreciated. Keeping the channels of communication open between 
the community, the Colorado delegation and the Academy will assist in 
finding an acceptable solution.

                  flight restrictions and encroachment
    8. Senator Allard. Major General Buchanan, flight restrictions due 
to the encroachment in the safety zone and noise make it difficult for 
the F-16 crews to train at Buckley Air Force Base. What can we do to 
help the units at Buckley Air Force Base as well as the local citizens?
    General Buchanan. Brigadier General Schultz, the 140th Wing 
Commander, and Col. Mooney, 140th Wing Operations Group Commander, met 
with FAA officials, the Denver Manager of Aviation, and the Denver 
Terminal Radar Approach Control Air Traffic Manager to discuss Denver 
International Airport/Buckley air traffic issues. A detailed look at 
the proposed sixth runway operations and analysis of impacts of 
associated arrivals and departures on Buckley air traffic patterns was 
conducted. The consensus of the group was that no significant impact 
would occur to Buckley flight operations as a result of the proposed 
sixth runway.
    Modifications to Buckley flight operations warranted changes to the 
Buckley Accident Potential Zone (APZ). The APZ boundary modifications 
resulted in the inclusion of ``incompatible land uses'' within the APZ; 
however, these land uses have not impacted flying operations at 
Buckley. To prevent future incompatible development near Buckley, the 
City of Aurora has taken proactive measures adopting zoning codes, 
development regulations, and real estate disclosures of Buckley flying 
operations and noise. They continue to implement the Air Force's 
revised Air Installation Compatible Use Zone (AICUZ) recommendations to 
the extent practicable and legally sustainable.
    As with all forms of encroachment, it requires continuous vigilance 
by the Air Force (including the Air National Guard) to ensure that 
Buckley's interests are factored into all decision making.

                    fort carson encroachment issues
    9. Senator Allard. Major General Van Antwerp, due to a housing 
build-up around Fort Carson, noise complaints are on the rise, 
especially from night training and artillery/aircraft firing. What can 
we do to help Fort Carson as well as the local citizens? Do local real 
estate agents inform their clients about living next to a military 
base? What do garrison or installation commanders do (or should do) to 
advise the surrounding communities as to the training schedules and the 
impact on the local community?
    General Van Antwerp. The U.S. Army Center for Health Promotion and 
Preventive Medicine (USACHPPM), assisted in the completion of the Fort 
Carson Installation Environmental Noise Management Plan (IENMP) in 
December 1999. It contains detailed information regarding what land 
uses are compatible with the noise levels outside the installation 
boundaries. This IENMP was distributed to all regional land use 
planners in adjacent counties. It provides them with a reference 
document to aid in making decisions when evaluating applications for a 
change in zoning classification. Additionally, USACHPPM has provided 
instruction on the Fort Carson IENMP for regional, county, and 
municipal land use planners and interested private citizens to assist 
them in understanding the issues.
    The Fort Carson noise contours were shared with regional land use 
planners to illustrate the noise levels on, and adjacent to, the 
installation. With this knowledge, land use planners can make 
appropriate decisions relative to zoning classifications.
    Along the eastern boundary, there are several noise-impacted 
developments. The El Rancho and Midway Ranches are in an area that is 
noise impacted. When the proposed Digital Multi Purpose Range Complex 
is completed in 2006, noise impacts to these developments may well 
worsen. Fort Carson is working with the community to identify potential 
actions to address this concern.
    In another case, a developer recently applied to rezone 640 acres 
in Pueblo County to allow development of 5-acre lots. The Pueblo County 
Department of Planning and Development required the developer to 
contact Fort Carson to determine if the land was noise impacted and to 
determine if it was a compatible land use. The answer was that it was a 
compatible land use. This coordination indicates that efforts to 
educate regional land use planners are being successful.
    Zoning as a means of controlling encroachment is only partially 
effective. Midway Ranches, on the east, consists of three 5-acre lots. 
With this lot size, an agricultural zone classification will allow the 
development. The El Rancho development consists of approximately 500 5-
acre lots. The land was platted in the early 1970s. Building on the El 
Rancho lots was very limited until 1998 due to the lack of water. 
Residents had to haul water and store it in cisterns at their 
residence. In 1998, the developer at Midway Ranches purchased water 
rights and installed water lines into the El Rancho development. The 
development currently has sufficient rights to supply 20 percent of the 
lots.
    Housing starts in El Rancho have increased significantly since 
water became available. The developer at Midway Ranches is currently 
attempting to acquire additional water rights. When the Pinons at 
Turkey Creek Development, west of Fort Carson, were planned, comments 
from Fort Carson were incorporated. In the title for each lot there is 
a disclaimer stating that the lot is located next to Fort Carson and is 
subject to training noise and dust that can occur at any time of day or 
night.
    At Fort Carson and most Army installations, some real estate agents 
apparently do not notify potential buyers of the adjacent installation 
and its associated noise. This lack of knowledge by the homeowner often 
results in complaints to the installation. Many noise complaints at 
Fort Carson occur when deployed units return to Fort Carson and resume 
their normal training activities. This creates so-called ``quiet 
periods,'' followed by increased training by returning units. This 
increase in training noise often generates an increased number of 
complaints.
    Installations do actively work to address noise encroachment issues 
by providing training schedules to the neighboring communities, working 
with local developers, responding to complaints, and publishing news 
releases.
    An approach tried by the Naval Air Station Oceana, Virginia Beach, 
VA was the purchase of noise easements on adjacent lands. Millions of 
dollars have been spent with residents receiving up to 75 percent of 
the land's value. This has proven ineffective in reducing complaints or 
dissuading development. The only truly effective means to maintain the 
training mission is for the military to purchase the impacted lands and 
use them as a buffer zone between noise-generating training activities 
and the surrounding community.

                           degraded readiness
    10. Senator Allard. Major General Van Antwerp, have the impacts of 
encroachment degraded training to the point that unit commanders have 
lowered their training readiness rating on their monthly status 
reports? What actions must we take now and in the future to avoid 
degradation of training readiness?
    General Van Antwerp. Unit commanders have not yet lowered their 
training readiness ratings due to these encroachment issues. Instead, 
commanders have developed ``work-arounds'' to continue training in 
order to maintain their readiness posture and to accomplish the 
mission. Although these ``work-arounds'' must support training 
requirements based on doctrinal standards, they make the training 
experience sub-optimal. When training combines a number of ``work-
arounds,'' the adverse impacts on training are magnified and 
cumulative.
    The Army's comprehensive effort to ensure readiness and minimize 
impacts of encroachment is its Sustainable Range Management (SRM) 
initiative. The objective of SRM is to maximize the capability, 
availability, and accessibility of ranges and training land to support 
doctrinal training and testing requirements. SRM is based on three 
tenets: (1) Develop and Maintain Scientifically Defensible Data. We 
must have complete data on all aspects of ranges--their operational 
characteristics as training facilities, their physical characteristics 
as real property, and their characteristics as part of the natural and 
cultural environment; (2) Integrate Management across the four 
disciplines that directly affect ranges: range operations and 
modernization, facilities and installation management, explosives 
safety management, and environmental management; and (3) Establish an 
Outreach Campaign--to inform and address the concerns of the community 
so all may gain an understanding of why the Army must conduct training 
and testing, and how we are moving to a more sophisticated management 
approach to ensure that the public's concerns are addressed. The Army 
Deputy Chief of Staff for Operations and Plans (DCSOPs) leads this 
initiative and is working with my office and other Army organizations 
to develop and implement SRM. We anticipate that SRM will lead to a 
better understanding of our training and testing activities, both 
within and outside the military. SRM will promote a more informed 
dialogue when weighing national security and environmental 
requirements.
    The Army recommends that Congress support and resource the 
implementation of the Army's SRM initiative. SRM is the foundation for 
assuring continued live training and environmental stewardship on our 
ranges. We will continue to improve range operations, range 
modernization, state-of-the-art land management, research on the 
effects of munitions constituents, UXO management, and public outreach. 
We also recommend that Congress support and encourage cooperation among 
regulators and the military in ways that emphasize the need to 
harmonize military readiness concerns and environmental regulation. The 
Army believes that Congress should continue to recognize that Army 
readiness is a positive societal good and a legal mandate. Defense of 
our Nation is an important requirement that benefits all citizens. I 
strongly believe there are effective ways to harmonize the needs of the 
military with the needs of the environment and I firmly believe it is 
in our Nation's best interest to do so.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                    clean-up of unexploded ordnance
    11. Senator Akaka. Major General Van Antwerp, Vice Admiral 
Amerault, Major General Buchanan, and Major General Hanlon, the 
Department of Defense faces a bill for the clean-up of unexploded 
ordnance (UXO) that is at least in the tens of billions of dollars, and 
could well be in the hundreds of billions of dollars. General 
Buchanan's prepared statement indicates, with regard to unexploded 
ordnance, that ``remediating closed ranges and clearing active ranges 
will need to be a long and incremental process to be affordable under 
today's budgets. . . . Anything more aggressive than a long-term 
program will significantly strain present readiness accounts.'' At 
current funding levels, it has been estimated that it would take the 
military services several thousands years to remediate UXO on a DOD-
wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    General Van Antwerp. Timing of UXO responses will depend on the 
level of explosives safety risks and environmental impacts at 
individual sites. Sites with high numbers of UXO and high levels of 
public access often require a rapid response to reduce risk quickly. 
This initial response may be followed up with a more systematic 
response as personnel and fiscal resources are available. The total 
duration of a given response action is largely based on the size and 
complexity of the individual site and the degree of cooperation between 
the military and other stakeholders, including regulators.
    The Army continues to fund actions on our base closure and 
realignment sites identified for transfer to make these properties 
available as quickly as possible. In addition, the Army receives DOD 
funding for actions on Formerly Used Defense Sites (FUDS), as DOD's 
Executive Agent. Our current FUDS cost-to-complete estimate is $12 
billion, of which $8 billion is UXO-related. At the current DOD funding 
level it will take 60 years to complete the entire program. In addition 
to the necessity for increased UXO funding, I believe we need a uniform 
regulatory process that considers explosives safety as the principal 
concern in the decision-making process.
    According to the Army's Fiscal Year 2000 Financial Statement, 
liabilities for UXO were estimated at approximately $13 billion for 
conducting response at closed, transferred, and transferring sites. 
Assuming Congress determined to fully fund that liability over a 20-40 
year timeframe, annual funding of $650 to $325 million, respectively, 
would be required.
    Admiral Amerault. I would not venture a guess at this point in 
time. Navy is currently developing a long-term strategy to accomplish 
two strategic goals; 1) remediation of closed, transferred, and 
transferring (CTT) ranges and 2) sustainment of active and inactive 
training ranges to meet mission essential requirements. UXO clearance 
at active ranges is service specific and is an ongoing requirement as 
part of range management and sustainment. It is too early in the 
process to speculate on what is an acceptable timeframe to complete CTT 
UXO response actions. The CTT program is in its infancy and current 
cost estimates show a wide degree of variability. As we begin to better 
characterize ranges, cleanup requirements, and promising technologies 
that provide acceptable long-term solutions, Navy can better address 
program affordability and completion goals.
    General Buchanan. It is important that we understand that some 
locations have been involved in ordnance activities for over a century. 
We feel it will take decades to clean up such a legacy. Federal lands 
managed by DOD contain places of historic significance and areas where 
munitions disposal was accomplished by burial. For example, DOD is 
still addressing the World War I era mustard gas contamination in the 
Spring Valley neighborhood of our Nation's capital. Technology will 
expand in the areas of UXO detection and remediation. We expect these 
emerging technologies will accelerate UXO clean-up at a cost less than 
today's traditional, manpower intensive clean-up techniques. As we 
further study the extent of UXO contamination, to include locations and 
depths, we will refine both the cost and time estimates to complete 
necessary clean up.
    General Hanlon. It is extremely difficult to place a time frame for 
remediating closed, transferring, and transferred (CTT) range and 
conducting clearance on active ranges due to the many variables (e.g., 
state of remediation/clearance technologies, future land use, etc.) 
impacting the costs to conduct these activities. Our experience, 
however, with the installation restoration program indicates that as 
time progresses and new technologies are developed, costs for cleanup 
of particular sites have decreased. We would anticipate the same would 
be true for UXO remediation/clearance.

    unexploded ordnance characterization and remediation activities
    12. Senator Akaka. Major General Van Antwerp, Vice Admiral 
Amerault, Major General Buchanan, and Major General Hanlon, General Van 
Antwerp's prepared statement indicates that ``The UXO characterization 
and remediation activities conducted at Army sites using currently 
available technology is extremely expensive and often yields 
unsatisfactory results. Advanced technology offers the potential to 
significantly reduce the Department's liability and safely and 
effectively cleanup land so it may be safely used for other 
activities.''
    Do you believe that increased investment in UXO remediation 
technologies would be likely to produce more effective and efficient 
remediation processes and substantially reduce the Department's long-
term clean-up liability and the time required to complete such clean-
up?
    General Van Antwerp. Yes. Most of Army's UXO technology investments 
are directed at detection and discrimination methods. Increased 
detection and discrimination capabilities will significantly reduce the 
cost of remediation by reducing the percentage of false positive 
detections. Currently the excavation of ``detections'' results in the 
uncovering of harmless scrap and artifacts much more often than it does 
actual UXO. This significantly drives up the cost of remediating a 
site. An additional benefit of technology investments for detection/
discrimination and remediation will be reduced natural resource injury. 
Many of our ranges are in fact wildlife refuges in the middle of 
urbanizing regions. Current remediation processes may destroy these 
valuable habitats. In some cases, the military may be accountable for 
the cost of those damages as well.
    In addition to investing in detection and response technology, we 
need to invest in developing a standard risk assessment methodology. 
Currently there is a plethora of risk assessment methods being used ad 
hoc across Army and DOD and by State and Federal regulators. Without a 
standard risk assessment methodology, it will be difficult to 
prioritize actions across all sites, and even more difficult to program 
and budget properly for this program. In addition to a standard risk 
assessment methodology, we also need standard risk management tools. 
Development of standard risk management tools depends on developing one 
national risk-based regulatory framework.
    Improved site characterization technologies should have a 
significant impact and positive impact on UXO responses. Ground-based 
digital geophysical mapping will continue to improve and will enhance 
the overall effectiveness and confidence stakeholders have in the 
responses that are being conducted. It is, however, continued 
investment in development and integration of new technologies into all 
phases of the UXO response process that will have the greatest longer-
term effect.
    Finally, many significant impediments act as disincentives to 
investment in UXO response technology. One such impediment is the lack 
of a national process for UXO response. Therefore, it is difficult to 
know exactly what the requirements are, and difficult to predict what 
response technologies to develop. Without agreement on the process and 
standards, the incentive to invest in response technology is limited.
    Admiral Amerault. The Navy believes that technology discovery and 
development may lead to increased effectiveness and efficiencies in UXO 
responses. Each service has been assigned lead responsibility for a 
specific program area. Army is the lead service for UXO, including 
development of UXO response technologies. Navy's contribution, like the 
other services and non-DOD stakeholders, is to identify UXO response 
requirements to help focus R&D investment efforts. Army relies on two 
Department of Defense programs to provide investment into developing 
response technologies for UXO that support the services' requirements:

        <bullet> The Strategic Environmental Research and Development 
        Program (SERDP) provides funding for basic research pertaining 
        to the environment, including cleanup.
        <bullet> The Environmental Security Technology Certification 
        Program (ESTCP) provides funds to move ideas and concepts from 
        the laboratory to real life application.

    Since the majority of Navy operations take place outside of U.S. 
territorial seas it has identified 161 million acres of water ranges or 
operation areas that are considered to be part of the active range 
inventory.
    The vast majority of these ranges are in deep-water, open ocean 
areas that pose negligible safety or chemical contamination risks.
    The current state of UXO technology does not support large-scale 
water based UXO removal. Land based technologies used for detection and 
discrimination of UXO have not proven to be viable for underwater 
environments.
    Navy is currently developing a risk-based cleanup model to evaluate 
the potential for cleanup response actions associated with UXO in very 
shallow waters and along coastal shore areas. This model will assess 
the potential explosives safety risks associated with human exposure to 
UXO that may result from past disposal of munitions in the water or 
from former training activities conducted at ranges now designated as 
closed. Response actions for either of these two scenarios will be 
undertaken as part of the Navy's environmental restoration program.
    General Buchanan. Yes, increased investment in UXO technologies 
would likely reduce long-term clean-up liability and schedule. As 
demonstrated in the Installation Restoration Program, the development 
and application of new technologies have allowed DOD to restore and 
return land for re-use more quickly and with greater cost-
effectiveness. Development of remediation technologies is only part of 
the response for UXO clean up on DOD lands. Detection of UXO and its 
explosive constituents represent the first challenge and initial step 
prior to any remediation. Given the diverse terrain and climates of DOD 
test and training ranges, detection may be difficult for UXO buried in 
the soil or covered by dense vegetation. Therefore, the development of 
UXO detection technology is necessary to support UXO remediation 
efforts.
    General Hanlon. The Marine Corps is not directly involved in the 
development of technologies for clearance or remediation of UXO. 
Although this research and development is accomplished by the other 
military services, the Marine Corps actively participates on the boards 
that functionally review these technologies. Based on our experience 
with the installation restoration program, however, increased 
investment in new remediation technologies would likely produce more 
effective and efficient remediation processes and reduce our cleanup 
liability.

              current and projected costs for remediation
    13. Senator Akaka. Major General Van Antwerp, Vice Admiral 
Amerault, Major General Buchanan, and Major General Hanlon, 2 years 
ago, this committee required the Department of Defense to provide us 
with a complete estimate of the current and projected costs for 
remediation of UXO at active and closed military bases. Although this 
report was due on March 1, we have not yet received it. Moreover, we 
have been told that despite specific direction from Congress, the 
report will not address remediation costs at active bases, and it will 
not address costs of cleaning chemical residues and addressing possible 
groundwater contamination.
    Do you believe that the Department needs a systematic approach to 
its unexploded ordnance problems, and that this must including the 
cataloging, categorization, and prioritization of all UXO problems?
    General Van Antwerp. Yes, I do believe the Department needs such a 
system. The Army has begun the cataloging process with the initiation 
of our inventory of ranges. The inventory, begun in 2000, is expected 
to be complete in 2003. The Army Environmental Center is collecting 
data on terrain, natural resources, and other factors on the Army's 
Active, Inactive, Closed, Transferring, and Transferred ranges. The 
Center for Army Analysis has begun developing a UXO prioritization 
model for use in supporting funding decisions. The categorizing (i.e., 
characterization) of UXO sites is difficult. Without an agreement with 
regulators as to the proper means of UXO site characterization and 
response requirements, we cannot fully identify the cost of our UXO 
response program. Much more work and coordination on this issue is 
necessary.
    Admiral Amerault. Yes, the Navy supports a systematic approach in 
dealing with unexploded ordnance issues. The Navy is developing policy 
that focuses on the effective and efficient management of its ranges 
and training areas. These policies will include best management 
practices for UXO on ranges and training areas to ensure long-term 
sustainability. The Navy has budgeted $8 million in fiscal year 2002 to 
begin assessment of UXO contamination on Closed, Transferring, and 
Transferred ranges. The extent of UXO contamination on active ranges is 
not known. We are currently identifying data gaps so the necessary 
research can be developed to characterize the fate and effects of UXO 
contaminants on all of our ranges. Although impacts to readiness from 
UXO have been minimal to date, the Navy is committed to its good 
environmental stewardship.
    General Buchanan. Yes, DOD must develop an approach much like what 
you've outlined here. To respond effectively and with available 
funding, DOD has aligned its range response efforts into two 
categories: active and inactive; and closed, transferred, and 
transferring. For all ranges, DOD complies with all Federal mandates 
and continues its environmental stewardship to manage these lands. 
Since active and inactive ranges are used for training, clearance of 
munitions, rather than remediation, is more appropriate. The closed, 
transferred, and transferring ranges are properties that have been 
selected for other uses. Closed ranges are still under DOD control 
while transferred and transferring ranges are typically Formerly Used 
Defense Sites (FUDS) and Base Realignment and Closure (BRAC) 
properties. Since DOD's remediation activities must be prioritized 
based on risk to human health and the environment, DOD's limited 
cleanup funds must be focused on the restoration of transferred and 
transferring ranges, as these properties are destined for turn-over to 
other government or public uses.
    General Hanlon. The Marine Corps is working with OSD and the other 
Services on a systematic approach regarding UXO on our ranges. As part 
of putting together the UXO Report to Congress, the Services developed 
an inventory of all active/inactive, closed, transferred, and 
transferring ranges. This data along with site-specific data such as 
munitions types, estimated densities, and future land use will be used 
to establish priorities for UXO response on closed, transferred, and 
transferring ranges. In addition, a joint Service working group is 
developing a DOD directive for sustainable range management to address 
UXO issues on our active ranges.

                         standards for cleanup
    14. Senator Akaka. Vice Admiral Amerault, at a briefing on the DOD 
unexploded ordnance (UXO) report, our staff was told that the cleanup 
estimates presume that all cleanup will be done to current standards--
clearing all UXO to a depth of either 10 feet or 4 feet, depending on 
the intended use of the property. The briefers stated that they are not 
aware of any case where the Department planned to fence off rangelands 
without clearing UXO, or to clear UXO to a depth of less than 4 feet. 
In Hawaii, however, we are being told that it is too expensive to clear 
UXO from Kaho'olawe to this standard, and that the Department would 
like to fence some areas off and clear other areas only to a depth of 4 
inches.
    Does DOD have a clear standard for the clean-up of UXO? If so, what 
is that standard, and do you intend to live up to it on Kaho'olawe?
    Admiral Amerault. Depth of clearance for UXO is determined by 
evaluating site-specific conditions and reasonably anticipated reuse of 
the property and may be mitigated by factors such as vegetation, 
topography, geology or technology. For example, the UXO cleanup of the 
former Navy bombing range at Nomans Land Island off the coast of 
Massachusetts has been limited to surface clearance only. This is 
consistent with the intended reuse of the property by the Fish and 
Wildlife Service as an unmanned wildlife refuge. Subsurface clearance 
to a depth of 4 or 10 feet would destroy the island's natural habitat, 
the main reason the Fish and Wildlife Service finds the property 
valuable. In the absence of site specific information, the Department 
of Defense Explosives Safety Board (DDESB) uses a depth of clearance 
planning criteria of 1 foot, 4 feet, and 10 feet and has described 
reuses that are supported by each level of clearance. This should not 
be construed as determining a cleanup standard.
    With respect to UXO clearance standards applicable to Kaho'olawe, 
the fiscal year 1994 Defense Appropriations Act directed the Secretary 
of the Navy to convey Kaho'olawe to the state of Hawaii, established 
the Kaho'olawe Island Conveyance, Remediation and Environmental 
Restoration Trust Fund, and ``authorized to be appropriated'' into this 
fund $400 million over 10 years for cleanup. The state of Hawaii 
receives not less than 11 percent of all Trust funds. Navy transferred 
Kaho'olawe by quitclaim deed to Hawaii in 1994 and signed a Memorandum 
of Understanding (MOU) that allows Navy to retain access control until 
November 2003 or cleanup completion, whichever occurs first.
    The MOU between the Navy and the state of Hawaii stipulated a two-
tiered cleanup approach and established goals of 100 percent surface 
and 30 percent subsurface clearance between 1-4 feet. To date, the Navy 
has cleared UXO from 7,028 acres of land on Kaho'olawe, including both 
surface and subsurface clearance. The Navy is in negotiation with the 
Kaho'olawe Island Reserve Commission (KIRC) to reprioritize cleanup 
actions to reflect current funding and reuse expectations consistent 
with a goal of cleanup completing all work by the end of the 10-year 
effort, that is, November 2003.

    [Whereupon, at 11:46 a.m. the subcommittee adjourned.]

                                 <all>

</pre></body></html>
